<html>
<title> - THE FUTURE OF TSA'S REGISTERED TRAVELER PROGRAM</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                          THE FUTURE OF TSA'S 
                      REGISTERED TRAVELER PROGRAM 
=======================================================================
                                HEARING

                               before the

                        SUBCOMMITTEE ON ECONOMIC
         SECURITY, INFRSTRUCTURE PROTECTION, AND CYBERSECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 3, 2005

                               __________

                           Serial No. 109-54

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                     U.S. GOVERNMENT PRINTING OFFICE

35-694 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001























                     COMMITTEE ON HOMELAND SECURITY



                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael McCaul, Texas                James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

                                 ______

   Subcommittee on Economic Security, Infrastructure Protection, and 
                             Cybersecurity



                Daniel E. Lungren, California, Chairman

Don Young, Alaska                    Loretta Sanchez, California
Lamar S. Smith, Texas                Edward J. Markey, Massachusetts
John Linder, Georgia                 Norman D. Dicks, Washington
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Mike Rogers, Alabama                 Zoe Lofgren, California
Stevan Pearce, New Mexico            Sheila Jackson-Lee, Texas
Katherine Harris, Florida            James R. Langevin, Rhode Island
Bobby Jindal, Louisiana              Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex          (Ex Officio)
Officio)

                                  (II)


















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, and Chairman, Subcommittee on 
  Economic Security, Infrastructure Protection, an Cybersecurity.     1
The Honorable Peter T, King, a Representative in Congress From 
  the State of New York, and Chairman, Committee on Homeland 
  Security:
  Prepared Opening Statement.....................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi..................................     2
The Honorable Peter A. DeFazio, a Representative in Congress From 
  the State of Oregon............................................    18
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    12
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     4
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama...............................................    14

                               Witnesses
                                Panel I

The Honorable Kip Hawley, Assistant Secretary, Assistant 
  Scretary, Transportation Security Administration, Department of 
  Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6

                                Panel II

Mr. Charles Barclay, President, American Association of Airport 
  Executives:
  Oral Statement.................................................    31
  Prepared Statement.............................................    33
Mr. Steven Brill, Founder and CEO, Verified Identity Pass, Inc.:
  Oral Statement.................................................    38
  Prepared Statement.............................................    40
Mr. Marc Rotenberg, Executive Director, Electronic Privacy 
  Information Center, National Office:
  Oral Statement.................................................    50
  Prepared Statement.............................................    52
Mr. Lawrence J. Zmuda, Partner, Homeland Security, Unisys 
  Corporation:
  Oral Statement.................................................    47
  Prepared Statement.............................................    48

                             For the Record

Letter From Alisa Arnold, PHL Flight Attendant...................    17
Prepared Statement from EDS U.S. Government Solutions............    27
Mr. Chris Witkowski, Director, air Safety, Health and Security 
  Department:
  Prepared Statement.............................................    14

                                Appendix

Questions for Mr. Charles Barclay................................    81


                          THE FUTURE OF TSA'S
                      REGISTERED TRAVELER PROGRAM

                              ----------                              


                       Thursday, November 3, 2005

             U.S. House of Representatives,
                    Committee on Homeland Security,
                         Subcommittee on Economic Security,
              Infrastructure Protection, and Cybersecurity,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 12:16 p.m., in 
Room 311, Cannon House Office Building, Hon. Daniel Lungren 
[chairman of the subcommittee] presiding.
    Present: Representatives Lungren, Rogers, Dicks, DeFazio, 
Langevin, and Thompson.
    Mr. Lungren. [Presiding.] The Committee on Homeland 
Security, Subcommittee on Economic Security, Infrastructure 
Protection and Cybersecurity will come to order.
    The subcommittee is meeting today to continue its oversight 
of the Registered Traveler program and to assess what measures 
are needed to move it beyond its pilot phase to a truly 
nationwide system.
    I would like to welcome everybody to today's hearing. We 
have already met twice this year on the prospect of a 
Registered Traveler, or, as I prefer to call it, a trusted 
traveler program, being rolled out at our nation's airport. 
Some may wonder why a third hearing is necessary.
    Well, it is my belief that the successful implementation of 
an interoperable program for voluntary enrollment of frequent 
fliers will not only help focus TSA resources towards those 
passengers that perhaps pose the greatest risk, we will also 
reduce the burden and hassle often associated with air travel.
    I am reminded that, four weeks ago, my wife purchased an 
airline ticket to travel from Washington, D.C., to our home in 
Sacramento. This week, she intended to depart from Reagan 
National Airport, catch a connecting flight at Dallas-Fort 
Worth, and then arrive at Sacramento, California.
    On the day of her flight, she received a call to inform her 
from the airline that a storm in Dallas-Fort Worth had caused 
her flight to be cancelled.
    But she was told not to worry. They could get her booked on 
another ticket. It would be on another airline. Instead of 
going through Dallas-Fort Worth, she would go through Phoenix.
    Well, that was all fine. But imagine her frustration when 
she arrived at National and then was immediately selected for 
secondary screening. She was misidentified as a threat.
    And I know we have various matrix, but she is a frequent 
flier. I would like to assume that she may also be considered a 
trusted traveler. She purchased her ticket well in advance and 
did exactly as the airlines instructed.
    The airlines knew she had been diverted from her original 
plans. She knew it. Unfortunately, the way the system works, 
TSA did not recognize it. So time and resources were spent on 
going through her belongings and physically searching her 
unnecessarily.
    I mean, these are the kind of frustrations that I think 
people see on a regular basis. And I have said at other times 
that the most regular exposure that the average citizen has to 
DHS--and, in some cases these days, the federal government--is 
when they are going through a TSA line at the airport. And that 
very much forms their opinion about how the federal government 
operates these days.
    I think this was an inconvenience that much of the 
traveling public experiences. It is also a drain on precious 
TSA resources and, in my judgment, an inefficient way to 
conduct homeland security operations at our nation's airports.
    As we all know, frequent fliers disproportionately 
represent the traveling public. It is my understanding that if 
only 5 percent of travelers registered for the Registered 
Traveler program, it is probable that they would represent 25 
percent of the traveling public on any given day.
    For TSA, this would mean that that haystack that many of us 
have referred to, from which you attempt to identify passengers 
that may pose a problem, could be decreased by one quarter.
    I have heard from the TSA twice on why they cannot roll out 
this program now. Today, I hope to hear why they can.
    The private sector represented here today in the second 
panel has told me that they have the capability to roll out a 
fully operational and interoperable Registered Traveler program 
at 50 of the nation's largest airports within a 60-day time 
span. And we will have an opportunity for them to say that here 
and for us to question as to whether that is actual and real.
    I would like to receive an authoritative and clear answer 
from our administrator here today as to why TSA has taken so 
long to implement the program and, hopefully, how they plan to 
implement it in the near future.
    I would also like to explore the benefits that may come 
from allowing the private sector to operate the Registered 
Traveler program, as currently being done, for instance, at 
Orlando Airport.
    I believe that all--all passengers--may benefit from the 
investment of private-sector resources in the screening 
technology for airports.
    I would like to thank our witnesses for taking the time to 
join us today. I look forward to hearing each of your 
perspectives on this issue.
    It is now my pleasure to recognize the ranking member of 
the full committee, Mr. Thompson, for an opening statement.
    Mr. Thompson. Thank you, Chairman Lungren.
    It is good to see you here, Mr. Administrator.
    It has been just over 4 months since the committee held its 
last hearing on the Registered Traveler program. A lot has 
happened, to say the least, since that time, and we would like 
to hear from you, with respect to that.
    Phase two of the Registered Traveler pilot, a public-
private partnership, administered by Verified Identity Pass, 
Lockheed Martin, and the greater Orlando Airport authorities, 
started.
    Since it started, 10,000 travelers enrolled in the Orlando 
pilot. I would like for you to talk a little bit about why, on 
September 30, TSA summarily cancelled phase one of that program 
and those individuals we talked about who were then 
deactivated, had their cards deactivated, had it done so with 
no notice.
    Nearly 60 airports signed on to the Registered Traveler 
Interoperability Consortium. And the American Association of 
Airport Executives moved forward with plans to manage the 
Registered Traveler application.
    Yet, Mr. Administrator, a lot has happened since the 
intervening months.
    Many of these changes in the program and TSA raise new 
questions. The largest one is: Where is TSA going with the 
Registered Traveler program?
    Congress directed TSA in 2002 to establish a known or 
registered traveler program that allows passengers, who provide 
their biometric and biographical information, access to 
expedited security processing at the checkpoints. Over 3 years 
have passed, and the future of this program is still murky.
    The title of this hearing is ``The Promise of Registered 
Traveler.'' For years, there has been a steady drumbeat from 
business travelers, air carriers, and ordinary folks for a 
faster way of getting processed.
    People understand the need for thorough screening in a 
post-9/11 world. However, naturally, they would like the 
process to be as quick and painless as possible. That is why 
the interest in the Registered Traveler program is so great.
    Again and again, the traveling public has said that they 
are willing to give up some of their privacy and hand over 
their biometric information for the opportunity to forego 
secondary screening and access to a special lane.
    From a security perspective, the opportunity to reduce the 
haystack and separate the known from unknown travelers makes a 
lot of sense, given our limited resources.
    At present, registered travelers still undergo the same 
physical screening as all the other passengers receive. 
However, I am interested to learn whether or not TSA is 
considering allowing those travelers to keep their coats and 
shoes on at the checkpoint.
    This is an issue that comes up at every hearing. Those of 
us who go out of Reagan National, we have to take our shoes 
off. If we ask a question, we get the secondary screening.
    [Laughter.]
    So I guess you just follow suit and take your shoes off, 
even though we know there is no regulation that mandates taking 
your shoes off. It is sort of up to the individuals.
    But, nonetheless, I appreciate you being here, Mr. 
Administrator. And I look forward to your testimony and the 
testimony of the witnesses in the second panel.
    Thank you. I yield back.
    Mr. Lungren. Other members of the committee are reminded 
that opening statements may be submitted for the record.
    I just might mention that I am involved in a reconciliation 
markup in the Budget Committee in the hearing room directly 
below here, so I may have to run down for a vote and then come 
on back. But Mr. Rogers has indicated that he will more than 
competently take my place.
    We are pleased to have two expert panels of witnesses here 
today to give testimony on this important topic.
    I would just remind the witnesses that their entire written 
testimony will appear in the record. And we ask that you would 
limit your oral testimony to a 5-minute period allotted.
    The chair now recognizes the honorable Kip Hawley, 
assistant secretary of the Transportation Security 
Administration, Department of Homeland Security, to testify.

           Prepared Statement of the Honorable Peter T. King

    Thank you, Mr. Chairman. Let me first welcome and thank the 
witnesses for appearing before the Committee today. I commend the 
Chairman on the timeliness of today's hearing because I believe that it 
is vitally important that we take another hard look at the status of 
the Registered Traveler Program.
    Congress intended the Registered Traveler Program (RT) to be an 
important risk-management tool that would effectively reduce the 
haystack in which TSA looks for terrorists.
    It has been more than a year since TSA rolled out its Registered 
Traveler pilot program. Last month, TSA ended the first phase of the 
pilot, but has decided to continue to oversee the private-sector 
Registered Traveler program that was implemented by Verified Identity 
Pass at Orlando International Airport last July.
    In June, TSA testified before this Subcommittee that the RT pilot 
had ``successfully proven the operational feasibility of the Registered 
Traveler concept, processes, and technologies in a practical 
environment,'' and that TSA was analyzing data from the pilot to 
incorporate best practices into a fully expanded and permanent RT 
program. Today, we look forward to receiving TSA's report on its 
findings and recommendations in these critical areas.
    Experience to date demonstrates that RT programs can reduce 
passenger inconvenience while at the same time improving security--by 
obtaining greater information about certain passengers, and to permit 
TSA to focus on higher-risk travelers. I am encouraged by data 
submitted to the Committee indicating that average wait time in line 
for Orlando's RT members is three minutes, compared with 31.48 minutes 
for non-RT members.
    TSA should have garnered enough experience by now to begin 
facilitation of a nationwide implementation of Registered Traveler. TSA 
must move expeditiously to clarify whether Registered Traveler 
participants will be permitted to keep their jackets and shoes on, as 
well as whether they would be exempt from secondary screening. TSA must 
also resolve issues that will enable Registered Travelers to access RT 
services at other airports.
    TSA must address these issues in order for the Registered Traveler 
program to reach its full potential. However, it also is imperative 
that TSA ensure that non-Registered Traveler participants are not 
subjected to longer lines than would otherwise be the case absent a 
dedicated RT line.
    And no matter which RT model or models TSA chooses to pursue, the 
Federal government must retain its role with respect to setting privacy 
and security standards.
    We have assembled two expert panels today, and I look forward to 
hearing from the witnesses how we can work together to make Registered 
Traveler a permanent and nationwide program that enhances aviation 
security and supports the national economy by encouraging greater 
aviation travel.

         Prepared Statement of the Honorable Sheila Jackson-Lee

    Mr. Chairman, I would like to first thank you for holding this 
hearing today, which is the third on the subject. I would also like to 
thank our distinguished panel of witnesses for being here. The subject 
of Registered Travelers is very important, and deserves our utmost 
attention and consideration. The registered traveler program, if 
implemented in a safe and effective manner, could greatly help improve 
the quality of air travel in this country, and relieve burden from our 
security personnel's strained workload. The Registered Traveler program 
grants access to separate, shorter security lines at airports to 
frequent flyers that have passed criminal background checks by federal 
law enforcement officials. This group of travelers, who take about one-
half of all flights in the United States every year, are assured they 
will not have to endure pat-owns and delays caused by being forced to 
remove their shoes and laptop computers for additional scrutiny. The 
federal government's test program has been criticized not for fostering 
a perception of giving small classes of people special treatment. This 
is a short sighted view of the program. The Registered Traveler program 
a benefit to the business travelers, and it.
    Mr. Chairman, I would again like to thank you for holding this 
hearing. I believe with continued work, this program will eventually 
become a mainstay in airports around the nation. I yeild back the 
remainder of my time.

             STATEMENT OF THE HONORABLE KIP HAWLEY

    Mr. Hawley. Good afternoon, Chairman Lungren, Congressman 
Thompson, members of the committee. Thank you for this 
opportunity to speak about the Registered Traveler program. As 
you know, TSA is pursuing a security strategy based on the 
results of Secretary Chertoff's second-stage review.
    Key to our strategy are four principles: one, making 
investment and operational decisions based on risk; two, 
denying terrorists an advantage based on our predictability; 
three, focusing on the terrorist, not only the means by which a 
terrorist carries out a threat; and, four, building and taking 
advantage of security networks.
    In combination with other activities, I believe the 
Registered Traveler concept can be a valuable piece of our 
overall security program.
    Conducting security checks on Registered Traveler 
participants as part of their registration can help free up 
TSA's screener resources to focus on higher risks.
    Of course, an element of randomness, with regard to 
secondary screening, will still be required in order to 
maintain uncertainty among terrorists who may wish to corrupt 
the program. I believe Registered Traveler, when combined with 
other changes, can also make air travel easier for the 
traveling public.
    As you know, TSA's initial five Registered Traveler pilots 
ended in September 2005. A sub-pilot at Orlando International 
Airport testing the feasibility of a public-private partnership 
model is still in operation.
    An independent evaluation of the completed pilots has 
concluded that the Registered Traveler concept is, indeed, 
viable. The biometric identity verification technology used in 
the pilots performed accurately and rapidly under airport 
conditions.
    In addition, in comparing the use of smart card technology, 
versus a cardless option, the evaluation concluded that smart 
card technology would enhance the security, efficiency and 
technical capacity of the system.
    The evaluation also found that people who participated in 
the program had a positive impression, found it easy to use, 
and supported its continuation.
    Furthermore, based on the results of the Orlando sub-pilot 
thus far, we have concluded that the public will accept the 
involvement of a private company that collects and processes 
biographic and biometric data. And that, although the fee 
charged in the Orlando sub-pilot does not cover all the costs 
of the program, a fee-based program can attract participants.
    In keeping with congressional direction and consistent with 
the results of the programs, we have established an operational 
framework for the future of the Registered Traveler program.
    Interoperability is essential. All registered travelers 
must be able to access the program at any airport with a 
Registered Traveler checkpoint.
    The program will be able to accommodate all eligible 
enrollees, using technology that incorporates biometrics. The 
program will include an element of random security checks, in 
order to deter terrorist attempts to compromise the program. 
And the program will protect the privacy of participants.
    The program will be funded by fees. I want to thank the 
Congress for granting DHS the authority to set and collect 
Registered Traveler fees.
    In order to make fully informed decisions, particularly 
with regard to the business model of the program, TSA intends 
to offer an opportunity for public comment to solicit 
additional ideas and recommendations.
    In short, TSA is committed to a risk-based approach to 
passenger screening. And we look forward to working with our 
stakeholder partners in the private sector as we move to the 
implementation phase for the Registered Traveler.
    I would be pleased to answer any questions you may have.
    [The statement of Mr. Hawley follows:]

             Prepared Statement of the Honorable Kip Hawley

    Good afternoon Chairman Lungren, Congresswoman Sanchez, and members 
of the Subcommittee. Thank you for this opportunity to speak with you 
about the progress we are making with our domestic Registered Traveler 
(RT) Program since testifying on this matter last June, and discuss the 
program in the context of Secretary Chertoff's risk-based strategy.
    The Aviation and Transportation Security Act (ATSA), P.L. 107-71, 
directed TSA to explore options for expedited travel at airports 
commensurate with having information that a traveler does not pose nor 
is suspected of posing a known threat. In the simplest of terms, the 
Registered Traveler Program concept is to conduct more extensive threat 
screening in advance of travel on individuals who choose to participate 
in the program, and to provide those who are accepted into the program 
with expedited screening at the airport.

Adapting to a Changing Threat Environment
    Created in the aftermath of the 9/11 terrorist attacks, the 
Transportation Security Administration continues to pursue its vital 
mission of protecting our Nation's transportation systems. 
Fundamentally, our challenge is to protect passengers, freight, and our 
transportation network in a constantly changing threat environment. We 
know that terrorists will not only look for weaknesses in our 
transportation system and its security measures, but they will also 
adapt to perceived security measures. Our approach to security in every 
transportation sector, including aviation, therefore, must be based on 
flexibility and adaptability.
    TSA is pursuing a security strategy based on Secretary Chertoff's 
Second Stage Review, the National Strategy for Transportation Security, 
and the following four operating principles:
    First, we will use risk/value analysis to make investment and 
operational decisions. That means that we will assess risks based not 
only on threat and vulnerability, but on the potential consequences of 
a particular threat to people, transportation assets, and the economy. 
Further, we will assess and undertake risk management and risk 
mitigation measures based on their effect on total transportation 
network risk. This holistic approach to risk assessment and risk 
mitigation may lead us, for example, to redirect the actions of our 
airport screeners to focus less on identifying and removing less 
threatening items from carry-on luggage, so that their time and 
attention can be spent on identifying potential components of an 
improvised explosive device.
    Second, we will avoid giving terrorists or potential terrorists an 
advantage based on our predictability. TSA will deploy resources--
whether they are canine teams, screeners, air marshals, or inspectors--
and establish protocols flexibly based on risk, so that terrorists 
cannot use the predictability of security measures to their advantage 
in planning or carrying out a threat. This may mean changing or adding 
to inspection routines on a daily or hourly basis to introduce 
uncertainty into terrorist planning efforts.
    Third, we will continue to intervene early based on intelligence, 
and focus our security measures on the terrorist, as well as the means 
for carrying out the threat. Enhancing and expanding the techniques to 
identify suspicious persons or to detect explosive devices at screener 
checkpoints is necessary. However, the strongest defense posture 
detects the terrorist well before the attempt to launch an attack has 
begun. A coordinated interagency intelligence collection and analysis 
effort must stand as the first line of defense. Effective dissemination 
of timely intelligence products to those who need them is a vital 
component of this effort.
    And, finally, we will build and take advantage of security 
networks. As you may know, I am pursuing a restructuring of TSA that 
will put a renewed emphasis on building information sharing networks in 
every transportation sector--rail, transit, maritime, and trucking, as 
well as aviation. Not only will we work more closely with stakeholders 
in these industries, we will put a renewed emphasis on sharing 
intelligence, capacity, and technology with other law enforcement, 
intelligence gathering and security agencies at every level of 
government.

    Application of Key Principles to a Registered Traveler Program
    The relevance and importance of these operational principles are 
key factors in the development of our plans to institute a nationally 
available Registered Traveler Program.
    In particular, we believe that an effective Registered Traveler 
Program can and will:
        <bullet> Provide a significantly higher level of assurance that 
        people in the program do not have terrorist intentions;
        <bullet> Allow TSA to focus its screener resources on 
        passengers that present a potentially higher risk;
        <bullet> Retain an element of randomness with regard to 
        secondary screening in order to maintain uncertainty among 
        terrorists who may attempt to thwart the program;
        <bullet> Protect the privacy of individuals who participate in 
        the program; and
        <bullet> Make air travel easier for domestic passengers.

Registered Traveler Pilot Programs
    Registered Traveler Pilot Programs were initiated in five airports 
on a staggered basis during the summer of 2004. In partnership with 
Northwest Airlines, United Airlines, Continental, and American 
Airlines, TSA established pilot programs at Minneapolis-St. Paul (MSP), 
Los Angeles (LAX), Houston Intercontinental (IAH), Boston (BOS) and 
Washington, DC (DCA). Each of the five pilot programs enrolled 
approximately 2,000 people, who were invited to participate by the 
airlines from among their ``very frequent'' fliers. Participation was 
limited to U.S. citizens, U.S. nationals, and permanent legal residents 
of the U.S. Participation in the program was entirely voluntary. 
Participants in these five initial pilot programs were not charged a 
fee.
    Participating passengers provided personal biographic (name, 
address, phone number, date of birth, and in some locations, social 
security number) and biometric (fingerprint and/or iris scan) 
information, as well as government-issued identification (passport or 
driver's license). Maintaining this information in the database allows 
continuous screening of the travelers as those databases are updated. 
The validity of the document was verified using electronic document 
scanners. The biographic information was used to perform a name-based 
check against a consolidated terrorist screening database. When a 
participant initiated travel at his/her home airport, his identity and 
threat status was confirmed using biometric readers at special kiosks 
located near the TSA security checkpoint. After identity verification 
at the biometric kiosk, participants went through normal primary TSA 
screening, but were not subject to random secondary screening. However, 
if a program participant caused the walk-through metal detector to 
alarm or an x-ray of his carry-on items indicated the possible presence 
of prohibited items, additional screening was conducted. Because the 
pilot programs were designed to test the effectiveness of the 
technology and operational processes, participants could not be offered 
the range of expedited screening benefits that might be available under 
a fully-validated Registered Traveler program. It was critical to 
ensure that security was not compromised under the pilot programs.
    The initial five pilots ended in September 2005. In June 2005, TSA 
initiated a sub-pilot program at Orlando International Airport (MCO). 
Consistent with our goal of engaging the private sector in the work of 
TSA, this sub-pilot (known as the Private Sector Known Traveler 
Program) is intended to test the feasibility and advantages and 
disadvantages of using a public-private partnership model for the 
program. In addition, the sub-pilot is testing whether people are 
willing to pay a fee to participate in such a program. Under the 
Orlando sub-pilot, participants pay a fee of $80. The Orlando sub-pilot 
is expected to continue past January under the terms agreed to by the 
Greater Orlando Airport Authority and TSA, and to merge with a 
nationwide Registered Traveler Program when practical.

Lessons Learned Thus Far
    An independent evaluation of the five initial pilot programs was 
conducted by PMA/Booz Allen Hamilton. The evaluation concluded that the 
Register Traveler concept is viable.
    The biometric identity verification technology performed accurately 
and rapidly under airport conditions. Biometric verification took, on 
average, approximately 10 seconds. With the use of dual biometrics 
(fingerprints and iris scan) identification verification was successful 
99 percent of the time, a significantly higher success rate than 
achieved using fingerprints alone. The pilot programs also tested the 
use of smart card technology versus a card-less option, and concluded 
that smart card technology would enhance the security, efficiency and 
technical capacity of the system.
    In addition, participants had an overwhelmingly positive impression 
of the program, and a desire to see the program continued and expanded. 
Ninety-five percent of the participants surveyed indicated that the 
system was easy to use; ninety-eight percent supported its 
continuation. Further, based on the results of the Orlando sub-pilot, 
we have concluded that the public will accept the involvement of a 
private company in a Registered Traveler Program that collects and 
processes biographic and biometric data, and that a fee-based program 
can attract participants. The elasticity of the fee structure (i.e., 
the extent to specific fee amount affects enrollment decisions) could 
not be tested under this model.

Next Steps
    TSA is pleased with the results of the five pilot programs that 
have concluded and look forward to the results of the sub-pilot that is 
still underway. We are committed to the development of a Registered 
Traveler Program that will enhance aviation security, ease travel for 
passengers, and permit TSA to better focus security resources based on 
risk.
    In keeping with Congressional direction and consistent with the 
results of the pilot and sub-pilot programs, we have established the 
following operational framework for the Registered Traveler Program:
        <bullet> TSA will establish the requirements for a security 
        background check and the biometric standards for the program, 
        and will certify participating vendors.
        <bullet> Program participants will receive benefits 
        commensurate with the background check that is performed.
        <bullet> The program will provide for interoperability at all 
        Registered Traveler sites from the onset of operations. This 
        means that a Registered Traveler participant must be able to 
        access the program at any airport with a Registered Traveler-
        enabled checkpoint lane.
        <bullet> The program will be able to accommodate all eligible 
        enrollees through the use of technology that incorporates 
        biometrics.
        <bullet> The program will use a public-private partnership 
        model with a clear delineation of responsibilities, and will 
        take advantage of the private sector's ability to adapt 
        operations to meet customer expectations and make rapid capital 
        investment decisions.
        <bullet> The program will define the role of the Transportation 
        Security Clearinghouse.
        <bullet> The program will include an element of random security 
        checks in order to deter terrorist attempts to compromise the 
        program.
        <bullet> The program will be fully funded by fees.
        <bullet> The program will protect the privacy of participants.
    Let me briefly describe a few significant issues that we are 
currently working to resolve.
    Interoperability. Interoperability is defined as creating a 
biometric system in which the act of verification at any airport draws 
the same result regardless of the specific hardware and software used 
at the individual airport. Standards are still evolving for the 
biometric industry so the challenge will be in defining a system 
requirement to allow for interoperability while maintaining a level 
field for competition among manufacturers. In order to ensure that 
program participants can access the Registered Traveler Program 
benefits offered at any participating airport, TSA must develop and 
promulgate technical and policy guidelines prior to program launch. TSA 
is working with experts throughout DHS, as well as international 
industry leaders, to ensure that these requirements are fully 
identified and clearly defined. In addition, we are working with other 
DHS agencies to determine where systems, equipment and database sharing 
might be feasible, with a view toward potential future integration with 
various international travel facilitation programs managed by U.S. 
Customs and Border Protection (CBP) and the U.S. VISIT Program.
    Roles and Responsibilities. TSA is committed to maximizing private 
sector involvement in the operations of the Registered Traveler Program 
without compromising security requirements. Potential opportunities for 
private sector involvement include participant recruitment and 
marketing, participant enrollment, identity verification at the 
airport, and vendor qualification verification. TSA is currently 
working to clearly define these opportunities and the qualifications 
required to perform these tasks, as well as the legal and contractual 
agreements required to establish and maintain these relationships. In 
addition, we are working to appropriately define the roles and 
responsibilities of the Transportation Security Clearinghouse, and to 
establish the business processes and technological requirements to meet 
these requirements.
    Passenger Benefits. TSA is currently examining the full range of 
potential benefits that can be offered to Registered Traveler 
participants, consistent with risk-based high standards of security. 
These options range from exempting participants from some current 
screening requirements, such as the removal of coats and shoes, to 
providing separate dedicated screening lanes to Registered Travelers as 
volume permits. To the extent possible, TSA believes that benefits 
should be consistent across airport environments. However, our ability 
to provide benefits such as dedicated screening lanes will be limited 
by the design and space availability at participating airports. In 
addition, TSA is strongly considering whether a full criminal history 
records check should be undertaken. We would anticipate that a full 
criminal records check, when done in conjunction with our collected 
biometrics, would allow us to better screen applicants to the program 
and provide them with more significant benefits. In sum, an analysis of 
both the effect on risk and the feasibility of each potential benefit 
is necessary prior to establishing a baseline set of benefits that can 
be guaranteed to program participants.
    Program Fees. The establishment of program fees is closely linked 
to program benefit decisions. People will make decisions regarding 
enrollment based on both the cost of program participation and the 
benefits offered. A key premise of the program will be that it is 
funded entirely through fees. I want to acknowledge and thank Congress 
for granting DHS the authority to set and collect Registered Traveler 
fees.
    Compatibility. TSA is also examining whether and how to integrate 
individuals who have security clearances through other programs, as 
well as whether and how the program can be made compatible with other 
domestic and international trusted traveler initiatives.
    In addition to the factors already discussed, it will also be 
necessary for TSA to work with the airports to incorporate RT 
requirements as amendments to their respective Airport Security Plans 
(ASP). The ASP governs the security measures and responsibilities for 
an airport. To the extent possible, TSA will provide a template to 
facilitate this effort. But we also recognize that a degree of 
customization will be necessary based on the individual security needs 
at each airport.
    In order to make fully informed program decisions, TSA intends to 
offer an opportunity for public comment to solicit additional ideas and 
recommendations regarding potential business models and other program 
elements. We have already informally consulted with stakeholders in the 
development of these procedures and are eager to move forward as 
quickly as practical.
    As you know, TSA's primary mission is to secure our Nation's 
transportation systems. The Registered Traveler Pilot Program has 
demonstrated the viability of using security threat assessments and 
biometric-based identity verification technology in an airport 
environment. We believe that a nationwide Registered Traveler program 
can provide expedited screening for many travelers and enhance aviation 
security, as well.
    Thank you for the opportunity to testify today. We look forward to 
working with the Subcommittee as we continue our efforts to strengthen 
homeland security. I will be pleased to answer any questions you may 
have.

    Mr. Lungren. Thank you, Mr. Hawley, for your testimony.
    At this time, I would like to ask several questions. I will 
keep myself to 5 minutes and then recognize members, as is 
customary.
    Mr. Hawley, thank you very much for your statement. Both in 
that and in others conversations I have had with you, I believe 
you have a commitment to making this thing work.
    And so, as part of that commitment, can you give an idea of 
what the TSA's time frame is for actual implementation of the 
Registered Traveler program?
    Mr. Hawley. Yes, sir. We are committed to the Registered 
Traveler program and that we expect that, by January 20, 2006, 
TSA will issue guidance to the industry regarding the 
biometrics, to collect and how to store that information on 
Registered Traveler cards.
    TSA will announce at that time program benefits to 
Registered Traveler participants. And, from the private sector, 
we expect to hear by then from interested parties that want to 
submit comments to TSA on the Registered Traveler economic 
model.
    And then, on April 20th, three more things happen: One, TSA 
will select an entity to certify service providers and manage 
their compliance; secondly, TSA will issue amendments to the 
airport security plans establishing the requirements for 
airport checkpoints and verification providers; and then, 
third, the private sector will get back to us and submit a plan 
to achieve interoperability of the program.
    And we expect that, by June 20, 2006, the first Registered 
Traveler participants will go through the checkpoints.
    Mr. Lungren. So the specific dates are January 2006 for--
    Mr. Hawley. It is for us to say what benefits you get for 
being a registered traveler specifically. Is it you keep your 
shoes on, you keep your coat on? If there are other benefits, 
they would be announced at that time.
    We will also issue guidance to the industry that says, 
``This is what we expect by way of the card that you will have 
to give us and what is required to be on them.''
    Mr. Lungren. And then the second date would be?
    Mr. Hawley. The 20th. I should have mentioned, on January 
20th, that we are expecting the private-sector parties to tell 
us their business model.
    And then the second date is the 20th of April, which is 
where we will have an entity to go out and check that, in fact, 
the things that are alleged to have happened on those 
biometrics and the security background checks actually 
happened.
    And then we will work with the airports to have the 
security amendments needed to operate new equipment in the 
airports. And we expect to hear on that date from the industry 
on the interoperability of their equipment, which then leads us 
to, we expect by the 20th of June, that passengers should use 
the system.
    Mr. Lungren. And, by saying that they would use the system, 
that presumes that we can do the background checks, and get the 
information back, and these folks would be registered?
    Mr. Hawley. Yes, sir.
    Mr. Lungren. What determination, if any, has been made, 
regarding what background information will be disqualifying for 
the applicants? Or has that been yet determined?
    Mr. Hawley. Has not yet been determined, but the issue of a 
criminal history background check plays into this equation, in 
that, if we require that criminal history background check, it 
would require a rule making, which would extend the period of 
time in which we would have to implement.
    So it would push out the date as much as a year, if we were 
to require that now. So what we are contemplating is the arrest 
and warrants check, the terror watch list check, and 
essentially the information we have done in the pilots.
    And then we will consider during the course of the year 
whether we, in fact, do need the criminal history background 
check to add to that in a second phase of the program.
    Mr. Lungren. But, because of rulemaking authority and 
procedures, that would take a delay, with respect to that 
aspect of it?
    Mr. Hawley. Yes, sir. And we did not want to hold the whole 
program up for that.
    Mr. Lungren. Do you have already in mind what redress 
process would be established to handle cases where applicants 
are denied participation in the program, believe they have been 
denied improperly, and therefore have a chance to present their 
case?
    Mr. Hawley. That would be part of the January 20th 
deliverable.
    Mr. Lungren. Okay. Thank you very much.
    And the ranking member of the full committee, Mr. Thompson, 
is recognized.
    Mr. Thompson. Thank you very much.
    Thank you for your testimony, Mr. Hawley.
    Once the program is fully implemented, how many passengers 
are you estimating will be included?
    Mr. Hawley. It will be a free-market situation. And we will 
be prepared to adjust our operations to whatever the market 
dictates, so that we will have an idea, from the number of 
traveler cards that are submitted, what that volume will be. 
And then we will be able to adjust accordingly.
    But we do foresee an upper limit for the program.
    Mr. Thompson. Okay, well, let's say the program is highly 
successful. Do you see this adding an additional cost for 
screeners or anything?
    Mr. Hawley. I see that it very well will add some cost to 
us, which we will seek to recover from the fee authority that I 
mentioned in my opening statement, that we will prepare an 
estimate of what those costs will be, and we will have that 
submitted for consideration in the Federal Register.
    Mr. Thompson. Now, that fee assessment, is that to go to 
the traveler, the person? In other words, you will divide your 
cost by the number of travelers?
    Mr. Hawley. Yes, sir. We expect to have the equivalent of a 
license fee. So, as I said, per registered traveler, we expect 
it will be X number of dollars that would come to us and that 
we anticipate that the private-sector model, obviously, 
private-sector partners would want to add whatever they put to 
it, in relationship to the value added they provide.
    Mr. Thompson. One of the discussions earlier, in an earlier 
hearing, talked about how people arrived at the cost for the 
Registered Traveler program. At that time, if my memory serves 
me correct, we were told that it was not a process of bidding 
but it was just a negotiated price.
    Now, what is your recollection?
    Mr. Hawley. Our view is that we will figure out what we 
anticipate the cost is to TSA, the federal taxpayer, of running 
the program, supporting the program. And that would be the fee 
that we request.
    And then, as we operate ongoing, if we are wrong, then we 
would come back and make a change.
    Mr. Thompson. But you do not anticipate recovering anything 
other than fee for cost?
    Mr. Hawley. We do not anticipate using this as a 
supplemental revenue generator for TSA.
    Mr. Thompson. Have you looked into--well, there was a memo 
that came out in August that talked about some things that 
could be included, that you could carry on planes, a knife, for 
instance. Are you familiar with the memo I have referenced?
    Mr. Hawley. Yes, sir.
    Mr. Thompson. Have you all reached some conclusion on the 
items that could be carried?
    Mr. Hawley. We are looking at that very actively now. And 
it fits within the overall framework of the security program we 
have in place for aviation and for airport passenger 
operations.
    And we are looking at the prohibited items. We are looking 
at the SOPs, standard operating procedures, that we do there. 
We are looking at the CAPPS process. We are looking at the 
Registered Traveler process. And we are looking at Secure 
Flights, all of those things within one program.
    So Registered Traveler is a piece of that program. And the 
prohibited items list is another piece. But it is important to 
recognize that they are all interconnected. And, in a risk 
management approach, they have to be.
    Mr. Thompson. So you have not reached a conclusion?
    Mr. Hawley. Have not reached a conclusion, but we are 
gathering data and working on it actively.
    Mr. Thompson. Any idea when you anticipate a conclusion on 
it?
    Mr. Hawley. Yes, sir, January 20, 2006.
    Mr. Thompson. The entire process?
    Mr. Hawley. For the prohibited items. What we are shooting 
for, sir, is that, when we know what the Registered Traveler 
program is going to look like operationally, that we will also 
know what the other components are, because we want them all to 
be interconnected. And that is the direction that we are 
headed.
    Mr. Thompson. Thank you. I yield back.
    Mr. Dicks. Thank you very much, Mr. Chairman.
    Mr. Hawley, we understand that you are considering changing 
of the things that are going to be screened. And there is quite 
a bit of concern out there, and I wanted to make sure here 
today that you understood that.
    I have a statement of Chris Witkowski, director of the Air 
Safety Health and Security Department, Association of Flight 
Attendants, AFL-CIO. And I am going to ask that this letter be 
put in the record, but I want to read part of it.
    We applaud the TSA's desire to keep up with the evolving terrorist 
threat but strongly oppose any effort to relax the existing ban on 
weapons and other dangerous items as part of that process.
    In that spirit, we would hope that TSA would recognize that any 
special benefits accorded to registered travelers should, in no sense, 
lessen security screening or relax the current prohibition on bringing 
weapons onboard the aircraft.
    For flight attendants, frontline personnel with little or no 
effective security training or means of self-defense, such weapons 
could prove fatal. These weapons may not assist in breaking through a 
flight deck door, but they could definitely lead to the death of flight 
attendants and passengers.
    Furthermore, terrorists know all too well that pilots must open the 
cockpit door to use the lavatory facilities. And this provides an 
opportunity for takeover of the cockpit, better facilitated with a 
knife or other dangerous weapons.
    It is well to refer back to the 9/11 Commission report, which found 
that the records of purchases by the hijackers, as well as evidence 
discovered at the crash site, primarily the site of Flight 93, indicate 
that the primary weapon of choice were knives with a blade less than 
four inches long.
    The use of knives was cited on all four flights by flight crew and 
passengers. Box cutters were specifically indicated only in one report, 
from Flight 77. A box-cutter-type implement, along with a variety of 
short-bladed knives, was found at the crash site of Flight 93.
    Beyond the terrorist threat posed by weapons onboard the aircraft, 
these implements also can become safety threats in the hand of 
passengers who become unruly, often having too much to drink or taking 
controlled substances.

    I think that is a serious consideration. And I have another 
letter here from a flight attendant who literally had a couple 
passengers get so drunk on the flight that they were, in 
essence, a threat to the crew and to the passengers.
    So I think we have got to think very carefully here about--
you know, I understand that these things will not blow up an 
airplane. But, you know, these are a threat to the crew of the 
airplane. And I think it should be very seriously considered 
before relaxing this, especially because of the concerns of the 
flight attendants.
    And I would like to hear your response to that.
    Mr. Hawley. Yes, sir. We take those thoughts seriously. And 
I did have the opportunity to meet with Chris and others. And I 
have heard from quite a few flight attendants and members of 
the public.
    This is a risk balancing process where, if, in our 
estimation, in view of the protective measures we have in place 
today for passenger aircraft, which include, in addition to the 
screening, the federal air marshals, the hardened cockpit 
doors, very engaged travelers, and other things, resources that 
we have, that the explosive challenge at the passenger--to 
bring an explosive on to a passenger aircraft is a greater 
overall threat than perhaps other things that are currently on 
the prohibited items list.
    So what we are trying to balance is, if we free up screener 
resources by doing something directed at a less risky threat 
and can apply that effort to a more risk threat, that that is 
how we would make that decision.
    But it is not going to be done cavalierly. We do take 
those--and certainly the 9/11 families, we have had the 
opportunity to hear from them and certainly respect those 
thoughts.
    It is only that if we can improve the overall risk--or 
lower the overall risk to the system that we would make 
changes.
    Mr. Dicks. There is going to be a lot of differing opinions 
on this from differing people. I have had several times where I 
have forgot--I am a fisherman, and I have brought a knife 
onboard.
    I did not object to that being confiscated because, in my 
own mind, I still believe that those weapons are a threat to 
the crew and that, in a situation like this--you know, we have 
got to look at explosives, but I do not think we should be 
letting things on the plane that are a threat to the crew.
    And I hope you will take that--and, Mr. Chairman, I ask 
unanimous consent that these two letters be put into the 
record, without objection.
    Mr. Rogers. [Presiding.] Without objection, they are in the 
record.

                             For the Record

Prepared Statement of Chris Witkowski, Director, Air Safety, Health and 
         Security Department, Submitted by Hon. Norman D. Dicks

             Association of Flight Attendants-CWA, AFL-CIO

    Thank you for holding this hearing to examine the future of the 
Registered Traveler program and for the opportunity to comment on this 
important security issue. The Association of Flight Attendants-CWA, 
AFL-CIO, represents more than 46,000 flight attendants at 21 U.S. 
airlines, and our members are keenly interested in maintaining the 
highest standards of airline security.
    It is our strong belief that as this Registered Traveler program 
takes shape, there can be no relaxation in the high security standards 
demonstrated as necessary by the horrors of Sept. 11, 2001. Keep in 
mind that it was flight attendants who were the first to lose their 
lives on 9-11, and who today remain the first line of defense against 
any terrorist attack on board an airborne aircraft.
    This hearing comes at a time when Kip Hawley, director of the 
Transportation Security Administration, says the agency is considering 
potential changes to the list of items that are prohibited onboard 
aircraft. Mr. Hawley notes that the terrorist threat is shifting to 
explosives and suggests the screening process should be adjusted to 
reflect today's threats to civil aviation. recent press reports suggest 
that as part of this re-evaluation, the agency is considering lifting 
the current prohibition on dangerous weapons such as knives and other 
dangerous items. This comes despite continuing recognition by the 
Department of Homeland Security of the Threat of a 9/11-type attack on 
passenger aircraft.
    We applaud the TSA's desire to keep up with the evolving terrorist 
threat, but strongly oppose any effort to relax the existing ban on 
weapons and other dangerous items as part of that process. In that 
spirit, we would hope the TSA would recognize that any special benefits 
accorded to Registered Travelers should in no sense lessen security 
screening or relax the current prohibitions on bringing weapons on 
board the aircraft.
    For flight attendants, front-line personnel with little or no 
effective security training or means of self defense, such weapons 
could prove fatal. These weapons may not assist in breaking through a 
flightdeck door, but they could definitely lead to the deaths of flight 
attendants and passengers. Furthermore, terrorists know all too well 
that pilots must open the cockpit door to use the lavatory facilities, 
and this provides an opportunity for takeover of the cockpit, better 
facilitated with a knife or other dangerous weapon.
    It is well to refer back to the 9/11 Commission Staff Report (8-26-
04), which found that: ``Records of purchases by the hijackers, as well 
as evidence discovered at the crash sites (primarily the site of Flight 
93) indicate that the primary weapons of choice were knives with a 
blade less than 4 inches long. The use of knives was cited on all four 
flights by flight crew and passengers. Box cutters were specifically 
indicated only in one report, from Flight 77. A box cutter-type 
implement, along with a variety of short-bladed knives, was found at 
the crash site of Flight 93.''
    Beyond the terrorist threat posed by weapons on board the aircraft, 
these implements also can become safety threats in the hands of 
passengers who become unruly, often after having too much to drink or 
taking controlled substances.
    We strongly believe [potentially dangerous items have no place in 
the cabin of an aircraft, and urge the committee to instruct TSA to 
maintain the ban on small knives and other dangerous weapons currently 
on the list of prohibited items. If small knives are to be allowed in 
the interest of reducing the time it takes screeners to remove them 
from bags, please keep in mind that such a change is unlikely to 
produce a significant time savings, since screeners will have to spend 
time determining whether a particular knife would meet some allowable 
blade size limit that TSA comes up with.
    We also ask the committee to help ensure that TSA enforces the 
security screening limit on the number and size of carry-on bags that 
has been in place since 9-11. This would reduce the number and size of 
bags to be scanned and would free up a significant amount of screener 
time to better focus on detection of explosives. A limit on the number 
and size of carry-on bags has been supported in the past by the air 
carriers, partly to reduce late departures and missed passenger 
connections due to time-consuming stowage and retrieval of excessive 
and oversized bags by passengers during boarding and deplaning. A 
specific limit on the size and number of carry-on bags could be 
enforced by placing a simple template that restricts the height and 
width of bags to be screened at the security checkpoint. Passengers 
could be notified of the policy in advance, when they purchase their 
tickets.
    If more screeners still are needed, Congress should lift the cap on 
the screener workforce to provide the resources necessary to maintain 
an effective aviation security screening program. 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Dicks. Thank you.
    Mr. Rogers. Thank you, Mr. Dicks.
    Mr. Hawley, I just have a couple of questions on the 
Registered Traveler program. Are you going to require airports 
to be interoperative, in order to participate in the Registered 
Traveler program?
    Mr. Hawley. We are going to require that any certified 
registered traveler program is interoperable, which means that 
a card issued with a registered traveler approval, is valid at 
every Registered Traveler checkpoint.
    Mr. Rogers. And how far along do you think we are in that 
process?
    Mr. Hawley. I have been told that it is a technical issue 
that is not a show-stopper. But under the proposal that we are 
making here today, that we would put that in the hands of the 
private-sector operators who wish to go forward, have them 
solve the problem and come to us, as opposed to us trying to 
solve the problem and then issue it whenever we get that done.
    Mr. Rogers. You also mentioned that TSA will work with 
airports to amend their security programs once a Registered 
Traveler program is established. Do you envision TSA working 
directly with an airline at an airport to establish a R.T. 
program?
    Mr. Hawley. We expect to work with whoever the group is 
that comes in to say, ``We want to operate this Registered 
Traveler program,'' and specifically for an airport, because, 
obviously, every checkpoint that we operate is with one of our 
airport partners. And it would be done in close cooperation 
with them.
    Mr. Rogers. Okay. That is all I have got.
    Mr. DeFazio, do you have any questions?
    Mr. DeFazio. Yes. Thank you, Mr. Chairman.
    First, Mr. Hawley, I want to thank you for your testimony 
here. And I want to congratulate you on something that was 
quoted in The Wall-Street Journal, regarding a speech you gave 
at Geneva, where you said you wanted to free up resources, try 
to redirect them to prevent explosive attacks. I think we can.
    And I congratulate you on that focus. Chairman Mica of the 
Aviation Subcommittee and I, who were key in the creation of 
TSA, have felt since the beginning that explosives are a major 
threat.
    In fact, given some of the security measures we have taken, 
it is much less likely they will try and hijack planes, as 
opposed to just take them down, because that would destroy the 
industry, as would a commandeered plane used as a weapon. So 
that focus is welcome.
    Do you think that the equipment that is currently being 
used by the TSA screeners at the checkpoints is adequate for 
that threat and the best that we could have, two parts?
    Mr. Hawley. The technology we have at the checkpoints is 
effective at detecting explosives. It is part of a system which 
includes--
    Mr. DeFazio. But only if you use the trace, right? You are 
not saying that the basic X-ray machines that we threw out a 
decade ago here on Capitol Hill are adequate to the task, are 
you? They were thrown out here a decade ago because they were 
not.
    Mr. Hawley. Sure. The system is adequate. And it is a 
partnership with the machine itself and the operator.
    And, in fact, we did have an IED, a live IED, that was 
disassembled, found by a screener using an X-ray machine.
    And we are having very vigorous training to be able to use 
those machines to find certain aspects of IEDs, that we believe 
that technology does find extremely effectively, so that to 
elevate the level of performance from that part of it.
    And then the trace is highly effective when we do a trace 
test on a passenger for finding explosives.
    Mr. DeFazio. Right. So you do not think that the airports 
would benefit from the machinery that has been installed in the 
U.S. Capitol, the White House, the Supreme Court, the Treasury 
Department, and other federal agencies, which have capabilities 
of rotating an object without having to say, ``Excuse me, sir, 
I am going to carry your bag back around, interrupt the line, 
and turn it in a different dimension so we can peer at our 
dull, 1980s-technology X-ray and see if that threat object is 
really a threat''?
    You do not think we would benefit, both to speed up the 
lines and find threats, if we had this kind of modern 
equipment, like we use here? Or should we go back to that 
cheaper, older equipment and sell this to somebody else?
    Mr. Hawley. Clearly, the technology that is able to spot a 
variety of explosives that would be included in a terrorist 
arsenal today are great.
    We are piloting--we announced recently four backscatter 
tests. And we are deploying the puffers, which is a different 
trace portal, which is highly effective.
    So there is new technology being added. The trick to it is 
to get the throughput to be able to do as many passengers as 
you can, which brings up the importance of a registered 
traveler program to say that you can devote the puffers and the 
backscatters to people who may present more of a problem.
    Mr. DeFazio. Nice segue, but back to the backscatters. The 
throughput is actually much more efficient here at the U.S. 
Capitol, because they do not have to take the bags, and 
reinsert them in line, and send them through again in a 
different dimension.
    They can actually--since they have a multidimensional 
image, they can just rotate the image with a mouse or a key, so 
that they can see it.
    I think that if we had these backscatter machines at the 
airports, which can do both your traditional threats that Norm 
has expressed concern about, and a much better job on 
explosives, that the throughputs would actually be improved.
    But I realize that costs a little bit of money and so we 
will not get into that more.
    On the nice segue there, onto trusted traveler. There are 
two, at least, sort of models out there, maybe three. One would 
be the government chooses a technology, which, by virtue of 
being a uniform technology, would be interoperable. You are 
apparently not going to go that route.
    So what you want to use is diverse technologies and diverse 
vendors who would have to make their technology interoperable, 
apparently. That is apparently where we are headed.
    But then, beyond that, there is a next level of 
questioning, which is the pricing of the product. As you said, 
the TSA is not even going to necessarily recapture all of its 
cost, just a fee.
    There is the Orlando model, which is a market-based system, 
which is--they did a market survey which said, ``How much will 
you pay not to stand in a really interminable line?'' And they 
found that was $89.
    Now, if the lines were a little longer at other airports, 
people might pay $120, you know? It has nothing to do with the 
cost of the system, a legitimate or reasonable cost-recovery 
effort by the vendor and, more disturbing, it includes a profit 
incentive to the airport, who could arguably manipulate the 
lines to drive more people to buy the card so that they could 
get a cut from more passengers buying the card.
    Does the TSA endorse this Orlando price base, potentially 
market-gouging, monopolistic model?
    [Laughter.]
    Mr. Hawley. That is why we said that we would like to hear 
business model proposals by January 20th.
    And getting back to Mr. Thompson's question at the 
beginning, about why we stopped the other pilots was 
essentially that the business model was not flexible. The 
program did not seem to be one we wanted to use. So we are 
asking for input on what the right model is.
    Mr. DeFazio. Okay. If I could, Mr. Chairman, two other 
quick questions.
    One is, I was a little confused on the discussion of 
needing additional rulemaking for criminal backgrounds, but we 
can include arrests. Arrests are very inconclusive documents.
    Someone may have been arrested, never charged, been 
arrested, charged, tried, and acquitted. But, you know, people 
who are sentenced or incarcerated have a criminal background.
    I am confused that we would use an arrest to preclude 
someone, but we somehow cannot get into the criminal 
background, which would mean the person who was arrested was 
subsequently convicted.
    Mr. Hawley. I believe it is outstanding arrests and 
warrants, although I have to say I am not exactly sure of all 
the technicalities.
    But the criminal history records check is a very full--it 
is the SIDA badge-type check, which allows you access to the--
    Mr. DeFazio. Yes, same background check I have to get a 
concealed weapons permit, which the FBI provides for $50.
    Mr. Hawley. And to get that done takes the rulemaking. And 
so that we did not want to delay the program--
    Mr. DeFazio. Why would it take a rulemaking?
    Mr. Hawley. That is an excellent question, sir, and one I 
have asked. And I am told by reliable sources that that is 
required.
    Mr. DeFazio. Well, I think the committee would be 
interested in trying to expedite that, because I think, you 
know, getting to criminal backgrounds is kind of the key here, 
as one indicator of risk.
    And then, finally, the last one. I was, I think, concerned 
by something I heard, which seemed to me--you seemed to imply 
that there would be a new category of random selectees. I have 
not been randomly selected for quite some time, since I 
voluntary remove my belt, and my shoes, and do not question 
people like Benny does and get them--
    [Laughter.]
    But you seem to be implying that there would be a required 
subcategory of random selectees targeted toward trusted 
travelers, because you are worried about the corruption of the 
system.
    I would suggest that we would want to set up a system that 
could not be corrupted. And that is a big part of the reason 
why people, other than the really long lines that the airports 
might create because they get a cut, would buy these cards, 
would be to not have to go through the strip search at 6 
o'clock in the morning, for a random reason, even though they 
did not set anything off and there is no problem with them at 
all.
    So I am concerned that you are saying somehow--you are 
feeling we have got to create a new subcategory of random 
selection. I mean, if you were saying, ``There will still be 
random selections across the entire universe, which might 
include those people,'' that is slightly more acceptable.
    But if you are saying, ``We are going to create a whole new 
quote system here,'' that would be tremendously destructive to 
the whole thrust behind the trusted traveler.
    Mr. Hawley. There will be random selection for every 
passenger, including registered travelers.
    Mr. DeFazio. Okay, that is a departure from past practice 
and something I think the committee would want to discuss 
further.
    Thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentleman from Oregon.
    The chair now recognizes the gentleman from Washington, Mr. 
Dicks, for some additional questions.
    Mr. Dicks. Senator Ted Kennedy and Don Young, for instance, 
have both been improperly placed on security watch lists. Nor 
is removal from the watch list a simple matter. Senator Kennedy 
was only able to correct this error after appealing directly to 
then-Homeland Security Secretary Tom Ridge.
    Now, the vast majority of people affected by watch list 
errors, needless to say, do not have this option. I mean, what 
do we do about this? There has got to be a way for a person who 
has not got a problem to get off this list.
    And we had a big hearing on this before. And there were a 
lot of concerns expressed about this.
    Can you give us any hope that there is a better way to deal 
with this problem?
    Mr. Hawley. Yes, sir. There is. There is a redress process 
that is available to all citizens.
    And it is a way, when somebody is a close match, to resolve 
the situation so that there is something different. And a 
special redress number is given to that individual, which goes 
on the record and is included when the terrorist watch lists 
are checked.
    It is a component of the check which says, if you have a 
redress number that matches this, then you, by definition, are 
not the person who needs to be stopped.
    So there are circumstances where one time that happens, 
because the list does change and includes close matches. But 
once that does happen, there is a process that is very quick 
that can get a redress number and get them off that list.
    Mr. Dicks. On the trusted traveler program, I can see where 
there would be some privacy concerns here about the information 
that is gathered.
    How do we assure the citizens that this information will be 
protected and will not be, you know, disclosed?
    Mr. Hawley. Part of the approval process that we go through 
before someone is certified to operate the program is a privacy 
plan that is acceptable and very strong.
    Mr. Dicks. Okay.
    Mr. Hawley. It is a voluntary program, which is another--
    Mr. Dicks. And then, again, what does a person do, if they 
are turned down for the trusted--this was asked, but I want to 
hear it again.
    If they are turned down for the trusted traveler program, 
what do they do? Is there a way for them to try to clear up 
what the reason was for their being denied admittance to the 
program?
    Mr. Hawley. There will be a process for that. And that is 
part of that January 20th deliverable, to figure out what that 
is.
    Mr. Dicks. All right. Thank you, Mr. Chairman.
    Mr. Rogers. Thank you.
    I wanted to ask a couple of questions. In his written 
testimony, Mr. Barclay, who is going to be on our next panel, 
outlines a role for the Registered Traveler Interoperability 
Consortium, that includes the establishment of principles and 
processes by which participating airports may enroll in 
Registered Traveler, where service providers will transmit 
application enrollment data to the RTIC Registered Traveler 
management system, which will transmit the data to TSA.
    Mr. Barclay also refers to a memorandum of understanding 
between RTIC and TSA for these purposes. From his testimony, it 
appears that it is RTIC, not TSA, that is in charge of the 
Registered Traveler program.
    Has TSA executed a memorandum of understanding with RTIC, 
or AAAE, to affect the principles and functions described in 
his testimony?
    Mr. Hawley. No, sir.
    Mr. Rogers. Can you further describe the Registered 
Traveler management consortium? Can you tell us a little bit 
about that?
    Mr. Hawley. That is a body that is its own body, not 
connected to TSA.
    Mr. Rogers. Okay. Who owns and controls the RTIC, and what 
is the entity's relationship with the airline pilots? You don't 
know?
    Mr. Hawley. No, sir.
    Mr. Rogers. Thank you very much.
    The chair now recognizes the gentleman from Oregon for 
additional questions.
    Mr. DeFazio. Thank you, Mr. Chairman.
    I would just like to come back, Mr. Administrator, to the 
question of my concern about giving a cut to the airport on top 
of the fee that might be charged by a vendor. I mean, does the 
TSA endorse that model, yes or no?
    You said it all depends on who makes what proposal, but, I 
mean, I think there are tremendous concerns regarding that 
model.
    Mr. Hawley. It was a very hard part of our work, was to 
figure out what to do on the business model. And at the end of 
the day, we were not comfortable endorsing one particular 
business model. And, frankly, I am not sure I saw one that I 
was completely comfortable with.
    However, that does not mean that one cannot come forward 
with one. And so our hope is that the private sector 
competition will generate a lot of different business models 
and will generate a lot of options for travelers.
    Mr. DeFazio. But if, let's say, there was one really big 
vendor, and that really big vendor has a technology, and they 
are making a proposal and it has a very high, say, entry cost 
for other vendors.
    Since we are not--I mean, it would be one thing--again, 
back to the point--if we chose a technology and said, ``This is 
what we want, this kind of interoperability using these 
biometric standards,'' now, that would be one thing.
    But if a major market-dominant vendor comes in and says, 
``Well, we have got a great technology here, and, of course, 
anybody else who wants to can try and replicate it, and we will 
make our architecture available to them, but the entry costs 
will be very high,'' I mean, how is that going to work? How are 
you going to resolve that?
    I mean, you know, theoretically, if we are not going to 
regulate this and it is not going to be government-based, there 
has got to be competition. To be competition, there needs to be 
ease of entry, if you have read--
    Mr. Hawley. Yes.
    Mr. DeFazio. --Adam Smith, and David Ricardo, and other 
people. You know, it is on which we base our radical free trade 
and other economic theories today. It is not necessarily there.
    Mr. Hawley. That is what I mean by interoperability, so 
that if this vendor that you described comes up with a 
wonderful thing that gets certified, and somebody else is able 
to come up with a certified program and a card, that card is 
operable at every checkpoint that there is a Registered 
Traveler checkpoint, regardless of what membership--
    Mr. DeFazio. So the burden would be on the dominant, huge 
dominant--you know, say, based in one of the big DOD contractor 
companies that says, ``We will roll this out everywhere, 
anywhere, and here is all the equipment, and here is the 
standard, you accept it''?
    But if someone else comes in and says, ``Well, we would 
like to compete, too,'' that large vendor would have to make 
their cards interoperable with their systems?
    Mr. Hawley. Correct. We are not going to be picking these 
vendors. That is why it is a private-sector program.
    We are going to be operating with the airports to, say--the 
airport, let's say, comes to us and says, ``We want to do this 
program. Here is how we will do it. We will check it out, make 
sure it works, and make sure that every other Registered 
Traveler card that is sold will operate on that particular 
checkpoint.''
    Mr. DeFazio. Yes, again, I am worried about this incentive 
to the airports. But by not picking, it does not mean you are 
not going to thoroughly vet every vendor--
    Mr. Hawley. Right.
    Mr. DeFazio. --and somehow confirm that it is not, you 
know, a spin-off of al-Qa'ida in a new profit-making mode here 
in the United States of America?
    Mr. Hawley. Yes, sir. That is the April 20th date. That is 
the date that we get our certified--
    Mr. Dicks. Is it April 1st or April 20th?
    Mr. Hawley. April 20th, sir.
    [Laughter.]
    Mr. DeFazio. Okay. I guess I am just not convinced that 
this is the best way to go, because you can say there may be a 
multiplicity of vendors and technologies, there may not.
    The airports might get a cut. They might not. You know, if 
you come, as I do, from one of the underserved, mid-, small-
sized airports, it is likely there will be little competition. 
And someone says, ``Oh, God, these people here will pay $500 to 
get one of these cards,'' whereas you can get an identical, 
interoperable card in a competitive environment at some other 
airport where people are competing for $50.
    It just does not seem equitable to have that kind of 
differential across the system. And you would, apparently, you 
are going to I do not know. Maybe you can buy a card anywhere 
from any vendor. Is that the way it is going to work? Or is it 
going be like the captive, you are trapped at your home 
airport, whoever-vends-there kind of system?
    Mr. Hawley. Not a captive, no captives.
    Mr. DeFazio. Okay, so, basically, you can go online, find a 
vendor anywhere who will do an interoperable card for you. And 
it does not have anything to do with what airline you fly, what 
airport you fly out of, where you live, anything like that?
    Mr. Hawley. That would be an interesting model, and we 
would look forward to hearing that coming into us.
    Mr. DeFazio. And what sort of decision-making process, when 
you get these competing business models, will you go through, 
public comment?
    Because you say you have to do a rulemaking just to check 
background, criminal backgrounds. Are you going to have to go 
through a rulemaking on--
    Mr. Hawley. No.
    Mr. DeFazio. No?
    Mr. Hawley. We are going to look to get the program up and 
operating as fast as we can. And we are going to check from the 
security side and the interoperability side. And beyond that, 
our goal is to let the innovation begin.
    Mr. DeFazio. Well, no offense, Mr. Hawley, to where you 
work--and I am not questioning your motives--but, I mean, this 
administration does not have a real good track record at 
looking at competitive bids and getting the best value for the 
taxpayer or, in this case, the consumer.
    And I am very concerned about something that is so loosely 
constructed. And hopefully, this committee will exert some 
oversight on that.
    And just on the other issue, I would really like it if your 
staff could to provide to our staff their technical or legal 
reasons why they believe, in a voluntary program like this, you 
need to go through a rulemaking to check criminal backgrounds 
on people and how we might rectify that, because I really do 
not believe these cards are going to be that meaningful, if we 
are not able to check people's criminal backgrounds.
    I just think that is a big problem? Thank you.
    Mr. Rogers. The chair now recognizes the ranking member of 
the full committee, Mr. Thompson, for any questions he may 
have.
    Mr. Thompson. Thank you very much.
    Going back to a question I asked earlier about the cost--
and I guess you answered one half of it, was TSA approach to 
cost.
    But the other costs that have just been talked about here 
intrigued me, as to whether or not that cost will be sole-
sourced to an existing contractor or will it be put on the 
market competitively for Registered Traveler?
    Mr. Hawley. If we are talking about the April 20th deadline 
of finding the provider who will certify all of the proposals 
that come in, it is our intention to have that be open bid.
    Mr. Thompson. So people who are doing that now have an 
opportunity to bid, just like anyone else?
    Mr. Hawley. I believe so. It is subject to whatever the 
acquisition rules are and all that. But it will be a 
transparent process. And it is obviously a critical part of the 
security of the program, so it will be well-examined.
    Mr. Thompson. So you do not anticipate sole-source 
contracting for the clearinghouse process?
    Mr. Hawley. Well, for the clearinghouse process, there is, 
as you know, a requirement to use a particular clearinghouse. 
And from our point of view, we are agnostic on it, because it 
is a utility that does some work that we do not have to do and 
we do not pay for.
    So the way it works--
    Mr. Thompson. Who pays for it?
    Mr. Hawley. It would be somebody down the line, either the 
provider who wants to offer the card or, potentially, it would 
be passed through to the consumer.
    Mr. Thompson. That is my point. I guess, since we have 
authorized a particular contractor, do you have an opinion as 
to whether or not that is the best business model for TSA or 
anybody to use?
    Mr. Hawley. We are not planning to provide money to it. So 
it really goes to Mr. DeFazio's point earlier, that it is not 
us who are picking these contractors. And that is why we are 
doing the private-sector model.
    Mr. Thompson. Well, I guess if we do not mind, we have got 
the same problem, in that, if you being directed to it, is your 
directing--does that give you the authority to say, ``No, this 
is too high''?
    Mr. Hawley. We worked with this particular provider on a 
lot of other issues. And it is a smooth, functioning system. 
And it is not excessively costly. And I believe that they are 
very tightly managed by their ownership, in terms of making the 
fees be not more than the cost.
    Mr. Thompson. Explain to me, when they come to you with a 
cost, can you say, ``No, this is too much; our example says it 
should be half what it is''?
    Mr. Hawley. Should that be the case, absolutely, sir, yes. 
It has not been a problem to date, and we have done it with 
other programs. And we have had discussions as to how we both 
would be looking at it. And I believe that we are looking at it 
in the same way.
    Mr. Thompson. Well, I guess we will probably get some 
additional questions to you around this subject.
    Thank you.
    Mr. Rogers. The chair recognizes the gentleman from 
Washington for some additional questions.
    Mr. Dicks. Yes, I just wanted to go back to the watch list. 
Is it true that you have to guess that you are going to 
secondary inspection because you are on the watch list? I mean, 
does anybody know--are they told you are on this watch list?
    Mr. Hawley. If they are a no-fly, they are.
    Mr. Dicks. If they are a no-fly?
    Mr. Hawley. Right.
    Mr. Dicks. So how would you be--why would you be--if you 
are a no-fly, it means, obviously, you have done some bad 
things out there?
    Mr. Hawley. Correct.
    Mr. Dicks. And so only those people are told?
    Mr. Hawley. Yes. The selectee process works today, that the 
random component is put in with the on-purpose component, and 
it all prints out the same way.
    And that is meant to provide some privacy for the 
passengers running through the checkpoint, so, if somebody sees 
them with a selectee card, it does not look like, ``Oh, you 
must have done something bad.'' It is part random and part not 
random.
    Mr. Dicks. I am told that you do not get off the list. You 
get a TSA letter saying you are not the person on the list. 
Then you have to present the letter to the airport personnel, 
who may not know what to do with your situation. Is that still 
the situation?
    I mean, isn't there a way to get the person off of the 
list, off of the computer list?
    Mr. Hawley. If it is the selectee list, I would be--if a 
person is carrying a letter saying you are not supposed to be 
on a list, then that sounds like a problem. So I would be very 
interested to see your example or see if we can straighten out 
what it is.
    Mr. Dicks. Yes, I am just curious, because we have had 
stories come to the committee, anecdotal stories, that this is 
what happens. And it is very hard to get in a situation where 
you are no longer called into question.
    Mr. Hawley. Yes. There has been a change that we have done 
at TSA, in terms of our participation in the watch. And our 
participation in the watch list, the standard is, do we believe 
this person could be a terrorist? As opposed to, do we believe 
this person could be, you know, something other than a 
terrorist who did something we do not like?
    So we have ramped way back on that. And I believe we have 
zero today from TSA. Although we do participate with other 
agencies, as they have reason to put people on watch lists.
    We do not do that ourselves, except in circumstances where 
we suspect there is a terrorist connection. And then we ask the 
appropriate agencies to investigate it.
    And then we back out. And if they elect to put the person 
on, they do or they do not. And we do not get involved beyond 
that.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Rogers. Thank you.
    There being no further questions, I want to thank you again 
for your time. I know you are busy. And I appreciate you taking 
time to come here.
    As the ranking member indicated, there are going to be 
some, I am certain, some additional questions. We have got 
several meetings going on, so some of our members could not be 
here. The record will be held open for 10 days, so I would ask 
that, if somebody does submit a question to you, that you reply 
in writing so we can get it included in the record.
    And thank you for your time.
    And we will now move to the second panel.
    Mr. Hawley. Yes. Thank you, sir.
    Mr. Rogers. The chair now calls up the second panel for 
today's hearing.
    It includes Mr. Charles Barclay, President of the American 
Association of Airport Executives; Mr. Lawrence Zmuda, he is a 
Partner in homeland security for the Unisys Corporation; Mr. 
Steven Brill, Founder and CEO of Verified Identity Pass, Inc.; 
and Mr. Marc Rotenberg, Executive Director of the Electronic 
Privacy Information Center National Office.
    And we also had a person who could not participate who 
asked that his statement be submitted for the record. And 
without objection, I would like to ask that his statement, the 
EDS U.S. Government Solutions, be submitted for the record 
because he could not participate in our panel today.
    And without objection, that is submitted.
    [The information follows:]

                             For the Record

                 Submitted by the Honorable Mike Rogers

                     EDS U.S. Government Solutions

    The Department of Homeland Security (DHS), Transportation Security 
Administration (TSA) has concluded five pilots for the Registered 
Traveler (RT) program. The purpose of the RT pilots was to test the use 
of fingerprint and iris biometric technologies for identity 
verification, efficient screening, expedited travel, and enhanced 
security for travelers. The pilots operated at five major airports in 
Boston, Washington, D.C., Minneapolis, Houston, and Los Angeles during 
the period from July 7, 2004 to September 30, 2005. The pilots were 
intended to last only 90 days, but were extended to provide for a more 
thorough assessment of the projected improvements in security and 
enhanced customer service for Registered Travelers. Participation of 
travelers was voluntary, and each was required to meet eligibility 
criteria and to submit personal information TSA.

EDS' ROLE
    EDS implemented two of the TSA pilots at Boston's Logan 
International Airport and Washington, D.C.'s Ronald Reagan Washington 
National Airport, working in conjunction with American Airlines. EDS' 
successful pilot projects proved that the EDS solution, in fact, 
expedites the airport screening process for participating travelers and 
protects the privacy of their personal information. Based on EDS' 13 of 
piloting the solution at two locations, we have concluded the following 
key findings:
        <bullet> Fingerprint and iris biometrics are effective in 
        confirming the traveler's identity quickly, accurately, and 
        with minimal inconvenience.
        <bullet> Travelers, as indicated through their overwhelmingly 
        positive feedback, appreciate the convenience of an expedited 
        airport security experience.
        <bullet> Travelers are willing to voluntarily give up personal 
        information and their biometrics in order to receive expedited 
        service.
        <bullet> A sound process for enrolling and adjudicating 
        potential Registered Travelers has been tested and proven 
        effective.
        <bullet> A sound process for integrating a Registered Traveler 
        lane unto the TSA screening checkpoint has been tested and 
        proven effective.
    EDS has additional experience on other programs that support the 
above findings, notably at Ben Gurion Airport in Tel Aviv, Israel, and 
with the DHS' nationwide U.S. Immigration and Naturalization Service 
Passenger Accelerated Service System (INSPASS). The sum total of our 
lessons learned argue in favor of a nationwide Registered Traveler 
Program that is well-founded programmatically and technologically. Such 
a program provides a real benefit to all airport security 
stakeholders--travelers, airports, airlines, TSA, and traditional 
airport screening personnel.
    EDS' testimony to the Committee is respectfully submitted to 
provide advice and lessons learned as the government determines the 
future direction for Registered Traveler. We offer below our key 
observations and recommendations in the areas of program design, 
program processes, technologies, and additional considerations.

PROGRAM DESIGN
    The following discussion of some key program design issues relates 
to how the government can best structure, administer, and fund the 
program on a nationwide basis.

Program Administration. A nationwide Registered Traveler program is a 
government program that involves the support of private industry in 
coordination with local airports. As such, due to security concerns and 
the traveler's view of the program, EDS recommends that DHS retain 
oversight, make policy decisions, and administer the program. This role 
is consistent with guidance provided by DHS in its Privacy Impact 
Assessment (PIA) of June 20, 2005. The PIA states, regarding the pilot 
(and as amended includes the private sector subpilot) that, ``TSA's 
role will focus on conducting the initial threat assessment and 
periodic reassessments, as well as providing standards, threat 
assessment screening, and oversight.'' EDS is in agreement with this 
approach, especially with regard to threat assessments, and recommends 
the government continue in this role with the nationwide RT program.
    Some administration challenges DHS may face include: providing help 
desk services to assist in resolving travelers' issues' resolving 
disputes that might occur between providers, airports, and travelers; 
and privacy concerns. Within the PIA mentioned above,DHS notes that, 
``after review of the experience with this and other RT pilots and 
prior to implementation of the final program, TSA will issue a new PIA 
informing the public of changes to the program resulting in an impact 
to personal privacy.''

Funding Mechanism. Multiple options exist (as noted below) for funding 
a nationwide RT program, with one preferred, based on the pilot 
results:

        <bullet> Government funded and administered--This structure 
        replicates the structure of the Original five government-run 
        pilots. DHS secured funding for the pilots and provided full 
        administrative support to the program, including running the 
        procurement and selecting the technology providers. This 
        structure is costly to the government, but provides the 
        greatest degree of program control and flexibility.

        <bullet> Fee-based, airport-administered----This model has been 
        used in the Private Sector Known Traveler subpilot at Orlando 
        International airport, which began in June, 2005. DHS 
        participated in the Memorandum of Understanding (MOU) process 
        and the security assessment process; however, the airport 
        maintained total administrative control over the procurement, 
        implementation, and pilot operations. This model is less costly 
        to the government than a government-administered program, but 
        also limits control. While the airport profits under this 
        scenario from a direct revenue stream paid by the technology 
        provider, the lack of controls on consumer fees puts the 
        traveler at a disadvantage. In effect, the technology provider 
        holds a monopoly on that airport, is free from pricecaps, and 
        is unregulated as to methods used to attract travelers. This 
        model requires safeguards for protecting consumer interests and 
        holding providers accountable for meeting objectives. 
        Significant efforts would also be required of DHS to provide 
        oversight, enable interoperability, select the right technology 
        partners, assist in planning the rollout, work with airports 
        joining the nationwide network, and define stakeholders roles 
        and responsibilities.

        <bullet> Fee-based, government-administered--This structure has 
        not been piloted or even widely discussed. It functions similar 
        to the fee-based, airport administered model above, but instead 
        provides DHS ultimate control and flexibility. DHS would 
        collect and control fees paid by travelers; approve marketing 
        tactics; and be able to run mini-pilots to adapt to policy 
        changes and new mandates.
    Based on knowledge gained during the pilots, a fee-based, 
government-administered model represents the best alternative for DHS' 
nationwide program. It allows DHS to operate the program based on cost 
recovery while the government maintains overall administrative 
functions and program control.

Policy Decisions. By vetting travelers through a security assessment in 
the pilots and deeming them ``low risk,'' TSA allowed travelers to 
bypass random secondary screening. While beneficial, other screening 
procedures pose greater inconveniences, such as having to remove shoes 
and overcoats and taking laptops out of cases. A policy change could 
exempt RTs from such activities. EDS recommends DHS explore such policy 
issues.

PROGAM PROCESSES
    The following discussion of key program process issues relates to 
how the program can best operate to the benefit of all stakeholders.

Enrollment. As the program rolls out to multiple sites, use of 
consistent enrollment procedures becomes critical. In particular, EDS 
recommends the development of standard procedures for: collection of 
biometric and demographic information; authentication of travel 
documents; designation of traveler eligibility; and responding to 
government security alerts. Standardization of tokens such as smart 
cards, so that they are easily recognized, aids TSA checkpoint 
screeners. Fees charged to travelers, if required, should be consistent 
across all airports and collected at enrollment.

Checkpoint Similarly, standard processes at all participating airports' 
checkpoints should be defined and mandated. Examples include processes 
for: how the screener, if present at the kiosk, is to greet the 
traveler; how the traveler uses the message prompts at the kiosk; how 
the traveler is assimilated back into the TSA checkpoint after 
completing verification; what travelers do if their verification fails; 
and how RT lanes are to be set up relative to the traditional screener 
lanes. Lack of uniformity in these areas ultimately detracts from the 
value of RT, which is to smooth the traveler's passage.

Interoperability. Travelers participating in the pilot were only able 
to use the system at one airport, their ``home'' airport, which posed 
no interoperability issues. EDS recommends that airports electing to 
use an RT system within a nationwide program receive interoperability 
specifications endorsed by DHS. Such specifications should define the 
technical requirements that enable an enrolled traveler to use systems 
nationwide, and exclude providers from using proprietary technology for 
local RT systems. EDS recommends the use of established U.S. and 
International standards for biometrics and smart cards. Further, EDS 
recommends that a compliance-testing certification be issued prior to 
implementation to make sure that systems satisfy all interoperability 
specification.

Program Linkage. In some measure, RT is in a position to benefit from 
emerging government specifications such as the Federal Information 
Processing Standards (FIPS) 201, which target government employees and 
contractors. EDS recommends that DHS assess various credentialing 
systems, such as employees and contractors. EDS recommends that DHS 
assess various credentialing systems, such as US-VISIT, Transportation 
Worker Identification Credential (TWIC), International RT, and others, 
to determine the feasibility of using a single credential across the 
various DHS initiatives. In addition, it is likely that their existing 
processes and standards can be of benefit to RT, even if those agencies 
are using different physical credentials.

Use of RT Data. The information provided by travelers is valuable and 
there exist many ``potential'' uses of data collected and stored in the 
RT system. EDS recommends that use of such data be carefully defined 
and that strong privacy measures be put in place. How traveler 
information will be used and how personal privacies will be protected 
must be made very clear. Important issues to explore: how the RT data 
should be linked to criminal low enforcement data; how traveler 
movements are to be tracked; and how data can be used to effectively 
interface with rental car and hotel chains.

TECHNOLOGY
    The following discussion of key technology issues relates to how 
technology can best be used within a nationwide Registered Traveler 
program. While the RT pilots proved that fingerprint and iris 
biometrics can quickly, accurately, and with minimal inconvenience, 
confirm the identity of the airport traveler, some technical issues 
must be surmounted when implementing a nationwide program.

Standards Compliance. Interoperability standards are essential for a 
nationwide program, and various U.S. and international standards are 
now under development. Examples of existing and emerging standards 
include the following: TWIC, Personal Identity Verification (PIV), and 
Machine Readable Travel Documents (MRTD). Importantly, significant 
differences exist between international (International Organization for 
Standardization [ISO]) and u.s. (American National Standards Institute 
[ANSI]) standards. EDS highly recommends that DHS evaluate these 
efforts as it defines appropriate standards for a nationwide RT 
program. While one given standard my not precisely fit DHS' 
requirements, EDS expects that portions of the above standards, such as 
those applying to biometric data, will be advantageous to DHS.
Token-based. EDS implemented two different solutions during the 
pilots--at Logan Airport EDS tested a token (smart card) solution; at 
Reagan Airport EDS tested a token-less solution. In the token-less 
solution, the traveler presents a biometric sample, either a 
fingerprint or iris scan. The pilot solution searched the entire Reagan 
Airport database population of 2,000 enrollees for a match. While the 
token less solution accuracy rated only a few percentage points below 
the token solution, we anticipate more dramatic divergences in the 
large populations of a nationwide program and therefore recommend a 
token-based solution

Network Connectivity. The pilots were conducted using standalone 
systems without network connectivity. It was therefore a manpower-
intensive effort to propagate security assessment information and 
traveler status information to each kiosk without a network. The 
standalone configuration would lead to unnecessary costs burdening the 
traveler. EDS recommends that a second phase of testing be conducted to 
assess how best to create nationwide network connectivity for a truly 
interoperable and networked system.

ADDITIONAL OBSERVATIONS
    EDS delivered to DHS operational summary reports for the Boston 
Logan and Washington Reagan pilots on February 7, 2005. The reports 
contain nearly six months of performance measurements and observational 
data, which is valuable to consider as the program moves forward. For 
example, metrics are provided on the accuracy of different types of 
biometrics, and on the comparative duration of traveler crossings using 
card reading or biometric-comparison approaches. EDS also documented 
many implementation and operational lessons learned. These lessons 
closely match EDS' experience in providing registered traveler 
solutions for clients such as Ben Gurion Airport. EDS recommends that 
the summary reports be used to support decision-making. The following 
are examples of pilot lessons learned:

Stakeholder Management. The pilots involved not just travelers, but 
multiple stakeholders, each with their own concerns. These included: 
TSA Headquarters, TSA local airport operations, American Airines 
Headquarters, American Airlines local airport operations, and the 
airport authorities, Massachusetts Port Authority in Boston Logan and 
Metropolitan Washington Airports Authority at Washington Reagan. At 
these and all other airports EDS services, the most important 
stakeholder is always the traveler. EDS considers it critical to 
clearly define roles and responsibilities for each stakeholder and to 
identify a single point of contact for the airport RT program. EDS 
recommends that effective stakeholder management methodologies be put 
in place at project start.

Traveler Communications. While the program was well received by 
travelers, they indicated a need for timely communication. Travelers 
need an easy way to keep themselves fully informed about issues 
affecting them, such as: information on contract extensions, holiday 
hours, and future program direction. Travelers that were well informed 
of the program's availability exhibit high customer satisfaction.

Privacy. EDS's experience shows that airport travelers are highly 
interested in using biometric readers, either a fingerprint, iris 
camera, or had scanner, to confirm identity. They are anxious to use 
such solutions to speed their travel. They variously report concerns on 
the system's capability to safeguard and protect their information. 
This is their biggest concern and requires a trustworthy solution.

Conclusion
    EDS has been proud to support the TSA in the successful pilots at 
Boston Logan and Washington Reagan Airports, and believes that their 
outcomes provide significant value to DHS as the Registered Traveler 
program moves forward. Based on feedback we received from travelers, 
they are grateful to be participants in the pilot projects and are now 
anxious to enroll in the nationwide program when it becomes available. 
EDS is anxious to support them in this valuable program.

    Now the chair calls up Mr. Charles Barclay, President of 
the American Association of Airport Executives, testifying on 
behalf of that association.
    And we look forward to your statement.

                  STATEMENT OF CHARLES BARCLAY

    Mr. Barclay. Thank you, Mr. Chairman and members of the 
committee. I would like to make just three points.
    First, that a Registered Traveler program, in the opinion 
of airports, is essentially an element of a secure and 
convenient future transportation system.
    Security needs to be the first consideration. And, as the 
9/11 Commission report stated, for terrorists, travel documents 
are as important as weapons. Having an accurate, verifiable, 
voluntary form of identification, especially for the busiest 
travelers in our system, has great value for reliably 
recognizing those who do not pose a threat to the system.
    If one travels for a living or something close to it, the 
time penalty our new security procedures impose is multiplied 
over and over again. Much more than just an occasional 
inconvenience, it is a real loss of productivity.
    Of the 700 million in plane passengers each year, 40 
percent of them are made up by 5.5 million people, or 8 
percent, according to the Air Transportation Association, and 
50 percent of that 700 million are made up by just 8 million 
frequent travelers.
    We use background checks for airport and airline employees, 
for federal air marshals and local law enforcement officials 
who carry guns on airplanes, and other individuals that we 
trust will work to keep the system safe.
    We can certainly use the same policy for passengers willing 
to pay for their own security checks and volunteer information 
on themselves, to trust simply that they do not pose a danger 
to the system and provide them expedited screening.
    My second point is that almost 60 airports, led by an 
executive committee of Minneapolis, Phoenix, San Francisco, 
Denver, the Washington airports, Dallas, Boston, and Columbus 
have organized a Registered Traveler Interoperability 
Consortium, or RTIC, to move the program forward.
    Significant effort has been expended by these airports due 
to the importance of an R.T. program to them and the need to 
agree on some minimum standards among airports that wish to 
have their individual R.T. programs interoperate.
    The RTIC members are intent on developing an open standard 
cost base platform that protects customers' interests and the 
airports' investments. As local government agencies involved, 
the airports have the appropriate public-sector incentive to 
serve passengers' security and financial interests in the 
program.
    RTIC policy is to work closely with TSA. And we eagerly 
await TSA's policy and operating rules for its essential role 
in Registered Traveler.
    RTIC has also formed a service providers council of private 
companies involved in R.T., to make sure that the best possible 
technical and business advice is provided to the airport 
members.
    RTIC airports have adopted a policy, again, one that is 
consistent with their public agency incentives to empower as 
many private vendor solutions to the R.T. program as possible 
and establish a level playing field for all those vendors.
    Let me parenthetically add on the MOU issue that Mr. Rogers 
raised, that the listing of points in our testimony outlines 
the way the RTIC members think the program should run.
    If you read very carefully several sections, you will see 
we were not saying that there is an MOU, but our proposal is 
there would be an MOU, so that TSA would do the vetting of all 
the passengers, not anyone else in the system.
    My final point is that AAAE, RTIC, and the Transportation 
Security Clearinghouse are ready and eager to facilitate R.T. 
with existing partnerships and resources.
    There already exists a highly efficient, trusted security 
network that connects all commercial service airports, 
airlines, and the federal government for the purpose of 
employee security background checks and verification.
    The clearinghouse collects, checks, transmits, tracks and 
accounts for the biometric and demographic information on 
employees with access to secure areas of airports. And it had a 
remarkable record of reliability and efficiency.
    The clearinghouse has processed over 1.8 million criminal 
history record checks since January 2002, making it the largest 
security clearinghouse outside the Department of Defense.
    Before 2002 and creation of the clearinghouse, criminal 
history record checks for airport and airline employees took an 
average of 52 days, almost 2 months. Today, the clearinghouse 
averages 4 hours. And that represents a huge savings in 
personnel costs to our industry.
    The clearinghouse has reduced the fee per record from $31 
to $29, of which $22 goes to the FBI, making this fee less than 
a third of what other transportation interests are paying for 
the same criminal history record check.
    The clearinghouse has a number of other best-of-class and 
first arrows in its quiver that are detailed in an article \1\ 
and some other information that I would like to also ask be 
made part of the record.
---------------------------------------------------------------------------
    \1\ ``Inside TSC: Saving Money Saving Time'' Airport Magazine, May/
June.
---------------------------------------------------------------------------
    Building upon this established security network is a 
common-sense approach for quickly and efficiently enabling 
interoperable R.T. for airports. The clearinghouse is governed 
by RTIC policy and the airports that run that, requiring that 
it maintain an open, vendor-neutral standard.
    Airports and airport executives look forward to assisting 
the Congress and TSA in establishing a needed Registered 
Traveler program.
    Thank you, Mr. Chairman.
    Mr. Rogers. Thank you, Mr. Barclay. And that will be 
submitted for the record, as well, along with your full 
statement.
    [The statement of Mr. Barclay follows:]

                 Prepared Statement of Charles Barclay

    Thank you for the opportunity to share with the subcommittee the 
views of the airport community on the future of the Registered Traveler 
Program. I am testifying today on behalf of the American Association of 
Airport Executives (AAAE), Airports Council International--North 
America (ACI-NA), and our Airport Legislative Alliance, a joint 
legislative advocacy organization. AAAE represents the men and women 
who manage primary, commercial service, reliever, and general aviation 
airports. ACI-NA represents local, regional and state governing bodies 
that own and operate commercial airports in the United States and 
Canada.
    I want to begin by expressing our appreciation to you, Chairman 
Lungren, and to the subcommittee for the considerable attention you 
have devoted this year to highlighting the need for the federal 
government to expedite the deployment of new technology, including the 
Registered Traveler Program, in order to improve the effectiveness and 
efficiency of security screening operations at airports across the 
country. With aviation traffic returning to record levels and with 
federal resources become ever more scarce, it is imperative to get the 
most out of the resources we devote to security. Utilizing better 
technology to effectively manage risk results in better security and a 
more efficient use of federal and industry investments.
    Unfortunately, the federal government to this point has been slow 
to embrace the promise of technology as the subcommittee has heard 
during the course of several hearings this year. The in-line 
installation of explosive detection equipment in airports, for example, 
will save the federal government billions of dollars at the handful of 
airports where TSA has committed resources to having those systems in 
place. Despite significant security benefits and dramatic personnel 
savings--savings that could be applied to other homeland security 
needs--no plans yet exist for federal investment in these systems at 
additional airports.
    The Registered Traveler Program has likewise been slow in gaining 
firm direction from TSA. We are, however, very encouraged by the 
leadership that DHS Assistant Secretary Kip Hawley has shown in this 
area and believe that we are finally moving in the right direction with 
this critical program.
    Rather than waiting for government to act entirely on its own, it 
is clear that airports and the aviation industry can and should play an 
active role in partnering with the federal government to design and 
implement meaningful solutions to security challenges. The 
establishment of effective public/private partnerships has already 
proven extremely successful, for example, in building a system for 
processing fingerprint-based background checks and additional 
background screening for more than 1.8 million airport and airline 
employees through the Transportation Security Clearinghouse.
    On the Registered Traveler front as I will discuss in more detail, 
the airport community and its aviation partners are moving forward to 
help provide a model for Registered Traveler programs that will be 
interoperable, innovative, and will endure past the span of a ``pilot 
program.'' Undoubtedly, the best path forward is one in which federal 
resources and standards are combined with the knowledge, expertise and 
creativity of airports, airlines, and aviation-oriented businesses.

    Registered Traveler Program Will Improve Security and Efficiency at 
Airports
    The value of a nationwide Registered Traveler Program is already 
well-established. The concept has received the strong endorsement of 
the 9/11 Commission and numerous others as the subcommittee discovered 
through the various hearings you have held on the topic this year. In 
an era of risk management, limited federal resources must be focused on 
known and unknown risks to the aviation system. Registered Traveler 
accomplishes that goal by helping TSA to better align screeners and 
resources with potential risks.
    In simple terms, Registered Traveler shifts the focus from finding 
dangerous ``things'' to finding dangerous ``people.'' The most 
important weapon that the 19 terrorists had on September 11 wasn't box 
cutters; it was knowledge--knowledge of our aviation system and 
existing security protocols, which they used to their advantage.
    With more than 700 million passengers traveling through the U.S. 
aviation system each year--a number that is expected to grow to more 
than one billion annually within the next decade--we simply cannot 
afford to treat each passenger the same. Today's personnel-dependent 
screening system is already being pushed to the brink, a fact that is 
evidenced by increased wait times at a growing number of passenger and 
baggage screening checkpoints. One can only imagine how bad the 
situation will become as 300 million or more additional passengers are 
added to the system--especially if they are processed as they are 
today.
    While a nationwide Registered Traveler Program will be open to all 
whom are eligible, there is no doubt that the frequent fliers--the six 
million passengers who make up the overwhelming majority of all 
travel--will be the ones most likely to enroll. By providing a 
different screening protocol for this group of registered and 
scrutinized travelers--which we believe is a critical component of the 
program moving forward--TSA will be able to better target security 
resources, expedite processing for all passengers, and reduce the 
passenger ``hassle factor.''
    As you know, TSA has just concluded a Registered Traveler pilot 
program that involved five airports partnering with a single air 
carrier at each airport. A sixth pilot program which involves a public-
private partnership is on-going at Orlando International Airport. 
Although the original TSA Registered Traveler pilot programs were 
popular with participants, they were not interoperable by design, which 
severely limited benefits to only one air carrier at each of the five 
original airports. Additionally, participants were subjected to the 
exact same security protocol--the removal of laptops, shoes, and coats 
were still required, for example--as non-participants, meaning that the 
only real benefit was simply being moved to a shorter screening line.
    Now that the technology has been tested, we should turn to a 
process that realizes the true potential of Registered Traveler, one 
that is nationwide and interoperable. Participants who sign up in 
Dallas, in other words, must be recognized and accepted as they travel 
to San Francisco, Los Angeles or other airports throughout the aviation 
system. Additionally, security screening protocols should be adjusted 
for program participants in recognition of the extensive background 
vetting they have received.

Airport Registered Traveler Interoperability Consortium (RTIC)
    Airports, in light of their public nature and responsibilities to 
the communities they serve, remain eager to partner with the TSA to 
improve the effectiveness and efficiency of the security screening 
process. In recognition of the promise that Registered Traveler holds 
in achieving these goals, airport professionals have been working 
diligently to move forward operationally with the program. One 
voluntary initiative in particular that I would like to report to the 
subcommittee today is the creation of the Registered Traveler 
Interoperability Consortium (RTIC). The RTIC is a group of nearly 60 
airports that are working to define and establish the mutual and common 
business practices and technical standards that will complement federal 
standards and help push forward a national program. This represents a 
significant attempt by a large group in the airport community to 
partner with TSA in making the promise of RT a reality as quickly as 
possible.
    The goal of the RTIC is to develop a common set of business 
processes and technical rules on an open, secure and industry-driven 
network among airports that will create a fair and seamless platform 
for airports, airlines and vendors to interface with DHS and among each 
other. Rather than pre-ordaining any one proprietary system, this open-
architecture approach ensures that airports have an opportunity to work 
with any number of technologies or vendors to design a system that 
works best at their facility. This approach also ensures that the 
creativity and competition of the private sector is unleashed to better 
serve local needs and to keep program costs in check.

 
 
 
 
Current members of the RTIC          ...................................
 include:
 
Albany International Airport         Northwestern Regional Airport
                                      Commission
Atlantic City International Airport  Palm Beach International Airport
Bangor International Airport         Palm Springs International Airport
Boston Logan International Airport   Peninsula Airport Commission
Chattanooga Metropolitan Airport     Philadelphia International Airport
 Authority
Dallas/Fort Worth International      Phoenix Sky Harbor Airport
 Airport
Denver International Airport         Pittsburgh-Allegheny County Airport
                                      Authority
Dickinson Theodore Roosevelt         Port Authority of New York and New
 Regional Airport                     Jersey
Flagstaff Pulliam Airport            Port Columbus International Airport
Fort Wayne International Airport     Pullman-Moscow Regional Airport
Ft. Lauderdale-Hollywood             Redding Municipal Airport
 International Airport
Grand Forks Regional Airport         Redmond Airport
 Authority
Greater Orlando Aviation Authority   Reno-Tahoe Airport Authority
Greater Rockford Airport Authority   Rhode Island Airport Corporation
Huntsville International Airport     Roanoke Regional Airport Commission
Jackson Hole Airport                 San Francisco International Airport
Kent County Department of            Santa Barbara Airport
 Aeronautics
Lafayette Regional Airport           Seattle-Tacoma International
                                      Airport
Lexington Blue Grass Airport         St. Louis-Lambert International
                                      Airport
Lihue Airport                        Shenandoah Valley Regional Airport
Las Vegas McCarran International     Metropolitan Washington Airports
 Airport                              Authority
Memphis-Shelby County Airport          (Reagan National and Dulles
 Authority                            Airports)
Metropolitan Knoxville Airport       Tucson Airport Authority
 Authority
Metropolitan Nashville Airport       Tupelo Regional Airport
 Authority
Mid-Ohio Valley Regional Airport     Waco Regional Airport
Minneapolis-St. Paul International   Wayne County Airport Authority
 Airport
Monterey Peninsula Airport           Wichita Airport Authority
Myrtle Beach International Airport   Wilmington International Airport
Northwest Arkansas Regional Airport  Yeager Airport
 


    The airports of the RTIC have established and agreed on common core 
principles that will enable technical interoperability across a broad 
and varied airport network. More importantly, these principles will 
establish processes and procedures that will provide a consistent, 
common and secure framework from which Registered Traveler can work for 
all travelers at airports choosing to participate in the RTIC. 
Specifically, the RTIC has agreed to create a system where:
        <bullet> Qualified applicants in the RT Program will agree to 
        voluntarily provide TSA--specified personal data, both 
        biographic and biometric, which will be used by TSA to assess 
        the security threat of each participant.
        <bullet> Service providers will be responsible for enrollment 
        operations, including collection and verification of personal 
        data of eligible applicants. Service providers must protect and 
        maintain all personal data related to an applicant in a secure 
        manner and prevent the unauthorized disclosure of the personal 
        data.
        <bullet> Service providers must securely transmit valid 
        application enrollment data to the RTIC Registered Traveler 
        Management System (RTMS). The RTIC RTMS will receive enrollment 
        data from the RT service providers and will validate and 
        perform duplicate checking of received enrollment data and 
        forward data to the TSA for security threat assessments.
        <bullet> The TSA will conduct the security threat assessments 
        and return results daily per a Memorandum of Understanding 
        (MOU) between TSA and RTIC.
        <bullet> On receipt of notification of an acceptable security 
        threat assessment for an applicant, the RTIC will notify the RT 
        service provider for that applicant of the updated status of 
        the applicant and will forward the applicant's credential 
        information to the service provider.
        <bullet> Service providers will issue and deliver participants' 
        membership cards (e.g. smart cards). Service providers must 
        notify RTIC of any future changes in the status of their 
        participants, such as lost or stolen cards. Service providers 
        are also responsible for customer service, including 
        communicating with applicants regarding their approval status 
        and responding to applicant and participant inquiries.
        <bullet> Service providers may not unnecessarily disclose 
        biographic and/or biometric data required for the purpose of 
        the RT Program and collected by the service provider from RT 
        Program applicants or participants. Service providers may not 
        sell or disseminate any biographic and/or biometric data 
        required for the RT Program and collected by the service 
        provider from RT Program applicants or participants for any 
        commercial purposes without the approval of the airport.
        <bullet> Participating traveler processing will occur at the 
        airport's security checkpoints. The placement of the RT 
        screening stations will be located in front of the TSA 
        passenger screening areas. Passengers that are not enrolled in 
        the RT Program or are not approved when presented at the RT 
        processing area will use the normal TSA security lines/lanes. 
        Passengers that are enrolled and approved will use the 
        designated RT security screening lines/lanes.
        <bullet> Biometric technology will be used for traveler 
        identity verification at the RT screening stations. Once a 
        participant presents their membership card, fingerprint and 
        iris biometric features will be used to verify passenger 
        identity. Proposed biometric systems shall be currently 
        operational, highly accurate, cost effective, and capable of 
        confirming the identities of large populations within short 
        time constraints.
        <bullet> Service providers will operate the RT screening 
        stations, including the timely update of system and card 
        revocation status to ensure fast, secure and reliable 
        verification and status-checking at the airport checkpoint.
        <bullet> Service providers are responsible for installing, 
        furnishing, integrating, operating and maintaining all of their 
        required equipment and systems.
        <bullet> The RTIC will create and maintain the technical and 
        business rules for the RT Program. The RTIC will operate a 
        certification program for RT service providers to validate the 
        conformance of their systems, service levels, and processes 
        with the RT Program rules. Service providers will be required 
        to undergo an annual re-certification and auditing of their 
        systems and processes.
        <bullet> Service providers will market the RT program to 
        potential applicants and will use standardized RT Program logos 
        and signage within their marketing.
    Other airports may choose other approaches. However, by 
establishing a sustainable and cost-driven approach in partnership with 
TSA, airports can help ensure a Registered Traveler Program that 
focuses on enhanced security above all else in addition to expediting 
the travel experience. These two pillars are the primary values that 
the nation's frequent air travelers want and that each of you as 
policymakers rightly will demand. By bringing efficiency back into the 
nation's airport screening checkpoints, TSA screeners will be able to 
better focus their limited resources on the critical task of providing 
more rigorous screening to individuals about whom we know less than 
those who have voluntarily submitted their background for extensive 
vetting and clearance.
    As each member of this subcommittee knows as a frequent traveler, 
every airport is unique. A successful, long-term Registered Traveler 
Program depends on the implementation of a technical, operational and 
business model capable of supporting individual airport needs, while 
providing the common infrastructure that allows passengers to use this 
capability at any airport nationwide. In recognition of that fact, it 
is critical that a permanent Registered Traveler Program be airport-
driven and run outside of government with careful and consistent 
government standards and oversight.
    Mr. Chairman, more than four years after the tragic events of 
September 11, we still have a great deal of work to accomplish in 
transforming the existing personnel-dependent screening system into the 
system of the future. In an era dramatically increasing demands on our 
nation's air transportation system, it is critical that we move forward 
as quickly as possible with promising technology like the Registered 
Traveler Program. Airports and the aviation industry have a key role to 
play in working with the federal government to make RT operational, and 
we are pleased to report great progress in that regard. It is our 
sincere hope and expectation that the federal government will fulfill 
its responsibilities so that the program can become a reality in the 
very near future.
    Again, we appreciate the leadership of this subcommittee and the 
opportunity to testify today.

                             For the Record



                 TRANSPORTATION SECURITY CLEARINGHOUSE

       ----------------------------------------------------------

          Industry-driven federal partnership
          dramatically increases security and saves industry hundreds 
of millions
          of dollars
    AAAE has recognized a new milestone in their successful security 
partnership with DHS. The Transportation Security Clearinghouse (TSC), 
a unique public-private partnership charged with strengthening the 
security and efficiency of aviation employee background checks, 
surpassed 1.8 million fingerprint-based background checks successfully 
completed. Since its creation in December 2001, the TSC has processed 
1.8 million criminal history record checks for airport and airline 
employees and has saved the airport and airline industry both time and 
money through its commitment to efficiency and technological 
innovation.

In fact:
        <bullet> The TSC process has reduced the time it takes for 
        airports to get fingerprint results from an average of 52 days, 
        pre-September 11 when submitting to OPM, to an average of 4 
        hours, with most reports completed in around 40 minutes. This 
        reduction in time has enabled airports to put their employees 
        on the job where they are needed, without the need to pull 
        another valuable employee from their duties to serve as an 
        escort. The TSC has saved the industry hundreds of millions of 
        dollars in productivity gains and employee retention as a 
        result of reduced fingerprint check processing times.
        <bullet> Because of innovative in-house technical work, the TSC 
        performs ``real-time'' processing to transmit fingerprints to 
        the federal system in an average of 16 minutes. The TSC's 
        ``real-time'' processing dramatically increased the efficiency 
        and timeliness of the airport fingerprint submission process.
        <bullet> Centralization of the fingerprint tracking process 
        allows for accurate fingerprint submission status at any point 
        in the background check process virtually eliminating ``lost 
        fingerprints'' within the federal system. Ensuring that airport 
        employees can return to work and not have to be called back for 
        repeated fingerprinting due to missing fingerprints this 
        centralized process has saved airports thousands of wasted 
        employee work hours over the last three years.
        <bullet> The TSC is paid by and works for the airports and 
        airlines conducting employee checks, not by TSA. This affords 
        the TSC the opportunity to make quick changes on behalf of 
        airports without having to worry about going through burdensome 
        TSA approvals for every change it makes to its process.
        <bullet> TSC provided an industry first Virtual Private Network 
        (VPN) connectivity for fingerprint submissions. This innovative 
        approach which was provided by the TSC to airports free of 
        charge connects the livescan devices at the airports to the TSC 
        and currently saves some airports over $1,000 a month in long 
        distance telephone charges.
        <bullet> Because of AAAE's ability to do the technical and 
        administration work ``in-house'' and subsidize labor and other 
        costs for the formation of the clearinghouse, the resulting 
        cost savings allowed TSA to lower fingerprint processing prices 
        from $31 to $29 (for electronic submissions), saving the 
        industry over $3 million dollars. The TSC has been working with 
        TSA to reduce the processing fee to an even lower rate.
        <bullet> FBI indicates that the submissions of the aviation 
        community done through the TSC had one of the best error rates 
        in the U.S. (2%) and that this reduced error rate was directly 
        related to the quality checks and error corrections performed 
        by the TSC. The current federal average error rate is 8%. Since 
        the TSC began operations, the error rate has continued to 
        decline, with a significant drop when the TSC brought its ``in-
        house'' developed software package online. This equates to 
        approximately 32,000 aviation workers that did not have to go 
        through the time consuming process of reprinting due to errors 
        created at the airports' print office with a cost savings of 
        $2.5 million dollars to the industry. The TSC also warehouses 
        submitted fingerprints allowing correction and resubmission 
        when errors occur between the TSA and FBI, saving industry 
        valuable time, effort and more importantly saved labor costs.
    The Transportation Security Clearinghouse (TSC) has been remarkably 
successful in providing one central location where the mandated task of 
checking the backgrounds of hundreds of thousands of airport and 
airline employees can begin. The TSC established a quick and secure 
method to collect employee fingerprints, user payment and offer 
customer service for over 500 airports and multiple airlines across the 
country for further processing by the FBI.
    As demonstrated above, the Clearinghouse has taken a number of 
steps to make the process as easy and efficient as possible for the 
aviation industry. We facilitated the first high speed secure 
connection to the federal fingerprint processing system, set up and 
brought online over 500 separate submitting entities for fingerprint 
processing and have served over 1.8 million fingerprint records that 
were passed on to the federal government for processing at an average 
speed of 16 minutes per record.
    The Clearinghouse is committed to continuous improvement and 
working with airports, airlines and government agencies on all the 
issues that impede a smooth-functioning criminal history record check 
process.

    Mr. Rogers. The chair now recognizes Mr. Steven Brill, 
Founder and Chief Executive Officer of Verified Identity Pass, 
for his statement.
    Thank you very much for being here. We look forward to 
hearing what you have to say.

                   STATEMENT OF STEVEN BRILL

    Mr. Brill. Thank you, Mr. Chairman, members of the 
committee.
    When we started our company more than 2 years ago to launch 
what we call the voluntary credentialing industry, we were 
hardly the ones thinking about Registered Traveler programs. 
Many on this committee and others in Washington were on the 
same path.
    But our approach was different from most in one key 
respect: We agreed that the government should do the applicant 
threat assessment, but we did not believe that this should be a 
government program.
    We did not believe that government could offer the 
efficiency, the customer service, the incentives for continual 
innovation, and the privacy protections that a robustly 
competitive private-sector industry could provide.
    Last winter, the TSA authorized a private-sector program in 
Orlando. The airport went through a selection process and, in 
June, Verified Identity Pass, along with its partner and 
general contractor, Lockheed Martin, won that competition. And 
I emphasize it was competition.
    Our service, called Clear, based its approach on price, 
$79.95--which was not computed in the way that the Congressman 
DeFazio has implied--intense customer service, a money-back 
guarantee, and, of course, the convenience of passengers.
    We also concluded that Registered Traveler programs had to 
create brands that customers would trust, because this service 
involves both security and privacy.
    Thus, among other things, we promised our members: First, 
not to track where and when they used the card; second, an 
identify theft warranty, covering our cost if their identities 
were compromised in any way by our program; and, third, not to 
do what I used to be able to do, and did, as a magazine 
publisher, sell or give their names to any other marketers.
    Now, we backed these promises by appointing an outside, 
independent privacy auditor to issue public reports on how we 
are keeping those promises. We also appointed an ombudsman for 
our members to complain to. And, in fact, we offered the people 
from EPIC the job of being our ombudsman, because we wanted an 
open, transparent process.
    We have now been operating the Clear program in Orlando for 
more than 3 months. We already have 10,000 enrollees and are 
well on track with our business projections for getting more 
than 50,000 members in the first year of the program.
    According to an elaborate metric support that TSA required 
of us of covering the first weeks of the program, and as 
Administrator Hawley mentioned, the system and the technology 
works.
    Equally important, our members have enjoyed a predictable, 
time-saving experience at the airport, and we have provided the 
committee with details of just how time-saving that experience 
is.
    As you will see from copies of the feedback that we have 
received, the postcards, most of our members, it is no 
surprise, love the program. In fact, they really only have one 
major complaint, that it is not in more airports.
    Now, it is good news that they love the program, not only 
for us, but for TSA and everyone who moves through an airport, 
even non-Registered Traveler members.
    Here is why: First, as the Chairman stated in his opening 
remarks, because R.T. members are such frequent fliers, when 
R.T. reaches critical mass, it will eliminate a large, 
disproportionate amount of hay from the haystack that TSA faces 
everyday, as much as 40 percent of travelers on a given weekday 
morning, all in a program that costs TSA, the airports, and the 
airlines not a nickel.
    Second, R.T. programs, when they are operated correctly, 
move all passengers through more quickly. The best analogy here 
is electronic toll-taking, because drivers who have an E-ZPass, 
as we call it in New York, move through the toll lanes faster. 
Their lanes can absorb more cars, which means that even those 
without E-ZPass now enjoy toll lines that are shorter.
    The trick, of course, is to calibrate the right mix of E-
ZPass and non-E-ZPass lanes so that the E-ZPass lanes do not 
get clogged as enrollment increases, and so it will be with 
R.T. at the airports.
    Now, our lanes already do move faster, because Clear 
members are practiced customers and because we provide, at our 
expense, a concierge at those lanes to help them remove their 
cell phones and get their bins, et cetera.
    But those lanes need to move faster for this program to 
work, and to achieve the full E-ZPass effect, and to give our 
customers the full benefits that they want and deserve, in 
return for agreeing to be vetted. These benefits include not 
making them remove their shoes, laptops, or suit jackets.
    Fortunately, under Administrator Hawley, TSA seems to have 
expressed a willingness to make such changes, in keeping with 
the risk management that has been so much a part of Secretary 
Chertoff's articulation of DHS's urgent mission.
    Now, we get to play our part, too, in speeding up the 
lanes. In addition to our concierge service, we plan, upon TSA 
approval, to finance cutting-edge, new technology that can 
speed people through our lanes at the same or better security 
level before TSA can then finance that same equipment at all 
the lanes.
    Now, TSA already has done much to make a national 
Registered Traveler program happen. In the Orlando program, TSA 
developed specific but vendor-neutral technical standards that 
clearly present a blueprint for programs beyond Orlando.
    And TSA, as you heard, has already declared that any 
programs going forward must be interoperable with others.
    A month ago, I stood on the stage with our able competitor 
from Unisys, Mr. Zmuda, at the ACI convention in Toronto. And 
we both pledged that we would and could achieve that 
interoperability.
    And we will, because it is in our interest to do so, just 
the way it was in the interest in banks to achieve 
interoperability for ATM machines.
    Now, I will close by noting that interoperability is also a 
key to ensure the thing that I know everyone on the committee, 
and particularly Congressman DeFazio, is worried about, and 
that is robust competition.
    If a competitor who operates a Registered Traveler program 
at O'Hare Airport knows that, because all cards are 
interoperable, he could also sell cards to people in Dallas, 
where there might be a Clear program at that airport, then that 
competitor could set up shop in downtown Dallas and compete 
with us at Clear.
    So how do we go forward? Well, I can tell you that, if TSA 
mapped a clear blueprint for benefits to R.T. members and then 
allowed airports or airlines, where the airlines control their 
own terminals, to present programs to TSA for vetting and 
approval, we and our competitors would likely be rolled out at 
30 or 40 of the 50 largest airports within 6 months, and just 
as many small airports, because there is an economic model we 
can use for small airports, as well.
    In fact, we and Lockheed Martin have already begun 
assembling teams to do that kind of roll-out. This could soon 
mean 8 to 10 million people enrolled in Registered Traveler 
programs.
    Now, that kind of critical mass would set the stage for 
this credential to be recognized at other venues, such as 
sports arenas or train terminals, that now cannot do much about 
security because they have no way to manage risk, other than 
searching everyone or searching no one.
    So we hope that Congress will encourage and support TSA as 
it moves ahead. We hope that the legislative and executive 
branches will set tough standards, including making sure that 
competition is always encouraged and that any rules or mandated 
processes that inhibit competition, artificially raise costs, 
or threaten privacy are absolutely avoided.
    That way, costs will stay low and critical mass, service 
level, and privacy protections will stay high. Then, with all 
respect, we hope you will stand back and let us compete.
    Thank you.
    [The statement of Mr. Brill follows:]

                   Prepared Statement of Steven Brill

    Chairman Lungren, Congresswoman Sanchez, and members of the 
Subcommittee, I want to thank you for affording me this opportunity to 
sketch my vision of how a private sector voluntary credentialing 
industry can and should develop in the coming months across the United 
States and around the world--and to report on its first rollout, at the 
Orlando International Airport. My name is Steven Brill. I am the 
Founder and CEO of Verified Identity Pass, Inc., the company that 
created Clear, the first branded consumer product in the voluntary 
identity credentialing industry. It is also the company that launched 
and now operates the private sector Registered Traveler program at the 
Orlando International Airport, the first of its kind and now the only 
existing Registered Traveler program in the country.
A Different, Private Sector Approach
    Of course, since we began our company more than two years ago, my 
colleagues and I have hardly been the only ones thinking about trusted 
or registered traveler programs at airports, under which people could 
volunteer to be pre-screened and get a biometrically secure card that 
would allow them expedited access through security. Many members of 
this committee and others in Washington were on the same path.
    But from the beginning our approach has been different in several 
crucial respects:
    Most fundamentally, we did not believe this should be a government 
program. Yes, the government should be responsible for the security 
vetting and threat assessments necessary for such a program. But for 
several reasons we believed then, and now, that this should not be a 
typical government program, wherein some contractor gets billions of 
dollars to create a new bureaucracy.
    First, government shouldn't necessarily pay for such programs. Our 
program is based on the absolute principle that we are not seeking any 
government contracts or any government subsidies at all. We believe 
that these programs should not cost the taxpayers a nickel.
    Second, it is hard to imagine that the government could offer the 
efficiency, customer service, incentives for continual innovation, and 
privacy protections--about which I will talk more in a minute--that a 
robustly-competitive private sector industry could provide.
    Third, many of the security bottlenecks, if not now in the future, 
are in venues that the federal government doesn't and shouldn't 
regulate, such as sports arenas or office buildings.
    Fourth, one government program would mean that one data base could 
track people's movements.

The Orlando Program:
    Thus, even as TSA was beginning the funding of its pilot projects 
at five airports across the country--an initiative we applauded, 
because it tested the concept and the technology of Registered 
Traveler--we began urging TSA that the logical follow-on to these 
pilots was a private sector program.
    Unlike the five pilots, this program would test the marketplace.
    Would customers buy such a program?
    Would they like it?
    Could the marketing be appealing in a way that did not exploit 
fears or the current necessity of bottlenecks?
    Could privacy and security protections be put in place?
    Would the system actually work?
    Could the technology--never before tested on this scale--work so 
that people could have their biometrics captured efficiently and 
accurately at enrollment?
    Would the card-presentation process at the security lanes work?
    Would the program cause wait times at non-RT lines to be longer?
    Last winter, TSA agreed to consider such a program and approved 
Orlando as the site of its initial launch. The Greater Orlando Aviation 
Authority then went through a competitive process to decide who the 
service provider would be. In June, Verified Identity Pass, along with 
its general contractor and equity partner, Lockheed Martin, won that 
competition against the contractors who had ably implemented the five 
pilot projects.
    CLEAR's appeal to customers is based on price ($79.95 a year, which 
is at the low end of what our research said frequent flyers might pay), 
intense customer service, a money-back guarantee, and, of course, 
convenience. It was also based on creating a brand that customers would 
trust--something that we believed, and knew from extensive focus group 
research, was especially important because we were selling a service 
that had to do with both security and privacy.
    Indeed, we approached the privacy issue aggressively, for two 
reasons. First, we believe in strong privacy protection. (I am a long-
time, card-carrying member of the ACLU.). Second, in talking to 
prospective customers across the country, we knew that it mattered to 
them, a lot. Thus, among other things, we promised our CLEAR members--
by contract in their membership enrollment--
    Not to track where and when they use the card;
    An identity theft warranty covering any costs they might incur if 
for some reason their identities were compromised by our program.
    Not to do what I used to be able to do as a magazine publisher--
sell or give their names to other marketers.
    And we backed the promises by appointing an outside Independent 
Privacy and Security Auditor to issue public reports on how we are 
keeping these promises.

Orlando Results So Far:
    We have now been operating CLEAR in Orlando for about three months. 
And we already have more than 10,000 enrollees. We are well on track 
with our business projections for getting more than 50,000 members in 
the first year of the program.
    TSA has required the Orlando Airport to have us keep elaborate 
metrics of the first weeks of the program so that TSA can evaluate it. 
Here are some highlights:
    It typically takes a CLEAR applicant about 15 minutes to complete 
the first phase of enrollment--which happens at home or in an office on 
their own computers, where they establish an account and provide basic 
personal identifying information.
    It then takes them only another eight minutes at the Airport to 
complete in person enrollment at our enrollment stations--wherein they 
provide their identifying documents for verification, and then have 
their fingerprints and iris scans captured.
    We would be glad to provide more details, but I can tell you that 
the number of technical glitches in capturing these biometrics or in 
authenticating people at the security lanes has been minimal to non-
existent. And our members typically spent four seconds and never spend 
more than three minutes waiting to go through security, whereas non-
members often spent more than thirty minutes.
    Thus, our customers are, to put it mildly, highly satisfied. We 
know that because as part of our customer service program every member 
who goes through the CLEAR security kiosks is given a self-addressed 
feedback post card. As you will see from the handout you have been 
given of copies of every one of the hundreds of post cards we have 
received (though with the names blacked out to preserve privacy), most 
love the program. The major complaint they have is that it is not in 
more airports.
    Every week I call several of them myself to get my own feedback, 
and I can report that if these people are any indication, there are 
millions of people across the United States ready to sign up with us or 
our competitors.
    That isn't just good news for us. It's great news for TSA and for 
everyone else--including non-enrollees--who move through an airport.
    Here's why:
    First, our surveys of enrollees in Orlando indicate that they use 
just that airport 40 times a year. This means that they are super-
frequent flyers. What that in turn means is that when we get to 40,000 
or 50,000 enrollees--and we will, especially once they can use the card 
at more airports--they will represent twenty to forty percent of the 
people using the Airport on any given weekday morning. That means that 
we will have eliminated a large, disproportionate amount of hay from 
TSA's haystack--20-40% of the crowd that they will have to pay slightly 
less attention to so that they can concentrate on those whom they do 
not know.
    With that in mind, let me mention how I think Registered Traveler 
fits with and complements a program like Secure Flight in a way that 
also helps TSA and the traveling public: If Secure Flight is 
established, anyone making a reservation who is a member of an RT 
program could provide his or her unique RT account number. The 
resulting boarding pass the person would get (online or at the airport) 
would have a highly visible ``RT'' on it, which would allow, and in 
fact require, that person use his card at the RT lanes at the Airport. 
At the same time, the person's reservation process would be exempt from 
the usual Secure Flight process, in which a threat assessment is 
presumably made each time the person books a flight. That's because a 
threat assessment has already been made by the RT program, an 
assessment that is continually updated by the RT process. So, the 
person would present his RT card and biometrics at the RT lane. This 
could mean that 20 or 30 or 40 percent of travelers, once RT grows, 
would not have to be in Secure Flight and, in fact, be going through a 
more secure process than Secure Flight, because the use of the 
biometric card always insures the proper identity.
    And suffice it to say that until a program like Secure Flight is 
implemented, RT is the only process by which we can provide threat 
assessments that are more efficient than the current system. So either 
way--before Secure Flight or once Secure Flight happens--RT represents 
a significant enhancement of TSA's risk management efforts.
    Second, RT programs, when they are operated correctly, can actually 
help move ALL passengers through the airport more quickly. The best 
analogy here is electronic toll collecting, or E-ZPASS as we call it in 
the New York area. Because E-ZPASS drivers move through the toll lanes 
faster than others, their lanes can absorb more cars--which means that 
the non-E-ZPASS drivers now typically contend with toll lines that are 
shorter than before E-ZPASS. Put simply, because of E-ZPASS everyone 
goes over the Triborough Bridge faster.
    The trick here is to have the right proportion of lanes between E-
ZPASS and non-EZPASS and when volumes dictate shift lanes. And so it 
will be with RT at the airports. So far, we have been the beneficiary 
of extraordinary on the ground cooperation with TSA leaders and staff 
in Orlando, who are constantly working with our CLEAR staff to give us 
a dedicated lane when we need it and share it when we don't. And we are 
employing elaborate traffic flow models so that we can tell TSA what 
those needs are likely to be at each checkpoint at any given time of 
day when we have 15,000 CLEAR members or 30,000, or 50,000.
    So, that's the simple answer to the oft-asked question of what 
happens to RT members when the program gets so popular that their lanes 
get clogged: as with E-ZPASS you anticipate that and change the lane 
mix.
    During busy hours our lanes now do move faster because CLEAR 
members are practiced customers who ``know the drill'' of going through 
security--and because we provide our own concierge at the lanes during 
busy hours to help them with removing laptops and the like, and getting 
the bins they need to put their materials through the X-Ray.

Going Forward:
    I mentioned to you that insofar as we have customer complaints it 
is typically that they want the program at other airports.
    There's another complaint: They also want benefits that go beyond 
the significant one of having their own line and lane--and not being 
subject to second screening. Business travelers, who often make 
reservations at the last minute or change flights, are frequently 
subject to being selectees, and they do appreciate this benefit. But 
they want and deserve more.
    And if they don't get it, we can't promise to move them faster 
through their lanes--thereby providing the benefit to non-members of 
having our lanes absorb a disproportionate share of traffic. Our 
concierges help speed things, but ultimately we need more.
    Think of it as a bargain. Prospective RT members are willing to 
give up some of their time to enroll and some of their money, plus some 
of their personal information (albeit less than they give a credit card 
company) in return for moving through security lanes faster. In return, 
TSA ought to be willing to give it to them, because this allows TSA to 
remove much of the hay from the haystack.
    Fortunately, TSA seems to get it. Under Administrator Hawley, TSA 
has expressed a willingness to provide more. TSA has said in recent 
weeks in various forums that they are considering amending the Standard 
Operating Procedure at RT lanes, for example, to allow for members not 
to have to remove shoes or laptops or take off their suit jackets. 
Another change under consideration is allowing RT members to go through 
security without boarding passes, so that they can meet passengers at 
the gate or accompany them there, attend conferences in airline 
lounges, shop in these areas, or use kiosks at the gate to obtain 
boarding passes. We know many airports, including Baltimore Washington 
International Airport and Pittsburgh International Airport, would 
welcome this option.
    I should add that those changes in the operating procedure at the 
lane can only be possible where a program is successful enough to have 
enough critical mass to allow for dedicated RT lanes without making the 
other lanes and lines more congested. After all, changing the procedure 
at a lane will be hard if not impossible if the lane is not dedicated.
    Which is why pricing, privacy policies and customer service are 
important not just for us as a business but for the success of the 
program as a whole.
    It is also why imposing any extra fees from the government or 
entities designated by the government beyond their actual cost needs to 
be prevented. A program that costs too much and scares people on issues 
of privacy will not attract enough members to make these benefits 
possible.
    So, I am hopeful, especially now that TSA has had more than a month 
to study the metrics report they requested to evaluate the Orlando 
program, that we will soon hear a comprehensive plan for TSA that 
addresses these issues by implementing the risk management that has 
been so much a part of Secretary Chertoff's articulation of the 
Department of Homeland Security's urgent mission. I'm confident that 
this will happen, first, because TSA set the stage and incubated this 
new industry with its pilot projects, and, second, because I know that 
the leaders at the helm, whom I observed first hand for more than a 
year while writing my book, are forward-looking and determined to 
deliver on this kind of common sense approach.
    We are also eager to play our part in speeding up the lanes. I 
already mentioned our concierge. But on top of that we have expressed a 
willingness, indeed an eagerness, to finance cutting edge new 
technology at our lanes that could speed people through at the same or 
better security levels. For example, if a certain new technology 
allowed people to go through without taking jackets off because it 
could identify explosives as well as threatening metal objects, but if 
that equipment was too expensive for TSA to roll out at this stage, we 
might finance it. And I can report that we are in discussions with a 
variety of airport security technology leaders to propose exactly that 
kind of RT lane enhancement at various airports.
    That's what the private sector and free markets do: give incentives 
to people like us to invest in ways that give continuing, added value 
to our customers--especially when, in our case, our customers have 
annual ``subscriptions'' that we have to get them to renew every year.
    Beyond its sponsorship of the pilot projects, TSA has already done 
much to make a national Registered Traveler program happen. In the 
agreement it worked out with the Orlando Airport for a plan of 
operations it insisted on highly specific but vendor neutral technical 
standards that clearly present a blueprint for programs beyond Orlando.
    And TSA has already declared that any programs going forward must 
be interoperable with any others. That means that if someone with a 
card sold by a competitor of ours who operates a TSA-sanctioned program 
in, say, Chicago, shows up at the Orlando airport, we have to work with 
that competitor to figure out a way to recognize that card. A month ago 
I stood on a stage at the Airports Council International meeting in 
Toronto with our competitor from Unisys, which bid against us in 
Orlando. We both pledged that we would and could achieve that 
interoperability. Which we will because, just as it was in the interest 
of banks to figure out ATM interoperability, it is in our interest to 
do so. We'll also achieve it because TSA is going to require it.
    Other groups, such as the American Association of Airport 
Executives, Airports Council International, and a group that we and 
other service providers recently began to organize, called the 
Voluntary Credentialing Industry Coalition, or VCIC, are now engaged in 
nailing down these interoperability standards. As long as TSA makes us 
do it and helps us to do it by providing the technical standards and 
the framework for the rules of the road, this is not going to be 
difficult, especially with the aid and encouragement of groups like 
AAAE and ACI.
    Interoperability is not only logical and doable but is also a 
lynchpin of what the most important feature of this new industry ought 
to be: competition. If a competitor who operates an RT program at 
O'Hare Airport knows that, because all cards will be interoperable, he 
could also sell cards to travelers in Dallas where there might be a 
CLEAR program, then that person could set up shop in downtown Dallas 
and compete with CLEAR. That means we will always have to be worried 
about what I consider to be the three competitive aspects of the 
service, in this order: Privacy Protection, Pricing, and Customer 
Service.
    So how do we go forward? Well, I can tell you that if TSA mapped a 
clear blue print for benefits to RT members and then allowed airports 
or airlines (where airlines control their own terminals) to present 
proposed programs for approval, we and our competitors would likely be 
rolled out at 30 or 40 of the 50 largest airports within six months. We 
and our partner and general contractor, Lockheed Martin, have already 
begun assembling teams to do that in anticipation of a go-ahead from 
TSA. I assume our competitors have, too.
    This could ultimately mean eight to ten million frequent flyers 
enrolled in RT programs. And it would set the stage, once this critical 
mass is achieved, for this kind of credential to be recognized at other 
venues that now cannot do much about security because they have no way 
to manage risk other than searching everyone or searching no one. For 
example if a large percentage of business people in a city were 
enrolled in such a program, it might be possible for a sports arena to 
recognize the cards because twenty to forty percent of its attendees 
might have one. So it could initiate a security program to address 
those who don't have one.
    With that in mind, I know the prospect of business people not 
waiting on line for a basketball game while everyone else does presents 
images of elitism. But another way forward for these programs that we 
are working on is the ability to charge little or nothing to people who 
have already been screened by some governmental entity and provided 
their biometrics. Thus, perhaps law enforcement officers, or firemen, 
or hospital workers, or hazardous materials truck drivers could have 
that card at little or no extra cost because they are already screened.
    So what should Congress do? Well, first, Congress need not 
appropriate a dime. We believe strongly that TSA should charge us fully 
for its costs to supervise these programs and vet all applicants.
    But Congress should encourage and support TSA as it moves ahead.
    Then Congress and the executive branch ought set strict standards 
and keep a watchful eye on competition. Any rules or processes that 
inhibit competition, artificially raise costs, or threaten privacy 
should be avoided, so that costs will stay low, and critical mass, 
privacy protections and service levels will stay high.
    And then, with all respect, Congress and the executive branch 
should stand back and let us compete.
    Thank you for allowing me to appear today.
Attachments--Verified Identity Pass, Inc.

Metrics Report
    This report presents the highlights of the various metrics that the 
Transportation Security Administration (TSA) has asked the Greater 
Orlando Aviation Authority (GOAA) to have Verified Identity Pass 
collect during the first two months of the program.
    The report is based on data collected between June 22 and September 
16, 2005, and covered approximately 8,500 customers who completed an 
application for the program during that time. Enrollment began at the 
Orlando airport on June 22, 2005.
Customers began going through verification lanes on July 19, 2005.

What These Numbers Mean:
    The typical Clear Member travels once a week from the Orlando 
airport. It typically takes them about fifteen minutes to enroll on-
line and then eight more minutes to complete enrollment in person. They 
experience little or no trouble having their fingerprints and iris 
scans captured at the Clear Enrollment Center, or at the security 
checkpoints, where the clearance process of inserting their cards and 
being authenticated takes about 14 seconds from the time they are 
greeted there by Clear personnel. They are generally highly satisfied 
with the Clear product and process and Clear's customer service. And 
they are saving as much as twenty-nine minutes going through the 
security process at the Airport during the Airport's busiest times. 
Most important, they are assured of a consistently predictable 
experience going through security; their wait time has never exceeded 
four minutes and sixteen seconds and is typically just four seconds.

<bullet> Frequency of Air Travel: 3.8 trips per month

    When asked in an anonymous survey at enrollment how many times in 
the last month they had departed from the Orlando International Airport 
our members reported an average of 3.8 such trips in that prior month. 
This means they are highly frequent fliers. It also means that on any 
given day they will represent a high percentage of the travelers using 
the Airport. (Note: this metric was not gathered as part of the TSA 
request for data.)

<bullet> Average Time Spent Completing On-Line Enrollment: 14:56

    (Note: This is the time spent by an enrollee filling in basic 
person information on his or her computer before coming to the airport 
to complete in-person enrollment.)

<bullet> Average Time Spent For In-Person Enrollment: 8:31

    (Note: This is the time spent by an enrollee coming to the Airport 
and providing fingerprints, an iris scan, and his or her identification 
documents for authentication.)

<bullet> Average Success Rate for Capture of Fingerprints at In-Person 
Enrollment:
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rogers. Thank you, Mr. Brill.
    The chair now recognizes the gentleman from homeland 
security at Unisys, Mr. Lawrence Zmuda, for his statement.

                  STATEMENT OF LAWRENCE ZMUDA

    Mr. Zmuda. Thank you, Chairman Lungren and distinguished 
members of the subcommittee. Thank you for the opportunity to 
testimony today.
    My name is Larry Zmuda, and I am a partner at Unisys. I am 
proud to have led Unisys in its participation in the Registered 
Traveler pilot program sponsored by TSA.
    In the spring of 2004, TSA competitively awarded to Unisys 
the contract for the Registered Traveler program. During the 
operation of those pilots, here is what we have found.
    First, working with Northwest Airlines in Minneapolis, 
United Airlines in Los Angeles, and Continental Airlines in 
Houston, we saw first-hand how the airlines embraced this 
program.
    Second, and perhaps more significantly, we were overwhelmed 
by the traveling public's support of programs to expedite the 
airport security checkpoint. Travelers voluntarily lined up and 
provided biographical information and biometric data, their 
fingerprints and iris scans.
    The results of the program demonstrate three important 
benefits, including efficiency and convenience for air 
travelers. Wait times could be calculated in seconds rather 
than minutes. Enhanced security, TSA's screeners could focus 
their attention on unknown travelers, rather than travelers who 
had undergone background checks.
    And third, effective technologies. The use of dual 
biometrics and smart cards produced the successful verification 
rate of greater than 99 percent.
    Finally, the airport community has been equally 
enthusiastic. To date, more than 50 airports have pledged their 
support to the Registered Traveler Interoperability Consortium 
that Mr. Barclay and AAAE are spearheading. They see the 
benefits their customers are receiving and realize it is 
another way to improve their business.
    While the benefits of the Registered Traveler program are 
apparent, successful expansion of this program through the 
entire country would require the participation of the private 
sector, especially in the area such as upfront capital 
assessment.
    Successful implementation will require several millions of 
dollars worth of upfront capital investment at each airport. 
This includes the costs of developing, testing, marketing and 
deploying necessary technology and business operations.
    Interoperability. One key feature for the traveling public 
is nationwide interoperability, being able to use a card in 
airports across the country. Just as one can use ATMs at 
competitors' banks, the same must be true in this case with 
airports.
    By permitting multiple companies to participate, Registered 
Traveler will reap the benefits of competition. And the best 
solutions will be brought to the public. The private sector 
must help determine these standards and make them uniform and 
public so that all can benefit.
    Subject matter expertise. The private sector has an 
abundance of subject matter experts who can assist in 
determining standards that will streamline today's capabilities 
and that also will examine and predict the program's future.
    And finally, data privacy and assurance. We understand that 
privacy of personal data is critical. The private sector must 
not and cannot own the data of those enrolling in the program, 
but we must ensure that it is safe and secure while it is in 
our possession.
    Certainly, the Congress and the TSA must retain their 
historic role in maintaining passenger security and privacy. I 
hope that TSA embraces this opportunity to leverage the private 
sector, for the benefit of the traveling public, our airports, 
the airlines, and TSA itself.
    In a competitive environment, the private sector can 
facilitate the expansion of the Registered Traveler program, 
helping to bring the best solutions and utilize the most 
effective technology in the most cost-efficient manner.
    Thank you again for the opportunity to testimony. Unisys 
looks forward to assisting the government agencies and 
lawmakers, as you continue your work in securing America's air 
travel.
    [The statement of Mr. Zmuda follows:]

                Prepared Statement of Lawrence J. Zmuda

    The Role of the Private Sector in the Rollout of the Registered 
Traveler Program
    Chairman Lungren and distinguished members of the subcommittee, 
thank you for the opportunity to testify today before this subcommittee 
about the role of the private sector in the Registered Traveler 
program. My name is Larry Zmuda and I am a partner at Unisys U.S. 
Federal Government Group. I am proud to have led Unisys in its 
participation in three of the five TSA-sponsored Registered Traveler 
pilots.
    Unisys supports many of the initiatives that are critical to 
securing this nation in the post-Sept.11 era. We have worked on 
securing cargo entering the country, identifying non-visa immigrants as 
they leave the country in the US-VISIT program, and, via the Registered 
Traveler program, have helped frequent travelers gain an expedited and 
predictable experience as they proceed through the security checkpoint. 
Because of Unisys participation in these programs, we understand and 
appreciate the balance required to ensure secure travel within our 
borders without impeding commerce.
    In the spring of 2004, TSA competitively awarded to Unisys the 
contract for the Registered Traveler program. Five days after award, we 
began enrolling travelers.
    We worked with Northwest Airlines in Minneapolis/St. Paul, United 
Airlines in Los Angeles, and Continental Airlines in Houston. We saw 
first hand how the airlines embraced this program and, more 
importantly, how the traveling public willingly provided biographical 
information and biometric data--their fingerprints and an iris scan--to 
expedite their security checkpoint experience. During the operation of 
these pilots, Unisys was in a unique position to understand the 
technology and its impact on the various stakeholders: TSA, the 
airports, the airlines, and, most importantly, the traveling public.
    We were overwhelmed by the number of travelers voluntarily lining 
up to register for this program. In Minneapolis, we enrolled almost 
2,500 people in one week and had demand for more. For the pilots, 
though, TSA placed a cap on enrollments. All of the pilots, including 
the one in Orlando, have an enrollment limit. Notwithstanding this 
limit, the pilots that Unisys led provided some valuable metrics that 
validated this program. Enrollment and verification were quick and 
efficient. Travelers enrolled in less than 10 minutes and wait time at 
checkpoints could be calculated in seconds rather than minutes.
    The pilots also showed how dual biometrics--in this case, 
fingerprints and iris scans--were critical in providing this service. 
Success rates were greater than 99 percent when dual biometrics were 
employed for identification. Additionally, the pilots tested smart card 
technology. Smart cards enhance security and capacity of the system. 
They?re also more cost-effective in a nationwide program.
    The demand to continue and expand this program is unmistakable. 
Initial feedback from participants in these first pilot programs was 
consistent. ``When are you going to expand this to other airports 
around the country?'' was the common cry in e-mails and discussions we 
had with them. In addition to the traveling public, the airport 
community has been equally enthusiastic.
    To date, more than 50 airports have pledged their support to the 
Registered Traveler Interoperability Consortium (RTIC) that Mr. Barclay 
and the AAAE are spearheading. The airports see the benefits their 
customers are receiving and realize it is another way to improve their 
business.
    The benefits extend not only to the participating airports, but to 
the economy as well as the traveling public for faster security 
processing.Sec. nce they've moved quickly through the security 
checkpoint, the travelers have more time to do work, shop at the 
stores, dine in the restaurants. This economic trickle-down effect is 
beneficial for local and national economies.
    From a security perspective, improved process flow at the airports 
not only lessens the burden of the traveler, but of TSA. Because the 
registered travelers are known quantities, screeners can concentrate 
more attention on those travelers not known to them.
    However, the airports and the TSA cannot perform all the 
requirements necessary to expand this program throughout the country. 
As with the five pilots, the private sector plays an important and 
critical role in the future of Registered Traveler to expand quickly 
and smartly across the nation.
    Companies such as Unisys must be the driving force in the following 
areas:
        <bullet> Capital investment
        <bullet> Technology development
        <bullet> Subject matter expertise
        <bullet> Data privacy assurance
    Financing for this program ultimately will come from those deriving 
the benefit, the traveling public. However, prior to taking a single 
fingerprint or iris scan and, therefore, one fee payment, significant 
capital investments must be made. All of the features of the program 
must be ready on day one. The solution must be built, tested and 
deployed. It is important to note that TSA always envisioned that 
Registered Traveler would be fully funded by fees and, therefore, not 
dependent upon Congress for funding.
    The personnel who will enroll and aid the travelers at the 
checkpoints must be trained and paid. Work with communications and 
marketing firms regarding ways to reach the potential customers must 
begin. The business and operational processes must be in place to 
ensure smooth operations. All of these components combine to give 
people confidence that this is a program that will provide benefits 
without compromising security.
    Several millions of investment dollars per airport are required to 
provide these capabilities. This is where the private sector can 
participate. Companies like Unisys understand all of the fiscal 
components and potential risks to smartly provide the capital 
investment required to launch this program. These are areas of 
expertise resident in the private sector; the government shouldn't be 
required to execute marketing or provide the latest biometric 
technologies. The federal government must devote its limited resources 
to providing security for all transportation modes.
    Registered Traveler must allow multiple companies to participate. 
Competition will bring the best solutions and programs to the public. 
But competition must not bring with it solutions that do not work 
together. The technology that is developed and deployed at one airport 
must be interoperable with other Registered Traveler systems at other 
airports. This is the way to create a nationwide system.
    The true benefit to the traveling public is interoperability--being 
able to use a card in airports across the country. Just as one can use 
ATMs at competitor's banks, the same must be true with airports. A 
registered traveler card issued by company X at airport Y must be able 
to work at another airport. The private sector must determine these 
standards and make them uniform--and public--so that all can benefit.
    The private sector has an abundant supply of subject matter experts 
who can assist in determining standards that will streamline today's 
capabilities and that also will examine and predicts the future of the 
program. We must ensure that the technology is scalable and built in an 
open framework to handle the increasing volume should the program grow 
to the potential we are all anticipating.
    This open architecture must be flexible enough to mesh with other 
federal programs and DHS initiatives, such as U.S.-VISIT, and 
potentially international programs looking to integrate with the United 
States. It would be untenable for programs not be interoperable after 
millions of dollars have been invested in them. Further, the technology 
must be accepting of new technology vendors as they enter the market. 
With many of the patents iris vendors hold about to expire,, this could 
be critical in enabling all providers capable of participating in the 
program.
    The private sector also can be the test bed for the latest 
technology. The program presently utilizes fingerprints and iris scans 
as the biometric verifiers. Technology must constantly stay ahead of 
the game to ensure the program remains secure. Radio frequency 
identification--RFID--capability and facial recognition are just two 
technologies that are gaining acceptance and could play a major role in 
near-future verification. The expertise resident in the private sector 
would help minimize risks associated with deploying new technology in a 
program that revolves around security.
    Finally, the public is very concerned about providing sensitive 
personal data. Supporting that concern are an untold number of database 
hacking instances over the past year. The private sector must not and 
cannot own the data of those enrolling in the program, but we must 
ensure that it is safe and secure while it is in our possession. Every 
component of the solution that can accept personal data such as credit 
card numbers and addresses must be thoroughly secure. As the data 
necessary to perform the background checks is transmitted to TSA, 
encryption must be employed to prevent outside parties from gaining 
access to and tampering with the data. No one--neither the government 
nor the private sector--wants to be part of the public outcry that 
would ensue from such a situation.
    My hope is that TSA embraces this opportunity to work with the 
private sector. TSA, along with Congress, must always weigh in should 
passenger security or privacy be compromised. In a competitive 
environment, companies like Unisys can facilitate the expansion of a 
Registered Traveler program, bringing the best solutions and utilizing 
the most effective technology in the most cost-efficient manner.
    Thank you again for the opportunity to testify before you today. 
Unisys looks forward to assisting government agencies and lawmakers as 
they continue down a path where security is at the forefront of many of 
its decisions. I am happy to answer any questions you might have.

    Mr. Rogers. Thank you for your statement, Mr. Zmuda.
    The chair now recognizes Mr. Marc Rotenberg, Executive 
Director of the Electronic Privacy Infrastructure Center, for 
his statement.
    The floor is yours.

                  STATEMENT OF MARC ROTENBERG

    Mr. Rotenberg. Thank you very much, Mr. Chairman, members 
of the committee. I appreciate the opportunity to participate 
in the hearing today and also the attention that you are giving 
to the privacy issue.
    As you know, this has been a critical concern in previous 
programs involving airline passenger screening. And we think it 
will be a critical issue to evaluate Registered Traveler.
    Since your last hearing was held, EPIC obtained documents 
under the Federal Freedom of Information Act which revealed a 
series of errors on the watch list. These are documents that 
were provided to us by the TSA.
    We have over 100 instances which show circumstances where 
people were placed on the watch list. They believe, of course, 
that those determinations were made in error.
    The problem here is that that information is the basis for 
the Registered Traveler program. And although Mr. Hawley 
described a redress procedure earlier, it is not clear how that 
redress procedure will fix the problems for travelers who are 
pulled aside and told that they are placed on the watch list.
    Now, part of the reason that this happens, we believe, is 
because the type of privacy protections that apply to other 
information held by the federal government do not apply when we 
are talking about programs like Registered Traveler. You do not 
have the right to get access to the information or to challenge 
a determination that has placed you on a watch list.
    Now, let's think about this in very practical terms. We 
have privacy laws in the private sector, for example, that 
require, when you apply for a car loan or a home mortgage, if 
the financial institution turns you down, you are shown the 
basis for that determination.
    And not surprisingly, a lot of times people are turned down 
for loans because of inaccurate information, because names are 
confused, because information is outdated.
    The key point here I would like to make is that privacy is 
not simply about limiting who has access to information. It is 
about ensuring accuracy and accountability. And the reason that 
privacy laws typically give people the ability to inspect the 
information about them when a decision is made about them is to 
ensure that an accurate decision is made.
    Now, you are proceeding with a program right now where 
determinations will be made about people. And they will be 
turned down. And they will not be given the opportunity to 
challenge that determination.
    You may assume that it will not be so difficult for members 
of Congress to be cleared for Registered Traveler approval, but 
I suspect that many of your constituents are going to run into 
a lot of trouble and a lot of frustration.
    There is a third point I would like to make, as well, and 
that is that there is clearly a risk with this program, 
particularly if it is pursued in the private sector, for 
mission creep. Now, as you know, this has also been an issue 
with the passenger screening programs.
    There is no dispute about the need to keep terrorists and, 
you know, anybody who intends harm against the United States or 
air travel safety off planes, no dispute whatsoever.
    But, of course, as the data has been collected on air 
travelers, a whole range of other applications have been 
considered, wanted fugitives, criminal offenders, outstanding 
warrants, misdemeanors. The list became quite long. And it was 
the length of the list, in part, which led to the demise of the 
CAPPS II program.
    We agree with the current focus of the TSA, which is to 
keep those people who are considered to be terrorists off 
planes. The question is: How far will this program go if, as 
Mr. Brill proposes, it is used for other applications, access 
to sports stadiums, access to federal office buildings, access 
to apartment buildings in midtown Manhattan?
    The type of threat assessment in those scenarios is very 
different, frankly, from the type of threat assessment that the 
TSA might make, regarding whether a person should board a 
commercial airline in the United States.
    So we think three things should happen before the program 
goes forward. First, there has to be a means to fix the watch 
list. You simply cannot rely on data that is going to have 
errors in it and that is going to wrongly place American 
citizens, essentially, on a blacklist, where they will be 
stigmatized and prevented from boarding planes.
    Second, we think something like the Privacy Act needs to 
apply, not only to this records system, but certainly to any 
similar records system that might be operated in the private 
sector. And if Mr. Brill's program goes forward, or the Unisys 
program goes forward, there have to be legal restrictions on 
how that data is used.
    And finally, we urge you--urge you--to limit the use of 
this data for the determination about who boards an airline in 
the United States. This should not become an open-ended program 
of trying to decide who belongs on a list of favorite Americans 
and who ends up on a list of disfavored Americans.
    I do not think that was ever the intent, but oftentimes 
these programs evolve. And now is the opportunity to make clear 
what the endpoint will be.
    So thank you for giving me this opportunity.
    [The information follows:]

                  Prepared Statement of Marc Rotenberg

    Mr. Chairman, Members of the Committee, thank you for the 
opportunity to appear before you today. My name is Marc Rotenberg and I 
am Executive Director and President of the Electronic Privacy 
Information Center in Washington, DC. EPIC is a non-partisan public 
interest research organization established in 1994 to focus public 
attention on emerging civil liberties issues. We are very pleased that 
the Committee is examining the privacy implications of the Registered 
Traveler program. I ask that my complete statement, EPIC's recent 
report on Registered Traveler, and our one-page summary of the ongoing 
problems with watch list errors be entered into the hearing record.\1\
---------------------------------------------------------------------------
    \1\ EPIC, Spotlight on Surveillance: Registered Traveler: A 
Privatized Passenger ID (October 2005), available at http://
www.epic.org/privacy/surveillance/spotlight/1005/default.html

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    In my statement today, I wish to call attention to three particular 
problems with the Registered Traveler program. First, the security 
watch lists on which the system is based are filled with inaccurate 
data. Documents obtained by EPIC under the Freedom of Information Act 
reveal that travelers continue to struggle with watch list errors.\2\
---------------------------------------------------------------------------
    \2\ EPIC FOIA Notes, ``Travelers Continue to Struggle with Watch 
list Errors,'' No. 8 (Sept. 27, 2005) available at http://www.epic.org/
foia_notes/note8.html
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    A second flaw in the program exacerbates this problem--the 
databases in the system are currently not subject to the full 
safeguards of the Privacy Act of 1974, as the TSA has sought wide-
ranging exemptions for the record system and private companies are not 
generally subject to the Privacy Act. As a result, the legal safeguards 
that help ensure accuracy and accountability are simply missing from 
this system.
    Third, the Registered Traveler program, if operated in the private 
sector, will become a textbook example of ``mission creep''--the 
databases of personal information will be used for purposes other than 
aviation security.\3\ We already know that the Computer Assisted 
Passenger Prescreening System 2 (``CAPPS 2''), the precursor to 
Registered Traveler, was to be used for purposes unrelated to terrorist 
screening. Because of this, Congress rightly chose to end the 
program.\4\ This danger is even more ``clear'' with the Registered 
Traveler program, now under consideration by the Committee.
---------------------------------------------------------------------------
    \3\ Systems designed to protect the country from terrorist acts are 
increasingly being used for many other purposes. Barry Newman, ``New 
Dragnet: How Tools of War on Terror Ensnare Wanted Citizens: Border 
Immigration Officials Tap Into FBI Databases; Questions About 
Privacy,'' Wall Street J., Oct. 31, 2005, at A1.
    \4\ Matthew Wald & John Schwartz, ``Screening Plans Went Beyond 
Terrorism: Air security program sank after it grew to include other 
needs,'' N.Y. Times, Sept. 19, 2004, at A25.
---------------------------------------------------------------------------
    Last month, the federal government ended the test program for 
Registered Traveler.\5\ Before the program goes forward, at least these 
three issues should be addressed.
---------------------------------------------------------------------------
    \5\ Sara Kehaulani Goo, ``Registered Traveler Test is Ending 
Inconclusively: Airport Security Scheme Lacks Broad Support,'' Wash. 
Post, Sept. 27 at A15.

TSA's Watch List Errors
    The Registered Traveler system is based on the TSA's existing 
system of passenger screening lists. These same lists have been a 
constant source of errors and inaccuracies that inappropriately detain 
travelers, subject them to unnecessary searches, and sometimes prevent 
them from flying.
    Senators Ted Kennedy and Don Young, for instance, have both been 
improperly placed on security watch lists. In hearings before this 
Subcommittee in March, Ranking Member Sanchez noted that many of her 
constituents had experienced unwarranted delays, questioning, and 
sometimes even the inability to fly, due to their names being 
mistakenly placed on screening lists.
    Hundreds of other passengers have experienced the same or similar 
problems. Documents received by EPIC through the Freedom of Information 
Act revealed that, in the period from November 2003 to May 2004, over a 
hundred individuals complained of being placed on the lists in error.
    Nor is removal from the watchlists a simple matter. Senator Kennedy 
was only able to correct this error after appealing directly to then-
Homeland Security Secretary Tom Ridge. The vast majority of people 
affected by watchlist errors, needless to say, do not have this option. 
Instead, they face an opaque and arbitrary bureaucratic process, where 
they are never told the reasons for their being placed on the lists, 
and therefore have little idea how to correct false information about 
themselves or distinguish themselves from a suspect with a similar 
name.\6\
---------------------------------------------------------------------------
    \6\ The issue of redress procedures was considered in a 2004 report 
on Registered Traveler, but never resolved. Transportation Security 
Administration, Registered Traveler Pilot: Privacy Impact Assessment 6 
(June 24, 2004).
---------------------------------------------------------------------------
    The provisions surrounding Registered Traveler databases are no 
better. Although Verified ID claims that ``members'' of the program 
will be provided with the identification information in the private 
database, the most pertinent information will not be revealed to those 
people who provide information to the Registered Traveler system.\7\
---------------------------------------------------------------------------
    \7\ Clear Registered Traveler at http://flyclear.com/
---------------------------------------------------------------------------
    For instance, if an applicant is denied membership, or if a 
member's status on the watch lists changes, the individual is never 
told why he has been deemed a potential security risk. Furthermore, 
applicants who have supplied sensitive personal information to the 
program are not assured of access to the information that the system 
has on them, and therefore have no way of ensuring either the accuracy 
or the security of their data.

Lack of Privacy Act Safeguards
    These problems are all the more serious because the Registered 
Traveler system is not subject to most of the critical privacy 
safeguards required by the Privacy Act of 1974. Congress passed the 
Privacy Act in response to concerns that the rapid growth of government 
databases could have negative effects on the personal privacy and civil 
rights of citizens. After intensive study, extensive hearings, and 
careful consideration, Congress adopted the Privacy, Act, which 
requires government agencies to limit the collection, sharing, and use 
of individuals' personal information. The Act also requires that 
agencies give individuals the right to access, and correct, information 
that the government collects about them.
    For all practical purposes, the Registered Traveler Program 
withholds these rights from individuals. In this case, we have two 
separate databases, each of which sidesteps Privacy Act 
responsibilities.
    In the case of a private partner, the data collected from 
passengers is stored in a separate, private database. As a private 
entity, the partner is not covered by any of the requirements of the 
Privacy Act. When TSA says that its contractors must abide by the 
Privacy Act, this is only with regard to the information flowing from 
the TSA to the contractor, not for this separate, private database of 
personal information collected and kept by the private company. Thus, 
the only guarantee of privacy that passengers have comes from the 
company's own broad assurances.
    In removing Privacy Act safeguards from the private-sector 
database, applicants are not only denied the ability to access and 
correct records, they also are subject to the sharing of their personal 
information. The data collected from applicants includes some of the 
most sensitive information that one can collect about a person: Social 
Security numbers, fingerprint and iris scans, photographic 
reproductions of drivers licenses, passports, and birth certificates. 
This information requires limits on its use and sharing mandated by 
law. Registered Traveler evades this responsibility by having 
passengers initially submit data to private partners.
    The privacy policy of Verified ID states that data is shared only 
with the TSA, and no other agencies. Yet a look at the Privacy Act 
notice by the TSA quickly reveals that TSA is prepared to share 
passengers' personal information with a wide array of other agencies, 
whether federal, state, local, international, or foreign. The standards 
for this sharing are alarmingly low--the TSA must be aware only of an 
indication of a potential violation of civil or criminal laws or 
regulations.
    The TSA's own database, which does fall under the scope of the 
Privacy Act, does little more than give a cursory nod to its 
requirements. TSA has exempted itself from the Privacy Act's 
requirements for accounting for disclosures, access to records, and 
even the requirement that the information in the database be necessary 
and relevant.
    By exempting Registered Traveler from the access to records 
requirements, TSA prevents users from requesting any information that 
the TSA may be keeping on them. As I have already noted, this access 
requirement is crucial in any system that is to respect the rights of 
individuals. Without meaningful access to the files kept on them, 
individuals have no recourse if inaccurate, incomplete, or fraudulent 
information about them is kept in the system. A person with a faulty 
file will not only lack the opportunity to correct it, she will never 
learn that it is faulty in the first place, and be unable to clear her 
name.
    It is significant that the Department of Homeland Security Data 
Privacy and Integrity Advisory Committee recently prepared a report on 
the use of commercial data for passenger screening and recommended 
strict limitations on the use of commercial data for passenger 
screening.\8\ As the Committee noted, ``False positives can create 
adverse consequences for misidentified individuals, ranging from 
missing a flight to being denied a security clearance or a job.'' \9\
---------------------------------------------------------------------------
    \8\ Report of the Department of Homeland Security Data Privacy and 
Integrity Advisory Committee, The Use of Commercial Data to Reduce 
False Positives in Screening Programs (Sept. 28, 2005).
    \9\ Id. at 2.
---------------------------------------------------------------------------
    There is also ample precedent for imposing privacy obligations on 
the private sector. Consider determinations that are made by banks and 
other financial institutions about a consumer who seeks a home loan. If 
a loan application is denied, the consumer is entitled to know the 
basis for the decision. The reason, not surprisingly, is that mistakes 
are made, names are confused, incorrect data is used, information is 
transposed, unsubstantiated allegations are left unchallenged.
    A watch list system is necessarily open to such abuse and any 
benefits that might result must be weighed against the very real harms 
to innocent individuals. A privatized watch list system opens the door 
to the routine stigmatization of a large percentage of the American 
public with no effective means of redress.

``Mission Creep''
    The breadth and scope of the information to be kept in the 
Registered Traveler data base leads to another significant concern--
that this program will begin to accumulate other uses for which it was 
not originally approved or intended. Such ``mission creep'' leads to 
further privacy risks.
    Mr. Brill has suggested that his identification component of the 
program be used not only in airports, but also as a means to control 
access to sports arenas, power plants, and even office buildings. Just 
this week Mr. Brill announced that his company had entered into 
agreements with Hertz, the rental car industry leader, and Cendent, an 
Internet management travel company.\10\
---------------------------------------------------------------------------
    \10\ Verified Identity Pass, Inc., ``Press Release,'' (Nov. 1, 
2005) available at http://www.verifiedidpass.com/news_pr_110105.html
---------------------------------------------------------------------------
    Should those who rent cars or book air travel on the Internet be 
concerned that if they do not first get Mr. Brill's gold star, they may 
soon face higher prices for travel or additional questions from the 
rental company? And what about people who travel infrequently, or whose 
personal information may be more difficult to verify? Database errors 
also tend to fall disproportionately on minority communities and those 
whose names are easily misspelled or mispronounced.
    The TSA has indicated that it will combine Registered Traveler with 
at least six other databases under the office of Screening Coordination 
and Operations. The agency has not specified how it intends to protect 
privacy rights in this amalgam of databases. If a person provides 
personal information to an agency for a specific purpose, he generally 
expects the agency to limit its use of the information to that purpose.
    The risks of mission creep are not theoretical. The TSA has itself 
suffered from this problem, as indicated by its misuse of passenger 
data in the CAPPS II program. TSA documents obtained by EPIC under the 
Freedom of information Act clearly showed that TSA has considered using 
information gathered for the CAPPS II program for reasons beyond its 
original purposes. For example, TSA stated that CAPPS II personal data 
might be disclosed to federal, state, local foreign, or international 
agencies for their investigations of statute, rule, regulation, or 
order violations. Congress rightly put an end to that program.\11\
---------------------------------------------------------------------------
    \11\ Former Secretary of Homeland Security Tom Ridge acknowledged 
that the CAPPS 2 program was ``dead'' in mid-2004. Ryan Singel, 
``Passenger Screening System Dead,'' Wired (July 15, 2004), available 
at http://www.wired.com/news/privacy/0,1848,64227,00.html.
---------------------------------------------------------------------------
    But at least that program was limited to law enforcement conduct. 
There appear to be no ``clear'' limits to Registered Traveler.

Recommendations
    The privacy of individuals in the United States is a fundamental 
right that should not be sacrificed for mere convenience. In protecting 
these rights, I urge you to consider the following:
    1. The TSA watch lists have widespread problems, flagging as 
security risks a minimum of hundreds of passengers who pose no threat. 
A system based around these watch lists and integrated with other 
systems of records will only exacerbate the problems that have been 
well documented.
    2. The Privacy Act creates critical and necessary safeguards not 
simply to protect privacy, but also to ensure accuracy and 
accountability. Any government-approved security system that keeps 
personal information on individuals should meet the Privacy Act 
requirements for necessity, relevance, and openness, including 
individual access and correction. It should be made clear that these 
requirements apply whether the information originates with the agency 
or with information provided by the individual. It should also not be 
subject to broad exceptions like those the TSA has set forth in its 
notices.
    3. There are real risks in a database accumulating unintended uses 
with unforeseen consequences. The end result is often an unwieldy tool 
that performs poorly, operates inefficiently, and violates privacy. I 
urge you to mandate any system designed for aviation security be 
restricted to that purpose, and not become a system for tracking 
individuals or controlling their ability to travel in going about their 
daily business.
    Congress was wise to discontinue the Registered Traveler program 
last month. The program should not go forward until these problems are 
resolved.
    Thank you for the opportunity to appear here today. I will be 
pleased to answer your questions.

    Mr. Rogers. I thank all of you for your statements. Those 
were very thought-provoking.
    And we will start now with the chairman of the subcommittee 
for any questions that he may have.
    Mr. Lungren. Thank you very much.
    Mr. Barclay, there is some discussion about the 
clearinghouse in questions asked of Mr. Hawley. And very, very 
quickly, as I understand, the clearinghouse is merely a 
mechanism which takes the information that you would get from a 
private vendor and basically bundles it up to send it to the 
government agency that does the background check, and then you 
receive the information back and distribute it to the private 
vendors.
    Is that correct?
    Mr. Barclay. Correct.
    Mr. Lungren. And the price that you charge for that is 
what?
    Mr. Barclay. Well, the price currently for the employee 
checks, which do not have--it is just one way going in--
    Mr. Lungren. Right.
    Mr. Barclay. --is $7. And that includes the fees for the 
basic background vetting, that was started with just a criminal 
history record check. And then there was added a number of 
other checks, including what was ONRA at the time.
    And some other services were added, as time went on, to 
take it from $4 to $7. And that is for the fee that relates to 
the $29 currently--for criminal history record checks of 
employees.
    The passenger checks--we have been told, again, that this 
is a clearinghouse that is in a nonprofit, that is owned by 
airports, and airports are the customers and the owners. So 
they are watching. And they have told this organization to be 
cost-based.
    So, over time, those fees probably go down. Well, they will 
go down with volume. The issue there is not a per-fee cost. It 
is what is the volume and what are the costs of doing--
    Mr. Lungren. What limitation, other than your good graces, 
is there on setting a higher fee?
    Mr. Barclay. The fact that the customers and the owners are 
the same people and their public agencies, trying to just get a 
cost-based process.
    Mr. Lungren. But your true customer in this would be the 
passenger. And the passenger would purchase this right, or 
purchase this card, through a private vendor. The private 
vendor would have to go through you.
    If you are the exclusive mechanism by which they can go 
through this, what--I mean, I think this is the concern some 
people have--What limits do we have on you?
    Mr. Barclay. The airports are going to be putting out bids 
to collect them from the private vendors, which will include, 
what will the price be at each airport? So that is part of the 
cost-based analysis.
    I mean, there is no incentive for a nonprofit organization 
who are the customers, who are the airports that are going to 
be deciding what the fee is that goes to the clearinghouse, and 
they are the owners. There is a great deal of transparency 
here.
    So there is just no incentive to charge more than what it 
costs--
    Mr. Dicks. Would the chairman yield just for a point?
    Mr. Lungren. I will be happy to. I have to go back down to 
cast another vote, so I will happily yield my time to the 
gentleman. But I will be back.
    Mr. Dicks. Wouldn't there also be--there would be an 
elastic curve here. I mean, hike the fee up too high, people 
are not going to sign up.
    Mr. Barclay. Well, as Mr. Brill said, the fee--if you have 
different fees at different airports, as a result of the 
bidding process, that is going to help keep the fee down, 
because you know, in Dallas, putting out your plan is competing 
with folks who can sign up in Boston while they are up there, 
if it is a lot cheaper.
    So there is going to be a regulating effect. But the job of 
the clearinghouse specifically is exactly the same as it is for 
employees.
    We have already done, again, 1.8 million record checks. It 
is working very smoothly. Our fees are much lower than they are 
for truckers and others in the business.
    So I would argue there is no evidence that there is an 
incentive there. And the structure does not have an incentive.
    Mr. Rogers. The chair now recognizes the ranking member of 
the full committee, Mr. Thompson, for any questions he may 
have.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Just to elaborate a little more with Mr. Barclay on that, 
you have testified that the clearinghouse process is cost-
based.
    Mr. Barclay. Yes, sir.
    Mr. Thompson. And I am assuming that, because of that, 
there is no profit associated with what you do?
    Mr. Barclay. Right. We go for fully allocated costs for 
what we do, and that is true of the current process for 
employees. And we have been told by our owners, the airports, 
to make it true for any future process, such as Registered 
Traveler.
    Mr. Thompson. Okay. And I guess the part of the question 
is, how do you see us keeping the Registered Traveler program a 
security program and not a perks program?
    Because we have heard testimony in the past that?or 
business people will jump at something like this, and I think 
the effort that I hear the committee talks about, we want to 
make sure the traveling public is secure and not that they can 
pick up another card and travel through the airport.
    Mr. Barclay. No, and that is what everyone is struggling 
with a little bit. You have got a program that has to have 
elements of the private industry for marketing and other 
services that need to be provided, local government in airports 
that are there.
    And airports have the same incentives as the federal 
government. They want this program to be both a security 
program and a convenience program.
    And then the federal government that is focused primarily 
on the security aspect of this, because it is TSA doing it. And 
you have got to come up with a plan that merges all those 
different incentives.
    I think the thing you key on for security, again, is what I 
said in my testimony, that you have a very small number of 
people who are traveling for a living, getting on and off 
airports constantly. If you can know a lot about them--they 
make up such a high percentage of the travelers--you can apply 
a lot more of your limited resources on the people you do not 
know anything about.
    That helps both lines. The Registered Traveler line will 
move real fast. The other line will move faster because you do 
not have those registered travelers in it who are making up a 
large percentage of the passengers.
    Mr. Thompson. Thank you.
    Mr. Brill, you provided an explanation of wait time 
associated with Orlando Airport. Can you tell me, on an 
average, how many passengers go through the Orlando Airport on 
a daily basis?
    Mr. Brill. The number of all passengers or our passengers?
    Mr. Thompson. All passengers.
    Mr. Brill. I just do not know that.
    Mr. Thompson. Well, I guess it would help us make a real 
objective analysis of--
    Mr. Brill. We can provide that for you. I am about to guess 
at an annual number, and I am going to get into trouble, so I 
will not.
    Mr. Thompson. Well, let me give you an example. You say 
that non-Registered Traveler people wait time is 31 minutes. 
Under your program, it is three minutes, with an average of 4 
seconds?
    Mr. Brill. I do not want to get into trouble with my 
friends at the airport. In the days that we have observed since 
we have been there, the maximum wait time--and it has happened 
a lot--during the busy hours has been as much as 31 minutes.
    I do not want to generalize, because I know we do not say 
that that is the average wait time. But there is a dramatic 
difference, yes.
    Mr. Thompson. We need to be able to put some numbers to 
what you shared with us, because you say your average 
Registered Traveler traveling is 165 individuals a day.
    Mr. Brill. That is right. That is for the first 45 days of 
the program. That number--and I think there is a footnote 
there; I do not have it in front of me--is going up everyday.
    That is when we had 3,000 or 4,000 members. We now have 
10,000. I was in Orlando on Tuesday morning. And I think we had 
350 people go through by 10, 10:30 in the morning, through 
our--
    Mr. Thompson. Well, what I am trying to get at is, that 165 
per day you gave us if of how many people who travel in day. Is 
that of 20,000 who went through the airport, 30,000, or 
whatever?
    Mr. Brill. We will give you that, but I will tell you it is 
not reflective of the program. What TSA asked us to do was take 
very specific--not a survey, but person by person, second by 
second metrics for the first 45 days or 6 weeks of the program.
    So the average there is sort of halfway through from when 
we had nobody going through, because it was the first day of 
the program, to the 45th day.
    Mr. Thompson. Well, would it be too much of a bother for 
you to update this--
    Mr. Brill. No, it is not a bother at all. We continue to do 
it. And we will give you more detail on the piece of paper you 
have in front of you, but also an update on that.
    Mr. Thompson. That would also give us the passenger 
numbers, which we can obviously get, but in terms of what you 
are comparing it to?
    Mr. Brill. Right. One of the things we are doing, I should 
add, is we are engaged with various consulting firms that do 
airport modeling, so that we will know that, when we have 
20,000 members in Orlando, or 40,000, and it is 8 o'clock in 
the morning on Tuesday, how many lanes we need to have versus 
how many lanes the non-R.T. customers need to have.
    We are doing an elaborate matrix of that. And, you know, we 
can give you some of that detail, too.
    Mr. Thompson. One other question, Mr. Chairman.
    Mr. Rotenberg, given what you have shared, the ease of 
acquiring certain information that probably should not be 
available, have you offered any suggestion, or can you offer us 
some suggestions as to, from a privacy standpoint, how we could 
fix this?
    Mr. Rotenberg. Well, certainly, sir. If the private sector 
is performing a public function, which is passenger screening, 
then I think those organizations should be subject to the same 
laws that federal agencies would be subject to, to protect 
privacy.
    And the Federal Privacy Act is actually a very good law. We 
have said over the years that, as long as the agencies follow 
that law, that will do well to protect privacy in the United 
States.
    Where we run into trouble is where government functions go 
to the private sector or where a government agency says that 
they want to exempt themselves from some of those obligations. 
But the framework is very good, and I would simply suggest to 
apply it here.
    Mr. Thompson. Thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentleman.
    Mr. Rotenberg, I want to go back to your three goals that 
you described a little while ago, and I fully agree with the 
second one.
    The third one I do not fully understand. I would like for 
you to revisit that and talk more about your concerns over an 
endgame. Flesh that out for me, if you would.
    Mr. Rotenberg. Well, sir, obviously our concern with this 
program, as with many of the post-9/11 security programs, is 
that they seem to develop a life of their own.
    As I said during my statement, there is no disagreement 
about the need to protect the country and to identify terrorist 
threats. But, of course, a lot of times an agency obtains data 
and finds that it has other uses. And there is a tendency for 
data to chase applications.
    Now, I am not surprised by Mr. Brill's proposal. If I was 
in his situation, I might very well be doing the same thing. He 
is developing a service that can identify, based on watch list 
data, who is safe to fly in the United States.
    Office buildings in Washington would like to know who is 
safe to enter those buildings. Theme parks in the United States 
are making decisions about whether they need to know more about 
the families that go there.
    But you can see very quickly where this is going to end up. 
And I could imagine a scenario not too many years out where a 
person applying for a job, trying to get into that office 
building in midtown Manhattan, does not happen to have one of 
Mr. Brill's cards.
    Now, if I am an employer in that building and I am told by 
somebody that someone I am about to hire--for whatever reason, 
maybe he did not take the time, maybe he did not have the 
money, maybe he did not bother--could not clear that access 
procedure to get into my building, I am going to have some 
thoughts about whether to hire him.
    And I see those risks all the way down the line, if this 
goes forward.
    Mr. Rogers. Mr. Brill, do you have a response to that?
    Mr. Brill. Yes, let me take a crack at that. I might not 
have made what I had in mind as clear as I should have. Or 
maybe I did.
    [Laughter.]
    Either it worked or it did not work.
    I have this vision of something called the voluntary 
credentialing industry, but it does not mean that if you do not 
volunteer you do not get into an office building, or you do not 
get to watch a basketball game, or you do not get on the Staten 
Island ferry.
    What it means is that, today, there are risks other than 
airplanes. Much of the work of this committee has been devoted 
to looking at those other risks.
    There are ferry systems that are at risk. And yes, indoor 
sports arenas have risks. That is why they now have, you know, 
souped-up security operations.
    But, today, those people have one choice--actually, two 
choices. They can search no one, because it is just too much 
trouble and you cannot have a bottleneck to go into a 
basketball game or get on a ferry, or they can search everyone.
    If they had another choice, which was--we now know that 30, 
or 25, or 40 percent of the people coming through have this 
card because they got it at an airport, because there is such 
critical mass--and, by the way, in my written remarks, you will 
see that I favor giving this card for free to law enforcement 
officers, because they have already gone through the screening 
to have a card like this.
    This card should be given at a deep discount to hospital 
workers, and construction workers, and people who have already 
given their fingerprints and already been screened.
    So if a critical mass of 30, 40 percent suddenly shows up 
at a basketball game, and you know they are going to have this 
card, then you can make the decision, ``Well, maybe we can 
search the other 60 percent, whereas today we do nothing.''
    Risk management is about having a tool that says there is a 
better way than all or nothing. And that is the only simple--I 
do not propose that we set those rules.
    I agree completely with Mr. Rotenberg, by the way. We 
should be regulated just the way the federal government is 
regulated by the Privacy Act. If CEOs of companies like ours 
violate these promises, there should be criminal penalties. We 
favor the strongest regulation.
    We have held ourselves to that regulation, by the way, by 
making our promises part of our contract with our customers, so 
they can hire a class-action lawyer and sue us the day we 
violate any one of these things.
    But the government should regulate us. That is true. He is 
completely right about that.
    Mr. Rogers. Excellent. Thank you very much. I appreciate 
it.
    The chair now recognizes the gentleman from Washington for 
any questions he may have.
    Mr. Dicks. Mr. Rotenberg, let's go back to the watch list. 
In your statement, you point out some difficulties with this 
watch list, in terms of being able to get off the list.
    Tell us what your major concerns are.
    Mr. Rotenberg. Well, Congressman, simply stated, a person 
is placed on the watch list and they do not find a way to get 
off it. And they are pulled aside repeatedly.
    As you said earlier, there is anecdotal information. We 
have pretty good documentary information from the TSA. There 
has to be a way to get off these lists. I do not think--
    Mr. Dicks. And you are testifying that still today there 
really is not a way to get off the list?
    Mr. Rotenberg. That is correct, sir. That is my 
understanding.
    Now, I know that the TSA has been trying to fix this 
problem, for obvious reasons. I mean, it is a real problem. And 
I think they need to fix it.
    But we have not yet seen the procedure, the effective 
redress procedure that gets a person off a watch list. At best 
they seem, as was described earlier, either to receive a letter 
from the TSA--I am not sure how that would work--or some 
verification number to explain that the records have been 
referenced and the problem has been resolved.
    But neither of these procedures, if they exist, are 
routinely used.
    Mr. Dicks. You know, aren't there ways you could put in an 
address or some other thing so that the person could 
differentiate himself from the person who is one the list for a 
good reason?
    Mr. Rotenberg. Well, that may be the way to go. I mean, I 
think that TSA has to solve this problem, because they are the 
ones, in effect, that are enforcing the use of this data. Of 
course, it is shared across federal agencies. The TSA is not 
the only agency.
    But they are the ones who probably have the most 
interaction with the American public, because people are kept 
off planes when these errors occur.
    Mr. Lungren. [Presiding.] Would the gentleman yield on 
that?
    Mr. Dicks. Yes, I yield.
    Mr. Lungren. Part of the question we have had before is 
whether or not TSA would be allowed to query commercial 
information banks, databanks, that might be able to 
differentiate by way of address or some other mechanism, to 
show, for instance, when we had John Anderson, the former 
presidential candidate here, who happens to have been caught a 
couple of times on watch lists because evidently there is 
somebody else with the same name.
    But then people have said that that raises its own privacy 
concerns. Would you believe we ought to go in the direction, 
which would not allow TSA to own that, but would allow them to 
query a number of different commercial databanks to see if, in 
fact, they can differentiate these people?
    Mr. Rotenberg. Well, I will just mention, Mr. Chairman, 
that the advisory committee of homeland security that works on 
privacy issues looked at this recently. I do not know if you 
have seen their report yet. But they actually recommended 
against the use of commercial data.
    Mr. Lungren. No, but I was asking for your opinion.
    Mr. Rotenberg. Well, I agree with them. I think the report 
is useful, because it suggests that you will actually introduce 
more sources of error, believe it or not--I mean, it may sound 
good to get more data, but then you introduce more problems 
about how you reconcile information now held by a government 
agency and maybe held by a credit reporting agency.
    Names are misspelled. Addresses are changing. It is not a 
simple problem to solve. I do not know the solution.
    And I wanted to mention, also, Mr. Chairman, I spoke 
recently with John Anderson. He asked me to come and talk about 
this issue at his law school. He is still very concerned about 
it.
    Mr. Dicks. Let's go back to this business model, Mr. Brill. 
Explain again how this is going to work.
    You are going to have competition between companies at each 
airport. And then each airport is going to decide how to--
    Mr. Brill. I think that Administrator Hawley was--what he 
was alluding to, that there are several possibilities. I must 
tell you, I got to know Mr. Hawley very well when I was doing a 
book and I admire him greatly.
    And I guess I would be candid to say, when I knew him, he 
was running the go-teams at TSA. And Justin Oberman was on one 
of those go-teams. And I wish they would do a go-team attitude 
with this thing instead of the way they have laid out this 
schedule.
    I do not think this is that hard. The business model can be 
what the airport decides as its agenda or the airline, which 
controls a terminal, can make it.
    For example, we are in discussions with one airport that we 
are very close to having an agreement with where we are signing 
with them a non-exclusive concession agreement. We are saying, 
``Let us in. Let us operate. And if you let someone else in to 
operate, that is okay, too. We will compete in that airport.''
    Now, other airports, such as Orlando, offered an exclusive, 
in effect, concession agreement, but that does not make it 
captive.
    And it does not make it exclusive once there is 
interoperability, because Larry Zmuda over here from Unisys, if 
he has a program, and he will, he can set up shop in downtown 
Orlando, or at the convention center, or anywhere he wants, and 
sell his cards against our card in Orlando. And we will be 
competing.
    So we have to compete on three bases, privacy--I think is 
the thing customers are most concerned about--price and 
customer service. And as long as you do everything you can to 
make this a hotly competitive playing field, including the 
possibility of competing business models, then this can spread 
very rapidly.
    I do not think the government, or the airport authority, or 
anybody, even Congress, should attempt at this point to figure 
out an industry that is just being born. I think what 
Administrator Hawley was saying is, we want to watch this 
happen, and we want to allow for different business models.
    Mr. Dicks. Is there an anti-trust concern about, if you 
have to make these cards interoperable? I think that is the 
right phrase.
    Mr. Brill. There would be definitely--
    Mr. Dicks. Would there have to be--some kind of an anti-
trust waiver? Because each company would have--you know, then 
you would have to share information about your card with the 
other person.
    Mr. Brill. No, and I am glad you mentioned that. The most 
important thing about interoperability has to be that, whoever 
manages it, whether it is AAAE Clearinghouse or anybody else, 
what they should manage is a unique--and I think Marc would 
agree with me--a unique identifier, not the names, and the 
customer information, or anything else, about that person.
    And we had a meeting over at AAAE yesterday, and they said 
that.
    Second, as long as the only thing that clearinghouse does 
is set the rules, the technical rules, for us to exchange, but 
does not tell me, or Larry Zmuda from Unisys, or anybody else, 
or an airport what they can charge, how they should market it, 
or anything else, as long as, you know, those rules of in an 
``orderly marketplace''--which is where anti-trust violators 
get into trouble when they start talking about orderly 
marketplaces--as long as they do not do any of that, then it is 
fine to have interoperability and have rules, just technical 
rules, that basically say, ``My card has to work with his.''
    Now, he and I have already said our cards are going to work 
together. We could sit in a room and do that. Again, I am not 
sure why this has to be some big committee, as long as someone 
makes us--
    Mr. Dicks. All you have to do is show the card?
    Mr. Brill. No.
    Mr. Dicks. Or does it have to go in through a machine?
    Mr. Brill. You put the card into a kiosk, and then you put 
your thumb or your iris image, whichever you have chosen when 
you enroll to be your primary.
    Now, we use the same kiosk maker--that we use, I think, 
Unisys uses. And this technology is no longer rocket science. 
This is off-the-shelf stuff. If it was rocket science, I would 
not be sitting here talking to you about it.
    Mr. Dicks. All right.
    Thank you, Mr. Chairman.
    Mr. Lungren. Mr. DeFazio?
    Mr. DeFazio. Thanks, Mr. Chairman.
    Mr. Barclay, as I understand it, you are doing the airport 
work on a cost-based, nonprofit basis, is that correct?
    Mr. Barclay. Yes, sir.
    Mr. DeFazio. Okay. Would it be possible to extend a system 
so that we could have a cost-based, nonprofit model for a 
trusted traveler card?
    Mr. Barclay. That is where the clearinghouse portion of the 
thing, that is exactly what we are proposing and have been told 
by our bosses to do.
    Mr. DeFazio. Okay. So you are saying the services you 
provide, which would be to actually input the data for the 
person and get a clearance, yes or no, would be nonprofit, 
cost-based?
    Mr. Barclay. But we would not be inputting the data under 
most of the models. What a clearinghouse does is, you have got 
400-plus airports--
    Mr. DeFazio. Right.
    Mr. Barclay. --which all have to feed information in. They 
all do it a little bit differently, but it is got to comply 
with some basic standards. And then you have got to make sure 
it goes into government in the right way the government wants 
to see it all.
    Mr. DeFazio. Right, well, that is where you come in.
    Mr. Barclay. That hub part is the only part that we wind up 
doing.
    Mr. DeFazio. Right.
    Mr. Barclay. The collection of the data itself--
    Mr. DeFazio. But you have done this at individual airports 
around the country?
    Mr. Barclay. Yes. We currently do that for airport 
employees.
    Mr. DeFazio. Right. So you could have a system where, 
perhaps, we cut out the middleman, people could come to the 
airport, they could fill out a form, input their data, and we 
would not have a private vendor messing with their privacy 
information at all?
    The government would say yes or no to the vendor that they 
could have a card. I mean, that is the way, for instance, the 
purchase of a firearm works today. The firearms dealer does not 
get your record. They do not get anything other than your basic 
identification. They get a yes or a no.
    Couldn't we have a system like that, so we do not have to 
worry about the private vendors?
    I mean, I have heard from Mr. Brill. Except two words come 
to mind: ChoicePoint. There are a few other words out there 
about massive privacy losses, where individuals have no 
recourse. It is like, ``Oh, sorry, your data has been 
compromised. Your identity has been stolen, but''--
    Mr. Brill. Well, Congressman, you still have the--
    Mr. DeFazio. No, I did not ask him. Mr. Brill, Mr. Brill, I 
will get to you in a moment. I am just asking Mr. Barclay.
    Mr. Barclay. Sir, it is technically possible to do it that 
way--
    Mr. DeFazio. Okay.
    Mr. Barclay. --but it has not been the selected model that 
we have been--
    Mr. DeFazio. Okay. Well, and Mr. Brill, if you were closely 
following the Republican Congress, they are dramatically 
restricting class-action lawsuits. You were talking about 
class-action lawsuits against you or others who have violated 
their contracts, but we are pretty quickly doing away with that 
option for consumers.
    But let me go to your comments, Mr. Brill. You said that I 
did not characterize it properly. Let's go through this step by 
step.
    You competed to get a contract at Orlando, correct?
    Mr. Brill. Correct.
    Mr. DeFazio. Okay. Now, were you the low cost, in terms of 
the charge to the consumer?
    Mr. Brill. It turns out we were, yes.
    Mr. DeFazio. Okay. Were you the largest cut to the airport?
    Mr. Brill. Excuse me?
    Mr. DeFazio. Did you give the largest percentage to the 
airport of the proposals?
    Mr. Brill. Yes, we did.
    Mr. DeFazio. Okay. All right, so we have the lowest cost, 
but the largest to--now--
    Mr. Brill. That shows pretty good management.
    Mr. DeFazio. --what is an individual's choice when they go 
to Orlando? Can I call up a competitor and get another card, or 
do I have to buy your card, if I do not want to stand in the 
31-minute line?
    Mr. Brill. Well, one of the reasons I am here is to get 
individuals that choice by having an interoperable--
    Mr. DeFazio. Right. That would be good. But it does not 
exist today. And I want to make certain that it does.
    Now, I guess I would wonder why this has to be airport-
based at all. And I would put that to any member of the 
committee. If we are truly going to have, as I put to Mr. 
Hawley, people out there offering competitive cards, why should 
the airports be involved in that at all?
    Mr. Brill. Well, I can give you what we have been told by 
TSA, which is their view that, for them to operate, and 
authorize, and regulate a program, they have to do it in 
contract with, or agreement with, a regulated entity, one of 
which can be an airport, the other of which can be an airline.
    And I think the airlines are likely to get into this, too. 
But could they do it with, you know, a retail operation not at 
the airport? I guess. But they do not think they can.
    Mr. DeFazio. The kiosks are becoming fairly standard 
technology. If we just adopted a standard for kiosks, and 
anybody could sell a card that would work in that kiosk, who 
has been vetted, confirmed, and not be al-Qa'ida or somebody 
else, you know, to be a proper business entity, now that would 
give true competition.
    I remain extremely concerned--and as I said to you in the 
office and here--that, if you got a lock through the airports, 
who are desperate for revenue, or you got a lock through the 
airlines, who are desperate for revenue, that we are going to 
find big add-ons for them and that consumers are not going to 
have that many options.
    Now, if every airport is doing it then, yes, maybe you will 
have some competition and some of them will undercut other 
public entities and try and do that, but I really do not 
believe the airports should be getting a cut. I just do not 
believe it, and I do not see why that should be, that an 
airport would get a cut.
    I was the Democratic sponsor of reinstating passenger 
facility charges. They had been hugely abused by airports, 
public airports, across America, where they were running the 
airports and their local government on charging people at the 
airports. They were done away with for almost 20 years.
    I can see the same thing happening here. I mean, I have 
already had airports come in. They want to stretch PFCs. They 
want to stretch the definitions.
    They are desperate for revenues. ``Oh, here is a new profit 
center. We are going to get a 25-percent cut on every card at 
our airport.''
    I have tremendous concerns about industries and/or entities 
under pressure that get a cut. So I would suggest that a proper 
business model would be the kiosks are installed, you know, how 
they are installed, the airport has to be involved in that.
    But the card itself could be marketed by anybody in that 
interoperability. And then you would have true competition. But 
absent that, you are not going to have true competition.
    Mr. Brill. May I just respond to that for half a second?
    Mr. DeFazio. Sure.
    Mr. Brill. I will leave to--the issue of whether airports 
should or should not charge a fee. We were presenting--
    Mr. DeFazio. Well, he did not take much of a position on 
that.
    Mr. Brill. Well, I mean, if I were paying less of a fee at 
an airport, obviously, I would like that better. And we would 
have a lower cost to the consumer.
    But the issue of simply having a kiosk at a grocery store 
or a 7-11 for which you could--I probably have not been--
    Mr. DeFazio. No. We are talking about kiosks at the 
airports that you plug the card into--
    Mr. Brill. Well, but it is not that easy.
    Mr. DeFazio. --like the one that is sitting idle at 
National today, for instance.
    Mr. Brill. We employ 54 people at the Orlando Airport to do 
that enrollment. You have to take people's prints. You receive 
their documents. You have to make sure their identity documents 
are authentic. We put those documents through machines. It is 
not an automatic process.
    Mr. DeFazio. Right. But you do not have to do that at an 
airport. I mean, you could be MasterCard and doing it all 
around America. You do not have to be at an airport to do it.
    Mr. Brill. We have to screen our employees, and we have to 
train them, and we have to do it. I am not suggesting that the 
airports or any venue should have a monopoly on sales of this. 
I am simply suggesting that it is a little more complicated 
than simply--
    Mr. DeFazio. I am not saying it is simple.
    Mr. Brill. --than going to a soda machine and buying a can 
of soda.
    Mr. DeFazio. It is becoming a very complicated process, by 
virtue of the fact that we have a government that is obsessed 
with privatization and, instead of having a standardized 
technology chosen in a competitive bidding process with a 
vendor nationwide and installing that nationwide, and having 
the people who use it pay for it, they are obsessed with some 
sort of lame semi-competitive model that might or might not 
involve airports, might or might not involve airlines, might or 
might not involve other vendors.
    They do not really know. ``That might be an interesting 
business model. Gee, we do not know. We want to see what they 
propose.'' And somehow we are going to get great security, a 
low price, and integrity out of this system?
    Because we want to go all the way around the barn instead 
of saying, ``This is pretty simple. The government will ask for 
vendors. The vendors will compete. Somebody will win with a low 
bid, and they will install the equipment in the airports 
nationwide. And then we will defray the costs.''
    Instead, you know, that is--
    Mr. Brill. Well, sir, you mentioned ChoicePoint. Who does a 
customer who has signed up in a government program--now, I 
might remind you that the Registered Traveler pilot projects 
involve 10,000 people and I think they cost $13 million.
    Mr. DeFazio. I am not saying that this administration is 
efficient, effective, or runs government well, or runs it like 
a business. And I am not defending their miserable record in 
transportation security or any place else. So they are not a 
good model.
    Mr. Brill. I was not actually assuming you were.
    Mr. DeFazio. And I understand. That is fine. But what I am 
saying is the government could, by competitive contracts, have 
all that work done and have it standardized nationwide.
    Mr. Brill. But the question I was going to raise is, if I 
violate one of our customer's privacy--we have very specific 
standards--they can sue me. They can cancel their membership.
    They can get our customer service people on the phone 24 
hours day. They can usually, in fact, get me on the phone, or 
by e-mail, because I have a profit incentive. These people are 
paying us $79 a year, and I am obsessed with getting them to 
renew their subscription.
    I say, with all due respect, that the way to make this 
program work is to make it competitive and not have a 
government contractor be given $4 billion, or $5 billion, or 
$10 billion, or if you extrapolate from the pilot project, $35 
billion to do a program where you will not be able to get 
anyone on the phone.
    You will have no redress if your privacy is violated, 
except, I guess, to write to your congressman. And you will 
have no lawsuit. You will have nothing. And I do not think the 
program would work as well.
    Mr. DeFazio. Well, that is one view of the world. But this 
mish-mash that they are proposing, which--you know, it is just 
not clear to me that we are going to have an interoperable 
technology. We are going to have multiplicity of vendors, which 
may or may not have to get an airport to sponsor them to become 
a vendor, may or may not have to get a desperate, bankrupt 
airline to sponsor them to become a vendor.
    And then somehow this is going to become a program with 
integrity, and it is going to be universal, and it is not going 
to discriminate against small airports, as opposed to large 
airports, with its competition, and all the other problems we 
have had with competition in this industry.
    So I know you have faith in what you are doing. I am sure 
you provide a good product. At this point, it is small and 
manageable. But I have concerns about the indifference of the 
administration, which is, ``Well, they will come in with stuff, 
and we will kind of figure out a process, and we will choose 
something.''
    They are not even saying--you know, they do not have any 
vision at all about how this is going to work at the moment. 
They are not even saying it is going to be airport-based.
    Thank you, Mr. Chairman.
    Mr. Lungren. And I just want to make it clear, Mr. DeFazio, 
I would never accuse you of defending the administration.
    [Laughter.]
    I would like to ask some of my questions that I missed 
before.
    Mr. Zmuda, you have been sitting there quietly with no one 
asking you a question. I feel compelled to give you a chance.
    And my question would be something that would be directed 
at both you and Mr. Brill, and that is, what is the incentive, 
what is the possible incentive for you in the private sector to 
invest your resources into the screening technology at the 
airports?
    You do not actually do the screening. You are prior to the 
screening. You are giving them people that they can identify in 
a certain way. Or would you have any incentive to do that?
    Mr. Zmuda. No, our incentive is not to take over the job of 
TSA to do the screening. Our job is to support and provide 
benefits to the traveling public, to provide them an expedited 
process.
    By providing the security systems that TSA currently 
employs and staffs, then you are getting into decisions on 
security. And those are things that the private sector should 
not make a decision on. So, from my perspective, there is no 
incentives for me to get into TSA's job.
    Mr. Lungren. Mr. Brill had suggested there would be an 
incentive to make capital expenditures to allow the use of the 
newest technology in those lines that are dedicated to the 
Registered Traveler. Would you accept that as part of your 
business model, or would you allow him to do that as your 
competitor and not worry about it?
    Mr. Zmuda. No, I think, in terms of testing out the latest 
technology, whether it is RFID capability or facial 
recognition, as that new technology can be introduced into the 
marketplace, it is something that we definitely want to invest 
in, because, like Mr. Brill stated, the goal is to provide the 
best product to the customer, where they are going to want to 
sign up for this program and also receive a benefit, all in the 
same time ensuring that the security of not only the airlines 
but the airport is remaining intact.
    And that is why there has to be that separation between 
services that the private sector provides upfront, and it 
remains separate from what the TSA does in the security 
checkpoint process.
    Mr. Lungren. Let me ask Mr. Barclay, and Mr. Brill, and Mr. 
Zmuda this question. That is, some would say that al-Qa'ida and 
their affiliates, or even the wannabes, are very good to adjust 
to whatever we might do. Wouldn't this give them a better 
opportunity?
    Here we are giving people a free pass. They pay $75 or 
$100. And one of the attributes of the program, as you, Mr. 
Brill, have talked about, and you, Mr. Zmuda, have talked 
about, and, Mr. Barclay, being with the airports, you folks 
have suggested you do not go through quite the same screening 
that everybody else does.
    You would not have to take your coat off. You would not 
have to take your shoes off. You would not have to have your 
P.C. opened up and looked at. Wouldn't that create a 
vulnerability?
    Mr. Zmuda. Well, one thing that you do have, it is part of 
a layered approach. Because the people that enter this program 
first have to provide, you know, government documentation and a 
photo I.D. that can be checked to make sure that is not a 
forged document.
    Then the next process is providing fingerprint and iris, or 
whatever the biometric that is determined. And then, from that 
point, the background check.
    And then, even after those layered approaches, you still 
have to go through some security checkpoint that the TSA 
provides. So that layered approach to security is one way to 
counter what you were just looking at.
    Mr. Lungren. Mr. Brill?
    Mr. Brill. We have stated explicitly that we want to and, 
in fact, we are already talking to vendors of equipment. And 
while that is something that will help us move people through 
faster, it also adds some security.
    But, you know, the basic point is that every security 
system has holes. And the difference is the trade-off between 
what you get by taking a risk management approach and what you 
get by just making people selectees because they had their 
flight cancelled and they have to fly through, you know, 
Phoenix instead of Dallas.
    Are we safer as a country through that approach versus this 
approach? But I do think that there are lots of ways to plug 
those holes.
    One of the things that Mr. Hawley mentioned is, in part, 
the randomization of searches even for members. And I will tell 
you that I have never heard a security expert say anything 
other than the fact that, no matter what system you are using, 
you do need to have some element of randomness to it. The 
question is, how often and how widespread that is.
    Mr. Lungren. Mr. Barclay?
    Mr. Barclay. Yes, I think the argument that this could be 
gamed by al-Qa'ida is an argument you have to use when you look 
at the fact that we trust background checks to let federal air 
marshals on airplanes with loaded guns. We let law enforcement 
on airplanes with loaded guns.
    We use the notion of background checks of people to trust 
that they are reliable in the system and not threats to the 
system. And we try to get those, that background check process, 
as tight and as good as you possibly can.
    But it is not just true of registered travelers, if you 
have a problem with that. It is true of a lot of people we 
currently trust in the system.
    So, as Steve said, there is no perfect system. But you can 
run a very tight system. And, overall, you can get a higher 
level of security, we believe.
    Mr. Rotenberg. Mr. Chairman?
    Mr. Lungren. Yes, Mr. Rotenberg.
    Mr. Rotenberg. If I could just have a word on this. 
Actually, I had the opportunity to address this issue before 
the 9/11 Commission.
    And the point that I made then is that I think it is very 
important, particularly with aviation security, to keep the 
focus on devices and instrumentalities that pose the threat, as 
opposed to the individuals.
    And I can tell you that the threat scenario for the 
Registered Traveler program is not generally very well 
understood. I do not think it is the case that we have to be 
concerned that someone in deep cover is going to be authorized 
under Registered Traveler to board a plane.
    I think we have to be concerned about that someone else is 
going to exploit a person's Registered Traveler status to get a 
device, an explosive, onto a plane that causes the harm.
    And I am sad, actually, that Mr. DeFazio is not here, 
because I think he made a very good point at the opening of the 
hearing, with explosives being a primary threat to aviation 
security. Anything that might diminish our ability to detect 
the presence of explosives on an airline passenger, whether or 
not that airline passenger is aware of the presence of the 
explosive, actually poses a threat to our nation's security.
    So I hope nothing about this program leads to a reduction 
in efforts to detect those devices or weapons that might 
threaten passenger safety.
    Mr. Lungren. Thank you.
    Do you have any more questions?
    Mr. Thompson. Thank you, Mr. Chairman.
    I guess the comment is, for all four of your gentlemen, is 
that we have been toying with Registered Traveler program for 
about 3 years now. There appears to be significant support for 
it in Congress, as well as the traveling public.
    Why do you think the program is slow getting off the 
ground?
    Mr. Barclay?
    Mr. Barclay. I will start, Congressman. It was a privilege 
of mine to be appointed by Secretary Mineta right after 9/11 to 
one of the rapid response teams for airports, together with 
several airline CEOs and some other security experts.
    And the very first recommendation, back right after 9/11, 
was we need a Registered Traveler, at that time a trusted 
traveler, program in order to make the haystack smaller, as 
everyone keeps talking about.
    And it was understandable, when TSA started, they had a 
whole lot of priorities on their plate, including standing up 
an agency that was extraordinarily large.
    And it seems like this has always been a issue. Every time 
it gets up to the top of somebody's pile who is the head of TSA 
to make a decision on--Kip Hawley, who is terrific, is their 
fourth leader of TSA. And it has been one of those programs 
that keeps seeming to run up and down the pile, because of 
other priorities that have been perceived.
    So, hopefully, with the time line that Assistant Secretary 
Hawley set out today, we are really on the right path.
    Mr. Brill. In part, a lot of this is complicated stuff. And 
I do not want to minimize it. I do think there was a lot of 
debate early on, first of all, over whether a program like this 
was necessary.
    Because, if you will recall, the original CAPPS II, I guess 
it was going to be, or CAPPS I, whatever, you know, was going 
to work so well that it would classify everybody. So why would 
you need it, I think is what some people in Secretary Ridge's 
office thought.
    And these are significant policy issues. And then there are 
the questions of what the business model would be. But having 
said all that, I think we are now at a point--I mean, we were 
asked to submit data from Orlando.
    Orlando was ostensibly a pilot project. We submitted the 
data, I think, 5 days before the deadline and the day after we 
collected it. They have had it since September 26th. They can 
evaluate it. It is pretty clear.
    I think Administrator Hawley made clear that they have made 
their basic value judgments and they are moving forward. I have 
the same question, I think, you or one your colleagues asked, 
which is, ``I do not understand what in a voluntary program 
they would need a year's worth of rulemaking on the criminal 
records check.''
    I do not understand why they have to wait until April to 
some of the things they said they were going to take until 
April to do. But I am just a naturally aggressive and 
frustrated person, because I want to get this thing done, and I 
have been working on it for 2 years, so I am not the person who 
has very good perspective on this.
    Mr. Zmuda. I think there is basically three areas that the 
TSA has been wrestling with. I mean, one of the things that 
came out of the pilots was testing out different technology.
    At one airport, we did not even use smart cards. Other 
airports, we used a different type of card. And then, in a 
third, we used an actual smart card with the biometric and 
biographical data on there.
    So evaluating all the technology that was deployed in the 
pilots was one thing that TSA needed to take into 
consideration. Transferring this from a wholly owned public 
model, which the pilots were, and transitioning it to a public-
private partnership took additional time.
    And airlines and airports, as well as the traveling public, 
are looking at policy decisions to alleviate some of the things 
that are needed, such as, you know, taking out the laptops and 
so forth.
    I think all of those TSA has been able to make decisions 
on. And I am hopeful that, you know, with the rest of the 
people at this panel, that, given all this information and 
decisions, we can roll out.
    If it is earlier than April, I think I would be ecstatic, 
as well. But hopefully they have all the information that is 
necessary.
    Mr. Rotenberg. I think this is, as the computer scientist 
would say, a hard problem. It is not so difficult to make a 
device that can detect whether someone is carrying a gun onto a 
plane or to make that device very sophisticated, if the gun is 
made of other materials.
    But to create a device that relies on personal data that 
can determine what someone's is intent is when they board the 
plane is much, much more difficult. And even though it might be 
tempting to say, if someone is properly cleared, we can put 
them on the plane with assurance that nothing bad will happen, 
we know that in practice it is not that simple.
    And I do not see a simple solution to this, which is why I 
do believe you should continue to focus on the detection of 
devices that pose a threat to aviation security.
    Mr. Lungren. Thank you, Mr. Thompson.
    And I thank the witnesses for their valuable testimony and 
the members for their questions. The members of the committee, 
as you may have heard before, may have additional questions for 
you in writing. And, if they do, we would ask that you would 
respond to them in writing.
    The hearing record will be held open for 10 days.
    And thank you, once again.
    Without objection, the committee stands adjourned.
    [Whereupon, at 2:31 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


                 Questions and Responses for the Record

  Questions from Hon. Daniel E. Lungren for Charles Barclay Responses

    1. The statement of principles you have circulated to members of 
your Registered Traveler Interoperability Consortium seem to imply that 
those airports that do not join the consortium and abide by the rules 
it established--including ``business rules'' and rules related to how 
RT programs are marketed and advertised--will not be able to have 
interoperable registered traveler programs. Yet in your testimony you 
state that membership in the consortium is voluntary. Can you explain?
    Answer: The Registered Traveler Interoperability Consortium was 
formed by a group of airports to establish common business rules and 
technical standards to create a permanent, interoperable and vendor-
neutral Registered Traveler (RT) Program that will bring passenger 
screening consistency and improved security procedures to air travelers 
in the United States. From the very beginning, the RTIC has strived to 
be as open and inclusive as possible, inviting all airports, airlines, 
and interested vendors to the table to participate in the establishment 
of standards necessary to ensure that the program is nationwide and 
interoperable. Membership in the RTIC has always been, and will 
continue to be, voluntary. We are pleased to report that more than 60 
airports of all sizes from all areas of the country are involved in the 
RTIC effort along with virtually all vendors with an interest in the RT 
program.
    While the RTIC does envision playing a key role in the 
establishment of those standards and looks forward to working closely 
with TSA on their ultimate adoption and implementation, we believe that 
non-participating airports maintain the freedom to make decisions 
locally about what vendors and service providers offer the best 
alternative at their facility consistent with the standards ultimately 
approved by TSA. With common standards and an open-architecture, we 
believe that each airport will have the autonomy necessary to design 
local solutions to unique local situations while being part of an 
interoperable RT program.

    2. The same statement of principles says that members of the 
consortium will vet and certify service providers. Yet, Mr. Hawley's 
testimony stated that TSA was going to certify service providers. Can 
you explain? And are there airports who are members of this consortium 
willing to assume the liability attendant with such certification?
    Answer: As Director Hawley pointed out, TSA will have 
responsibility for the regulatory function of certifying vendors that 
participate in the program. The RTIC's role with regard to 
``certification'' is merely to assist TSA in ensuring that 
participating vendors are meeting the standards established by TSA in 
an operational context--that is to say that they are conducting 
business on a day-to-day basis in a manner that is consistent with the 
security, operational, and technical standards established by TSA or 
airport operators.

    3. Do you intend for the clearinghouse to keep any central 
repository of names and personally identifying biographic and biometric 
information? We understand that the service providers, the airlines, 
and privacy groups want to keep this information decentralized, that 
is, in the service providers' own secure date warehouses, and simply 
transmit to the clearinghouse a unique identifier for each member, in 
order to assure privacy and security and prevent there from being one 
central source of such information. Do you agree that the clearinghouse 
should assume this limited role?
    Answer: There is not yet unanimity regarding the utilization of a 
centralized biographic and biometric database, and at this point no 
final decisions have been made by TSA, airports, or vendors interested 
in participating in the Registered Traveler program with regard to the 
specific utilization of the Transportation Security Clearinghouse. For 
our part, we are committed to meeting the requirements for the 
clearinghouse--whatever they may eventually be in order to enhance the 
efficiency and security of the program. We believe that the ongoing 
RTIC process and TSA's public comment process will ensure that the 
concerns of service providers, the airlines, privacy groups and others 
in this area are appropriately addressed, and the clearinghouse is 
committed to operating in compliance with whatever standards are 
established in this area.

    4. What exactly will the clearinghouse charge? Your testimony 
referred to $7 to $25.00, but those are amounts charged for actual 
vetting against data bases. Here TSA has made it clear that it will 
provide a charge for vetting and the AAAE would simply be providing an 
exchange service for names or unique identifiers, a service that 
technology experts tell us should cost pennies per member per year. 
Please tell us what you would charge, and how you intend to assure that 
this is a market-driven charge.
    Answer: Currently, the charge for processing fingerprint-based 
criminal history background checks for airport and airline employees is 
$29--$7 of which goes to the Transportation Security Clearinghouse for 
a host of functions including technical and administrative work and 
other duties assigned by TSA. The $29 figure compares with the roughly 
$100 that is currently being charged by a different entity to process 
criminal history background checks for HAZMAT truckers.
    Since the specific functions for the Transportation Security 
Clearinghouse have yet to be defined as highlighted in the previous 
question, it is impossible to say what the TSC will eventually charge 
for services that TSA, airports, and vendors participating in the 
program may ultimately request. It is important to highlight for the 
Committee again, however, that the TSC is owned by our airport members 
and that those members are and will remain important TSC customers. The 
mandate that we have from our membership--the TSC owners--and from our 
partners involved with the RTIC is to be transparent and cost-based. We 
will continue to meet that mandate as we have over the past four years 
with the successful processing of more than 1.9 million criminal 
history record checks for airline and airport employees.

    Again, I would remind the Committee of the successes of the TSC to 
this point:
        <bullet> The TSC process has reduced the time it takes for 
        airports to get fingerprint results from often more than 50 
        days, pre-September 11 when submitting to OPM, to an average of 
        four hours, with many reports completed in around 40 minutes. 
        This reduction in time has enabled airports to put their 
        employees on the job where they are needed, without the need to 
        pull another valuable employee from their duties to serve as an 
        escort. The TSC has saved the industry hundreds of millions of 
        dollars in productivity gains and employee retention as a 
        result of reduced fingerprint check processing times.
        <bullet> Because of innovative in-house technical work, the TSC 
        performs ``real-time'' processing to transmit fingerprints to 
        the federal system in an average of 16 minutes. The TSC's 
        ``real-time'' processing dramatically increased the efficiency 
        and timeliness of the airport fingerprint submission process.
        <bullet> Centralization of the fingerprint tracking process 
        allows for accurate fingerprint submission status at any point 
        in the background check process virtually eliminating ``lost 
        fingerprints'' within the federal system. Ensuring that airport 
        employees can return to work and not have to be called back for 
        repeated fingerprinting due to missing fingerprints this 
        centralized process has saved airports thousands of wasted 
        employee work hours over the last three years.
        <bullet> Because of AAAE's ability to do the technical and 
        administration work ``in-house'' and subsidize labor and other 
        costs for the formation of the clearinghouse, the resulting 
        cost savings allowed TSA to lower fingerprint processing prices 
        from $31 to $29 (for electronic submissions), saving the 
        industry over $3 million dollars.
        <bullet> FBI indicates that the submissions of the aviation 
        community done through the TSC had one of the best error rates 
        in the U.S. (2%) and that this reduced error rate was directly 
        related to the quality checks and error corrections performed 
        by the TSC. The current federal average error rate is 8%. Since 
        the TSC began operations, the error rate has continued to 
        decline, with a significant drop when the TSC brought its ``in-
        house'' developed software package online. This equates to 
        approximately 32,000 aviation workers that did not have to go 
        through the time consuming process of reprinting due to errors 
        created at the airports' print office with a cost savings of 
        $2.5 million dollars to the industry.
    The TSC is owned and controlled by its key customers--public 
airports--and has a four-year track record of modest, cost-based 
charges. We will continue this operating model in the future because it 
is built into the TSC's structure.

     Hon. Daniel E. Lungren Questions for Hon. Kip Hawley Responses

    1. The statement of principles circulated by the American 
Association of Airport Executives to members of the Registered Traveler 
Interoperability Consortium (RTIC) seems to imply that those airports 
that do not join the consortium and abide by the rules it establishes--
including ``business rules'' and rules related to how RT programs are 
marketed and advertised--will not be able to have interoperable 
registered traveler programs.
    Is that the way you view AAAE's role? Please explain in detail how 
TSA will utilize the Transportation Security Clearinghouse for the 
Registered Traveler program.
    Response: The Transportation Security Administration (TSA) expects 
to utilize the Transportation Security Clearinghouse (TSC) as a central 
data management system for the Registered Traveler (RT) Program per a 
Congressional mandate included in the FY 2006 Department of Homeland 
Security Appropriations Act. In this role, the TSC will collect 
biographic and biometric data from all participating enrollment 
providers. It will then aggregate and format the data to government 
specifications, and pass the data through to the Federal Government to 
conduct security threat assessments. TSA will ensure that all 
information collected and stored is technologically interoperable with 
other Homeland Security and Justice criminal and watchlist databases 
and properly handled to meet privacy and security requirements. The 
clearinghouse will also maintain a database of unique identifiers 
matched to security assessment results that will be distributed to all 
participating airports to verify the status of passengers at the 
security checkpoints.
    In December 2005, TSA issued a Request for Information (RFI) 
seeking input from industry stakeholders regarding the business and 
interoperability rules that will govern the RT program. The precise 
role of the TSC regarding these rules and its relationship with other 
stakeholders will be considered as part of this effort. Comments are 
due to TSA no later than January 20, 2006.

    2. Does TSA support a level playing field for all service 
providers, regardless of whether they are members of the RTIC? If so, 
please explain how TSA will ensure this occurs?
    Response: The Transportation Security Administration (TSA) strongly 
supports a level playing field for all service providers, regardless of 
their affiliation with the Registered Traveler Interoperability 
Consortium (RTIC). The RTIC is a private entity, and TSA interacts with 
them on the same basis that the Agency interacts with other industry 
stakeholders. This principle of equal treatment is integrated into the 
RT development process as exemplified by the Request for Information 
(RFI) and TSA's having held an Industry Day that was open to the entire 
public. Through these means, TSA is broadly soliciting recommendations 
from all stakeholders regarding the RT business and technical models.

    3. The same statement of principles says that members of the 
consortium will vet and certify service providers. Yet your testimony 
stated that TSA was going to certify service providers. Can you 
explain?
    Response: The Transportation Security Administration (TSA) expects 
to procure an independent contractor to qualify all participating 
vendors. This contractor will use TSA guidelines and criteria to 
qualify vendors independent from the Registered Traveler 
Interoperability Consortium.

    4. The AAAE has convened a committee of service providers who, it 
says, are going to suggest business models for the RTIC (airports) to 
ratify. Your testimony stated that TSA was going to get input directly 
from the industry and makes its own decisions about the business rules, 
including the rules for interoperability. Can you clarify?
    Response: The Transportation Security Administration (TSA) will 
make all final decisions on the business model. Through the Request for 
Information, TSA has solicited input from the entire industry. The RTIC 
is simply one industry group that TSA hopes will provide input. The 
RTIC suggestions will be considered along with the input from other 
industry stakeholders.

    5. It is my understanding that AAAE, through its RTIC, will present 
to TSA one agreed to business model for the RT program. Did TSA request 
this approach or would TSA like to see multiple business models 
submitted?
    Response: Through the Request for Information, the Transportation 
Security Administration (TSA) has solicited various stakeholders to 
submit whichever business models they deem appropriate for TSA's 
consideration. TSA expects to review various business models in 
developing the RT business rules.

    6. Do you intend for the clearinghouse to keep any central 
repository of names and personally identifying biographic and biometric 
information? We understand that the service providers, the airlines, 
and privacy groups want to keep this information decentralized, that 
is, in the service providers' own secure data warehouses, and simply 
transmit to the clearinghouse a unique identifier for each member, in 
order to assure privacy and security and prevent there from being one 
central source of such information. Do you agree that the clearinghouse 
should assume this limited role?
    Response: The types of information to be kept by the Transportation 
Security Clearinghouse (TSC) will be determined in the final business 
model. The TSC will store a security threat assessment decision with a 
unique identifier for pass through to all verification providers in 
order to make eligibility determinations at the checkpoint kiosks on 
all participants in the program. Also, TSA will ensure that all 
information collected and stored is technologically interoperable with 
other Homeland Security and Justice criminal and watchlist databases 
and properly handled to meet privacy and security requirements. Any 
additional responsibilities will be defined in the business model to be 
published in the Federal Register and will be subject to a period of 
public comment.

    7. What exactly do you anticipate the clearinghouse will charge? 
Mr. Barclay's testimony referred to $7 to $25.00, but those are amounts 
charged for actual vetting against data bases. Here TSA has made it 
clear that it will provide and charge for the vetting and the AAAE 
would simply be providing an exchange service for names or unique 
identifiers, a service that technology experts tell us should cost 
pennies per member per year. Please tell us what will be the charge, 
and how TSA intends to assure that this is a market-driven charge? We 
assume that airlines that operate their own terminals will be able to 
create RT programs. The AAAE consortium does not seem to account for 
that possibility. Can you clarify?
    Response: The fee charged by the Transportation Security 
Clearinghouse (TSC) will be determined based on its role as defined in 
the final Registered Traveler business model. The Transportation 
Security Administration (TSA) will have a contractual agreement with 
the TSC making its cost structure subject to review.
    TSA expects that TSA and not TSC will conduct the initial and 
recurring Security Threat Assessment.
    Similarly, the final Registered Traveler business model will govern 
the role of air carriers in the program.

                                 <all>

</pre></body></html>
